<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2013

                              ----------                              --
--------

                                       Thursday, February 16, 2012.

                    QUALITY OF LIFE IN THE MILITARY

                               WITNESSES

CMSAF JAMES A. ROY, CHIEF MASTER SERGEANT OF THE AIR FORCE
SERGEANT MAJOR RAYMOND F. CHANDLER III, SERGEANT MAJOR OF THE ARMY
SERGEANT MAJOR MICHEAL P. BARRETT, SERGEANT MAJOR OF THE MARINE CORPS
MASTER CHIEF PETTY OFFICER RICK WEST, MASTER CHIEF PETTY OFFICER OF THE 
    NAVY

                       Chairman Opening Statement

    Mr. Culberson. Today, we are gathered to address the 
quality of life issues faced by our men and women in uniform, 
to make sure that they don't have to worry for one moment about 
the quality of the care that their families are receiving, that 
the quality of the housing, all the things that we take for 
granted in our day to day lives we want to make sure that our 
men and women in uniform take for granted as well, and don't 
have to worry about them, as they are out there on the front 
lines of freedom, protecting this great nation.
    We are immensely proud of your service. Gentlemen, we are 
thrilled to have you here today.
    You will find, if you don't already know, that this 
subcommittee works arm in arm, irrespective of party or 
geography or no matter where we are from, no matter what 
political philosophy we may have that got us here. We are all 
equally committed to make sure that we support you, that we 
help you.
    We are praying for you. We are proud to be here to do 
whatever we can to support you. And we are looking forward to 
your testimony today.
    And it is my privilege to welcome and introduce my good 
friend from Georgia, Mr. Bishop, for any comments he may have.

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you very much for yielding, Mr. Chairman.
    Mr. Chairman, as I said last year, I always look forward to 
this hearing. These individuals that are sitting before us 
represent that our military has to offer. And they always give 
us the best picture of what those on the front lines are 
dealing with.
    We talk a lot about facilities and equipment and strategy. 
But basically, it is the men and the women, like the ones 
sitting before us, that really make our military what it is 
today.
    I will say again that our service members make our military 
great. And it is our responsibility to make sure that you are 
taken care of. That is why we started the Military Family 
Caucus, so that we can better address the issues that you will 
be raising today.
    In all of your testimonies, you raise many issues that 
confront your respective services. And I would like for you to 
use this opportunity to tell us what we have gotten right, what 
we need to improve in order to ease the burden that is placed 
on our service members and their families.
    Just a few weeks ago, my staff and I were at Ft. Myer in a 
staff training session. And I heard directly from soldiers 
regarding some of the issues that they are facing.
    And I said, I would like to--I want to make sure that we do 
enough to help the service members and families, because the 
last thing that service members need to worry about is what is 
going on back home.
    Finally, I want you to know that as issues arise, we don't 
want you to hesitate to let the committee know what help you 
may need. And you can do it through the official channels or 
you can do it back channel.
    But the bottom line is we want to know what it is you need, 
so that we can do our dead level best to make sure that you and 
your service members have it.
    I yield back, Mr. Chairman.


                          QUALITY OF EDUCATION


    Mr. Culberson. Thank you very much, Mr. Bishop.
    During your testimony today, I would like to ask each one 
of you in particular to talk to us about--I am especially 
interested in the quality of education that is available for 
our men and women in uniform when they are based in different 
parts of the country.
    Do they have, in your opinion, good opportunities and 
choices for education? You know, the public schools are not 
always sometimes, unfortunately, the best where the bases are. 
And I am particularly interested in making sure that charter 
schools are available, that choices are available for their 
families, in terms of education for their kids.
    And we are just delighted to have each one of you here 
today. And I am going to introduce--I guess I could really 
introduce each one of you in turn.
    We will start with the sergeant major of the Army, Raymond 
Chandler. We are delighted to have you here with us today, 
sergeant major. You are a returning witness, of course.
    And you are already as my extraordinary staff points out, 
quite correctly, already sworn in on March 1st of last year. 
You have 31 years of service in the Army, sir. And we thank you 
so much for that service.
    You joined in June of 1981 and have served in all tank 
crewman positions and had multiple tours a troop squadron and 
regimental master gunner. And we are delighted to have you here 
today, sir, and look forward to your testimony.
    I guess I will--if you want to go? I guess I will introduce 
everybody and then we will just recognize you in turn.
    Also with us today is Sergeant Major of the Marine Corps 
Micheal Barrett.
    He is a first time witness. Delighted to have you with us 
today, sir. And assumed your current post as the 17th sergeant 
major of the Marine Corps on June 9th of 2011, after 31 years 
of service, enlisting about the same--it looks you all are 
pretty close, but he has got you by about 2 months--in March of 
1981 as an infantry instructor, assigned to numerous support 
duties that include an armor, nuclear, biological, chemical, 
non-commissioned officer and a training chief, and served in 
the Gulf War.
    Sergeant Major Barrett served with Task Force Papa Bear, 
completed two combat deployments in support of Operation Iraqi 
Freedom in the al Anbar Province, Iraq, and deployed to 
Operation Enduring Freedom in March of 2010, and becoming the 
NATO regional command, southwest command sergeant major for 
Nimruz and Helmand Province in Afghanistan.
    Thank you very much, sir, for your service and for being 
here today.
    Also, I want to be sure to introduce Master Chief Petty 
Officer of the Navy Rick West, who is here again as a returning 
witness, and also, of course, came in as the Master Chief Campa 
on December 12th of 2008, after 31 years of service, entered 
the Navy straight from high school in 1981.
    Master Chief West is a submariner, particularly near and 
dear to my heart, whose assignments include service on the 
staff of the commander, Submarine Force, U.S. Pacific Fleet, 
extraordinarily important these days with the Communist Chinese 
coming after us aggressively, breaking in and stealing every 
piece of intellectual property they can, both public and 
private, and chief of the boat aboard the USS Portsmouth.
    Most recently served as fleet master chief for the U.S. 
Fleet Forces Command. And we are delighted to have you here 
today with us, sir. Thank you for your service.
    Chief West. Thank you, sir.
    Mr. Culberson. And also, I want to introduce the chief 
master sergeant of the Air Force, James Roy, who is also a 
returning witness, and was appointed on June 30th of 2009. And 
your background, master chief, includes leadership roles at the 
squadron group, Air Force and combatant command levels and--
squadron group, Air Force and combatant command levels, and 
served as senior enlisted leader and adviser to the U.S. 
Pacific Command combatant commander and staff.
    And we are just delighted to have you here today, sir. 
Thank you also for your service to the nation.
    Folks who have really particularly served their nation and 
they are not recognized enough and thanked enough, I want to be 
sure to recognize your spouses. I understand that Mrs. Chandler 
and Mrs. Roy are in the room.
    Deeply grateful for your patience, your prayers, and the 
sacrifices that you and your families made.
    And if I could also ask that your wives, perhaps, also 
visit with me and some of the other members about education. 
What can we do to help make sure that the kids of the families 
that your husbands command are given every education 
opportunity that they need?
    We are delighted to have you here today. We thank you for 
taking the time to be here, and above all for your service to 
the nation.
    And without objection, your written statements will be 
entered into the record. And please feel free to summarize your 
remarks in about 5 minutes each, or as much time as you feel 
like you need, of course.
    We will flexible on this committee. I want to make sure 
that you are given ample time to tell us what you feel like you 
need to do from the heart, in addition to the official 
statement about what we need to do to make sure the men and 
women under your command are taken care of.
    We thank you all for your statements.
    And I would like--if I could, Chief Chandler, allow you to 
proceed, sir.

              Opening Statement of Sergeant Major Chandler

    Sergeant Major Chandler. Thank you, sir.
    Mr. Chairman, distinguished members of this committee, 
thank you for your invitation to represent the two million 
soldiers and families who make up our Army.
    This subcommittee has a tremendous responsibility in 
ensuring that we have what we need to accomplish our mission 
and take care of our soldiers today and into the foreseeable 
future. And I thank you for what you do for our Army on a daily 
basis.
    I want to stress the amazing work being done every day by 
our Army team. I have traveled almost 200,000 miles as the 
sergeant major of the Army this past year. In every place I go, 
you cannot help but be in awe of the professionalism, 
dedication and sacrifice of our soldiers every day.
    They are, quite frankly, the best trained, best manned, 
best equipped and best led force in our Army's history. Our 
families are the strongest and most resilient in the nation. 
And our civilian workforce is second to none.
    I am proud to be a part of this Army team. I would like to 
introduce three people here that have accompanied me today.
    First, the command sergeant major of the Army National 
Guard, Command Sergeant Major Richard Burch, who serves as the 
senior enlisted advisor for Lieutenant General William E. 
Ingram Junior.
    Also with me is the command sergeant major of the United 
States Army Reserve, Command Sergeant Major Michael D. Schultz, 
who serves as the senior enlisted adviser to Lieutenant General 
Jack Stultz.
    With these two distinguished warriors, I am proud to 
represent the all volunteer force, your United States Army.
    Also with me is my bride, who is the most ardent supporter 
of our Army families. And she has traveled with me on many 
occasions and is an inspiration to our Army families and to me 
on a daily basis.
    Over the past 10 years, our Army has been fully committed 
to combat operations in Iraq and Afghanistan. Secretary McHugh, 
General Odierno and I are proud of all of our soldiers and 
civilians and what they have accomplished over this last 
decade.
    We have proven ourselves in every engagement and continue 
to display a physical and mental toughness long associated with 
the word ``soldier.'' Even though we are in an Army in 
transition, our mission has not decisively changed.
    We must prevent war by our capacity, readiness and 
modernization, shape the environment that which we are in, and 
when called to combat, fight and win our nation's wars 
decisively.
    To ensure we are the decisive land force in the world, 
General Odierno has articulated five priorities: provide 
trained and ready forces for the current fight; develop the 
Army of the future; sustain the all volunteer force; adapt a 
leader development to meet our future security challenges; and 
to foster a continued commitment to our Army profession.
    With the successful completion of our mission in Iraq and 
continued transition to Afghan security forces, and the 
reduction of the United States presence in Afghanistan, the 
time is right to begin reducing our force structure to support 
these priorities.
    Over the next 6 years, the Army will reduce its active 
force and strength from 570,000 to 490,000 soldiers, which 
includes a reduction of at least eight brigade combat teams. We 
will accomplish these cuts in a controlled and responsible 
manner.
    Your support in managing this draw down is critical to our 
success. And though we are proud of the contributions of our 
soldiers and families over the last decade, and look forward to 
the challenges ahead, we recognize that there is still much 
work to be done.
    We must endeavor to meet issues associated with post 
traumatic stress, traumatic brain injury, wounded warrior care, 
suicide, sexual assault and harassment, and hazing head on, to 
ensure our soldiers are not only receiving the care they need, 
but also maintaining the good order and discipline we expect of 
a United States Army soldier.
    I, along with other senior Army leadership, am committed to 
this, and will not rest until we make significant and lasting 
improvements in these areas.
    In closing, I want to thank you for your support you have 
shown of the Army over the last decade. The post-9/11 GI Bill, 
one of the most generous benefits any soldier has ever 
received, increased survivor benefits for the families of our 
fallen, and your direct influence on our wounded warriors have 
made all the difference for our soldiers and families.
    We would not be the Army we are today without your 
continued support. I truly appreciate this opportunity to speak 
before you and tell you our story.
    I welcome your questions. Thank you. And Army strong.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.001
    
    [GRAPHIC] [TIFF OMITTED] T6023A.002
    
    [GRAPHIC] [TIFF OMITTED] T6023A.003
    
    [GRAPHIC] [TIFF OMITTED] T6023A.004
    
    [GRAPHIC] [TIFF OMITTED] T6023A.005
    
    [GRAPHIC] [TIFF OMITTED] T6023A.006
    
    [GRAPHIC] [TIFF OMITTED] T6023A.007
    
    [GRAPHIC] [TIFF OMITTED] T6023A.008
    
    [GRAPHIC] [TIFF OMITTED] T6023A.009
    
    Mr. Culberson. Thank you very much, sergeant major.
    Sergeant Major Barrett, we look forward to your testimony, 
sir. Thank you.

              Opening Statement of Sergeant Major Barrett

    Sergeant Major Barrett. Good morning. Chairman Culberson, 
Ranking Member Bishop, members of the subcommittee, right now, 
30,000 Marines are forward deployed around the world, defending 
our nation's liberty, saving strategic environments, training 
and engaging with our partners and our allies, ensuring freedom 
of the seas and deterring aggression.
    Over the past year, the forward presence and crisis 
response of America's Marines, working in concert with our most 
important joint partner, the United States Navy, has created 
opportunities and provided decision space for our nation's 
leaders.
    Your Marines were first on the scene to provide 
humanitarian assistance and disaster relief in Japan, Cambodia 
and Thailand. We conducted the first precision air strikes over 
Libya, and successfully executed a tactical recovery of a 
downed American aviator.
    We conducted non-combatant evacuation operations in 
Tunisia, and the reinforcement of our embassies in Egypt, Yemen 
and Bahrain.
    While accomplishing all of that, your Corps continued to 
conduct sustained combat and counter-insurgency missions in 
Afghanistan.
    General Amos and I have just returned from visiting many of 
our nearly 20,000 Marines and sailors currently deployed there. 
And I can tell you first hand that their martial spirit and 
their moral remain notably high.
    Through the fidelity and support of Congress, our Marines 
and sailors in the fight and at home have received what is 
necessary to ensure success over this past year. To best meet 
the demands of the future and the many types of missions 
Marines will be expected to perform now and beyond the post-OEF 
security environment, the commandant of the Marine Corps 
established four priorities.
    And to that end, we will provide the best trained and best 
equipped units, who will forward deploy into harms way. We will 
rebalance our Corps and posture it for the future.
    We will better educate and train our Marines to succeed in 
distributive operations and increasingly complex environments. 
And we will keep faith with our Marines, our sailors and their 
families.
    I am sincerely thankful for this opportunity to appear 
before you today to provide you with a report on the progress 
we are making regarding our enduring commitment. We will keep 
faith with our Marines and families who have sacrificed so much 
for more than a decade of war.
    And as we take on the challenges of the future, faced with 
shrinking budgets and forces, the Marine Corps continues its 
efforts to ensure Marines and their families maintain the 
quality of life they so richly deserve.
    I have much to report regarding our progress in family 
readiness and care, support to those who have lost a loved one, 
cared for our wounded, ill and injured, our revised Transition 
Assistance Management Program, behavioral health, support to 
our deployed Marines, and improvements to our infrastructure 
and our facilities.
    We embrace these critical areas as one Marine community and 
as one team. Mission first; Marines and their families always.
    Your Corps is ever mindful that meeting our nation's need 
for an expeditionary force and readiness that operates capably 
in every time and place is paramount. Our Marines and families 
are, indeed, national treasures. They continue to march forward 
in their dedicated service to the nation.
    We will keep faith with them. We owe them no less.
    Thank you for your unwavering support. And I welcome your 
questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.010
    
    [GRAPHIC] [TIFF OMITTED] T6023A.011
    
    [GRAPHIC] [TIFF OMITTED] T6023A.012
    
    [GRAPHIC] [TIFF OMITTED] T6023A.013
    
    [GRAPHIC] [TIFF OMITTED] T6023A.014
    
    [GRAPHIC] [TIFF OMITTED] T6023A.015
    
    [GRAPHIC] [TIFF OMITTED] T6023A.016
    
    [GRAPHIC] [TIFF OMITTED] T6023A.017
    
    [GRAPHIC] [TIFF OMITTED] T6023A.018
    
    [GRAPHIC] [TIFF OMITTED] T6023A.019
    
    [GRAPHIC] [TIFF OMITTED] T6023A.020
    
    [GRAPHIC] [TIFF OMITTED] T6023A.021
    
    [GRAPHIC] [TIFF OMITTED] T6023A.022
    
    [GRAPHIC] [TIFF OMITTED] T6023A.023
    
    [GRAPHIC] [TIFF OMITTED] T6023A.024
    
    [GRAPHIC] [TIFF OMITTED] T6023A.025
    
    [GRAPHIC] [TIFF OMITTED] T6023A.026
    
    [GRAPHIC] [TIFF OMITTED] T6023A.027
    
    Mr. Culberson. Thank you, sergeant major.
    And I welcome the testimony of Master Chief West. Thank 
you, sir.

                 Opening Statement of Master Chief West

    Master Chief West. Yes, sir.
    Chairman Culberson, Ranking Member Bishop and distinguished 
members of the subcommittee, I am privileged to appear before 
you today along with my service counterparts and Force Master 
Chief Wheeler, who represents our Navy Reserve, to testify on 
the quality of life of our enlisted force.
    I would like to thank you for your attention to the 
important issues affecting our Sailors and their families, and 
for your steadfast commitment to keep our Navy strong. Your 
efforts to sustain and advance quality of life initiatives for 
service members are vital in the development and deployment of 
a focused, potent and prepared force.
    America's Navy is defined, first, by its agile war fighting 
capability. Operating forward and always ready, our fleet is 
deterring aggression, protecting sea lines, projecting power 
and delivering humanitarian assistance where needed.
    Despite physical constraints facing our nation, the world's 
oceans and waterways are not getting smaller. We still remain 
engaged in every theater of operation.
    Sailors are the singular keystone in our Navy's total 
force. Their families share our burdens and our sacrifices. 
They do this with admirable strength, conviction and 
resiliency.
    It is imperative that we provide quality of life 
commensurate with the immeasurable contributions of our Sailors 
and their families. We must also ensure our Sailors are safe, 
healthy and well compensated, well trained, well educated, and 
that Sailor and family support programs and initiatives must 
continue to evolve as the needs of our families change.
    Mr. Chairman, committee members, the brave men and women of 
the United States Navy continue to perform exceptionally well 
under demanding conditions. Congressional support remains 
fundamental to their success and the readiness of our force.
    As I complete my 32 year career, I would like to take one 
last opportunity on behalf of the men and women of the United 
States Navy and the families who faithfully stand by them to 
thank you, thank you for your unwavering support.
    And I look forward to answering your questions.
    I would be remiss, today is my 25th anniversary. I sure as 
heck would not be in front of you today if it wasn't for my 
spouse being there for me. So, sir.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.028
    
    [GRAPHIC] [TIFF OMITTED] T6023A.029
    
    [GRAPHIC] [TIFF OMITTED] T6023A.030
    
    [GRAPHIC] [TIFF OMITTED] T6023A.031
    
    [GRAPHIC] [TIFF OMITTED] T6023A.032
    
    [GRAPHIC] [TIFF OMITTED] T6023A.033
    
    [GRAPHIC] [TIFF OMITTED] T6023A.034
    
    [GRAPHIC] [TIFF OMITTED] T6023A.035
    
    [GRAPHIC] [TIFF OMITTED] T6023A.036
    
    [GRAPHIC] [TIFF OMITTED] T6023A.037
    
    [GRAPHIC] [TIFF OMITTED] T6023A.038
    
    [GRAPHIC] [TIFF OMITTED] T6023A.039
    
    [GRAPHIC] [TIFF OMITTED] T6023A.040
    
    [GRAPHIC] [TIFF OMITTED] T6023A.041
    
    [GRAPHIC] [TIFF OMITTED] T6023A.042
    
    [GRAPHIC] [TIFF OMITTED] T6023A.043
    
    [GRAPHIC] [TIFF OMITTED] T6023A.044
    
    [GRAPHIC] [TIFF OMITTED] T6023A.045
    
    [GRAPHIC] [TIFF OMITTED] T6023A.046
    
    [GRAPHIC] [TIFF OMITTED] T6023A.047
    
    [GRAPHIC] [TIFF OMITTED] T6023A.048
    
    [GRAPHIC] [TIFF OMITTED] T6023A.049
    
    [GRAPHIC] [TIFF OMITTED] T6023A.050
    
    [GRAPHIC] [TIFF OMITTED] T6023A.051
    
    [GRAPHIC] [TIFF OMITTED] T6023A.052
    
    [GRAPHIC] [TIFF OMITTED] T6023A.053
    
    [GRAPHIC] [TIFF OMITTED] T6023A.054
    
    [GRAPHIC] [TIFF OMITTED] T6023A.055
    
    [GRAPHIC] [TIFF OMITTED] T6023A.056
    
    [GRAPHIC] [TIFF OMITTED] T6023A.057
    
    [GRAPHIC] [TIFF OMITTED] T6023A.058
    
    [GRAPHIC] [TIFF OMITTED] T6023A.059
    
    [GRAPHIC] [TIFF OMITTED] T6023A.060
    
    Mr. Culberson. Thank you, sir.
    God bless all the spouses. That is so true. None of you 
could do what you do without your spouses.
    Sergeant Roy. No way, sir.
    Mr. Culberson. And I am sure you are married yourselves.
    Master Chief West. Well above. Only thing against her, sir, 
is she is from Iowa. But----
    Mr. Culberson. Thank you, sir. Thank you so much.
    Chief Master Sergeant of the Air Force Roy, we are 
delighted to have you, sir. Thank you.

             Opening Statement of Chief Master Sergeant Roy

    CMSAF Roy. Chairman Culberson, Ranking Member Bishop, 
members of the subcommittee, thank you for the opportunity to 
tell you about America's Air Force, our Airmen and their 
families.
    It is an honor and a distinct privilege to join my fellow 
senior enlisted advisors here today to represent the young men 
and women who make up our great United States Air Force. Nearly 
510,000 uniformed Airmen and more than 181,000 Air Force 
civilians make up the total force team.
    Three members of the total force team join me today, Chief 
Master Sergeant Denise Jelinski-Hall, the senior enlisted 
leader for the National Guard Bureau; Chief Master Sergeant 
Chris Muncy, the command Chief Master Sergeant of the Air 
National Guard; and Chief Master Sergeant Kathleen Buckner, the 
Command Chief Master Sergeant for the United States Air Force 
Reserve.
    We appreciate the unwavering support of the members of this 
House of Representatives; has been vital to our success. We 
greatly appreciate the efforts, actions and legislation that 
have led to the expansion of service members' and veterans' pay 
and benefits.
    We also appreciate the visits House members have made to 
our Airmen in the field and to our wounded warriors at the 
health care facilities. To represent all Air Force wounded 
warriors, I am joined here today by one of our explosive 
ordnance disposal technicians, Technical Sergeant Joseph 
Deslauriers, better known as Des.
    Des was seriously injured while conducting a post blast 
assessment of a vehicle in Afghanistan's Helmand Province with 
the Second Marine Expeditionary Force in September of 2011. I 
visited Des a few weeks after this incident and found him 
already engaged in physical therapy.
    He is a warrior and a hero. Des earned the Bronze Star 
during a previous combat tour in Iraq. He also earned through 
combat action another Bronze Star, as well as a Purple Heart, 
for his heroism in Afghanistan.
    Airmen like Des are on the front lines of a variety of 
areas of operations. They are also providing Airmanship skills 
to combatant commanders around the world. And they are 
constantly deploying, leaving behind families and friends.

                           AIRMEN RESILIENCY

    We must ensure our Airmen and their families are safe, 
healthy and resilient. Building resiliency among our Airmen and 
their families is one of our key focus areas.
    Our continued high operational tempo in deployed locations 
demands attention to reintegration with families. We are also 
focused on resilience of our Airmen, such as remotely piloted 
aircraft operators, who effect the battle space every single 
day from their home stations.
    Resilient Airmen are better equipped to withstand, to 
recover and/or to grow in the face of stressors and changing 
demands.
    It is my distinct honor to be with you here today to talk 
about America's Air Force and what we do on a daily basis.
    I would like to pay attention to the question that you 
asked me, Mr. Chairman. You asked me the quality of education 
around our bases.

                QUALITY OF EDUCATION AT AIR FORCE BASES

    As we talked yesterday, it is a concern. A couple items I 
will add to the record is the interstate compact and about 40 
different states have signed up thus far. We have about 10 more 
states that need to do so.
    And this is important due to the transitory nature of our 
United States military family members and the transferability 
of those credits for school aged children.
    I would also draw your attention to a couple other things 
that we as the United States Air Force have been able to do to 
try to offset this a little bit. One involves school liaison 
officers at our installation. That person is there to help get 
the member, the family, the child into the school, and help 
ease that transition.
    And then one last thing is this idea of chartered schools. 
Currently today there are four public charter schools located 
on or near Air Force installations, one out here at Joint Base 
Andrews, which is the newest one and also at Little Rock, 
Davis-Monthan and Vandenberg Air Force Bases.
    These charter schools exist based on the need at these 
particular locations. As we talked yesterday, some of this is 
facilitated by a privatized housing contractor who wants a good 
school system, as that can draw folks into privatized housing 
as well.
    So I hope I addressed your question, sir.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.061
    
    [GRAPHIC] [TIFF OMITTED] T6023A.062
    
    [GRAPHIC] [TIFF OMITTED] T6023A.063
    
    [GRAPHIC] [TIFF OMITTED] T6023A.064
    
    [GRAPHIC] [TIFF OMITTED] T6023A.065
    
    [GRAPHIC] [TIFF OMITTED] T6023A.066
    
    [GRAPHIC] [TIFF OMITTED] T6023A.067
    
    [GRAPHIC] [TIFF OMITTED] T6023A.068
    
    [GRAPHIC] [TIFF OMITTED] T6023A.069
    
    [GRAPHIC] [TIFF OMITTED] T6023A.070
    
    [GRAPHIC] [TIFF OMITTED] T6023A.071
    
    [GRAPHIC] [TIFF OMITTED] T6023A.072
    
    [GRAPHIC] [TIFF OMITTED] T6023A.073
    
    [GRAPHIC] [TIFF OMITTED] T6023A.074
    
    [GRAPHIC] [TIFF OMITTED] T6023A.075
    
    [GRAPHIC] [TIFF OMITTED] T6023A.076
    
    [GRAPHIC] [TIFF OMITTED] T6023A.077
    
    [GRAPHIC] [TIFF OMITTED] T6023A.078
    
    [GRAPHIC] [TIFF OMITTED] T6023A.079
    
    [GRAPHIC] [TIFF OMITTED] T6023A.080
    
    Mr. Culberson. Thank you very much, Chief Master Sergeant 
of the Air Force.
    I want to thank you, Des, for your sacrifice and your 
service. Your presence here today is just an indication of what 
a role model you are to everybody. You haven't slowed down, I 
reckon, one bit.
    We are very proud of you, sir. And thank you for your 
service. It means a great deal to have you here today, sir.
    And looking forward to your continued service in whatever 
form or capacity that you can do so.
    We are particularly interested in--and again, each and 
every one of you, if you could address, as Master Sergeant Roy 
did, the quality of education that is offered to your families 
and your kids back home.
    I am really glad Betty McCollum is here. She has got 
special experience in that area, as a former teacher, and has a 
real passion for education. And I am looking forward to her 
questions as well.
    So pay particular attention to her. And I know she has got 
a good perspective on this as well.
    I would like, if I could, to ask each one of you really to 
just kind of toss up a slow softball for you to let us--because 
we are really looking for testimony from your heart, and what 
you hear and see and feel from the men and women that you 
represent.
    What is on their minds? What are the three most--if we 
could, pick out three of the most important quality of life 
issues that this subcommittee and the Congress needs to be 
aware of, that we should attempt to focus on, in addition, 
perhaps, to obviously the official testimony you have given us, 
I am confident, includes those.
    But stressing from your own hearts and your own experience 
and feelings, what are you hearing? What should we on this 
committee focus on, top three issues?

                         QUALITY OF LIFE ISSUES

    Sergeant Major Barrett. Thank you, Mr. Chairman.
    If you don't mind, Ray, I will jump on this one real quick.
    Major Chandler. Absolutely.
    Sergeant Major Barrett. You know, I sat down with a lot of 
people. And they gave me a whole bunch of things that they have 
heard around the force. But I have been around the force a lot, 
back and forth, up and down the east and west coast, talked 
with Marines.
    And again, there is a whole bunch of smart that gave me a 
list of seven things that said, hey, this is what is on the 
Marines' minds. I said, well, thank you for your perspective, 
but I have heard from almost every single Marine across the 
Corps in the last 10 months.
    And do you know what was on their mind is they want to know 
who we are going to fight next. They want to know about 
advancements in full spectrum battle equipment. We tell them. 
They want to know--they wonder when we are going to get that 
new 7.62 helmet that stops projectiles.
    Hey, tell us more about lighter body armor. Hey, tell us 
more----
    Mr. Culberson. They sound like Texans.
    Sergeant Major Barrett. Marines, like to fight, sir.
    They want to know about advancements in full spectrum 
battle equipment. And they want to know what they need to do 
stay in the Corps. And of course, I obviously give them the 
right answer. And I tell them, well, you bring your A game 
every single day, and then just how to go about doing that.
    And you know, you asked the question specifically what is 
on their minds, what are their concerns. The portion of the 
question I didn't hear, sir, is what do they love right now.
    I can tell you, because of the fidelity of Congress and 
what you have provided us, they love their new Bachelor 
Enlisted Quarters (BEQs). As a matter of fact, I have stayed in 
17 of them, spent the night in there with Marines. And walking 
back from the chow hall one night, I said ``what do you think 
about your new BEQs.''
    And the young Marine said, ``We don't even call them 
BEQs.'' I said, ``Really? What do you call them.'' They said, 
``Our community. This is our community.''
    And I says, ``How is that? How is this your community?'' 
And they said, ``Well, because, sergeant major, you will see if 
you walk outside tonight at any time, you will see Marines out 
there in our new courtyard, our new functional fitness areas, 
our new rubberized track, our new fall pits where we can do our 
martial arts, the mountain bike track that you put around our 
barracks.''
    But that is our community. You have brought us together. We 
don't need to go out in town anymore because we have everything 
we want right here.
    So it is what they love. They love their new BEQs. They 
love their new chow halls. They love the new fitness centers. 
And they love the new things that they have brought up to 
improve their quality of life.
    But Marines want to know where the next fight is. They want 
to know about equipment. And they want to know how to stay in 
the Corps.
    And thank you for the new barracks, sir.
    Mr. Culberson. Yes, sir. You are welcome.
    And I would really open it up to any of you all who want to 
dive in next.

                RETIREMENT AND COMPENSATION UNCERTAINTY

    CNSAF Roy. Let me just add to that. One of the things that 
is on peoples' minds--and we need to take this as what it is, 
and that is simply a distracter. And it is this budget.
    It is a distracter. In my case, we have young Airmen that 
are focused on their retirement. I don't need young Airmen 
focused on retirement. I need young Airmen focused on upgrade 
training. I need Airmen focused on the mission.
    I don't need them to be worried about the retirement system 
and their compensation. So that is probably the number one 
thing. It is the number one thing that I hear from our Airmen, 
and quite frankly, a lot of families out there.
    There is uncertainty out there right now. And I think it is 
beginning to affect us a little bit. We are trying to keep 
focus on the mission, as I mentioned. But it is a distracter to 
them.
    I mentioned earlier in my testimony the idea of resiliency. 
We have been at war for an awful long time. Your Air Force has 
been in the Middle East for well over 20 years. Some will 
remember Operations Northern Watch and Southern Watch.
    Your United States Air Force Airmen have been flying 
missions, have been supporting missions in and out of theater 
for 22 years now. They are a little bit tired. But they are 
ready.
    As the Sergeant Major said, what is next. They are always 
ready for what is next. But you have got to understand that, 
you know, we do need to reset, if you will. There is a little 
bit of reset. And I call that resiliency.
    Give our Airmen some time at home. And realizing that it is 
not only time at home. I mentioned the Remote Piloted Aircraft 
(RPA) operators, those that kind of help shape that battle 
space every single day and they are at their home station, 
somewhere here in the United States.
    And that night, they are going to go home to their family 
members knowing what they have seen. That is certainly unique 
to the United States Air Force. And it is something that we 
take very seriously.
    Mr. Culberson. CMSAF Roy, you mentioned retirement. Did 
your airmen start to talk about that. Was it triggered by when 
the President, during his speech, mentioned there might be some 
change in retirement? And what possible effect is that having, 
in your opinion, on retention?
    CMSAF Roy. The initial trigger was a Defense Business Board 
study that went on a few months ago. There was a little bit of 
discussion after the State of the Union Address. But I think at 
that point it was made clear that folks that are serving would 
be grandfathered.
    And I know Secretary Panetta and Chairman Dempsey have come 
on board to say that folks that are serving would be 
grandfathered. And that has really helped.
    Mr. Culberson. DBB?

                  DEFENSE BUSINESS BOARD STUDY IMPACTS

    CMSAF Roy. Defense Business Board. And it was a study that 
was asked for by Secretary Gates. And unfortunately, it went 
out. It went viral. And quite frankly, it disturbed some folks.
    Mr. Culberson. Internet is a good thing, but----
    CMSAF Roy. Sometimes.
    Mr. Culberson. We look forward to learning more about that. 
Thank you.
    And perhaps each one of you guys could mention that a 
little bit, talk to us a little bit about that, if you are 
hearing as well your young men and women talking about 
retirement, which we don't necessarily want them to focus on. 
We want them to stay focused on what they are doing.
    Master Chief West. Yes, sir. And I would like to echo both 
of the gentlemen to my port and starboard here. Both of these 
folks really the same issues.
    Now with that said, about 40 percent of your Navy is 
underway today, out doing the J-O-B. We have kind of been doing 
that for the past years as well. So we are used to those 
deployments.
    We had a ship recently, though, as you know, due to some 
events around the world, complete a 10.5 month deployment. That 
caused a little angst in the force; hey, is that normal for us? 
Which we are in the process of saying, no, that is not our 
norm.
    That is what we are going to have to do if we need to do 
it. We are going to stay focused obviously on CENTCOM. We have 
about 25,000 folks that are either on the ground or in that 
AOR, that are, as you know, going to push out into the Pacific. 
And we are ready to do that. And we are doing that on a daily 
basis.
    Mr. Culberson. Texas is out there right now making the 
Chinese sweat bullets.
    Master Chief West. Yes, sir. They are doing the job.
    Now just to put things in perspective, back when I came in 
1981, first term retention in my force was about 41 percent. 
Today, as I look at you, it is about almost 70 percent.
    Yes, sir.
    That is a good problem. But it also can be a little bit 
difficult. Our folks are concerned about--when you go out and 
talk to them, they are talking about the retirements. They are 
talking about, you know, the future of the force, with all the 
budget cuts that are out there, i.e., personnel.
    And we have had to make some tough choices, but choices 
that we had to make to balance our force. I am sure you have 
heard of some of those. Perform to Serve is one and the 
Enlisted Retirement Board or Retention Board is the other.
    But we are through that process. And we will continue to 
use those to shape our force. And I think we have a good handle 
on it.
    But our folks, it is no different. They are talking about 
the same time things. The DBB, or the Defense Business Board, 
did make a lot of folks nervous. Not only did it go viral, it 
was on the front cover of all of our military magazines.
    And you know when that happens, it is a lot of angst, even 
though those military magazines aren't affiliated with the 
service.
    Mr. Culberson. That really triggered it for each one of you 
all?
    Master Chief West. You bet. You bet it sure did. And the 
budget cuts as of late, you know, those folks are sitting back. 
And you know, some folks would tell you that personnel didn't 
join the Navy for retirement of the military for retirement.
    Maybe they didn't initially. But once they get in and see 
the contributions they make to the nation, they start thinking 
about some of that. And so anything you can do to help out in 
that arena would help us out, surely.
    Mr. Culberson. Yes, sir. Thank you very much.
    Sergeant Major?

                    TOP ARMY QUALITY OF LIFE ISSUES

    Sergeant Major Chandler. Chairman, two answers. First was 
really about the quality of education and opportunities for 
charter schools. I am not aware of a Army base that has a 
charter school on it.
    [The information follows:]

    Educating our children is a state function, and all schools, no 
matter what type, must comply with the state laws and regulations 
regarding the public education system. Army Families have several 
options to educate their children, depending on their duty station. 
Although parents at one Army installation have explored charter school 
options, there are no charter schools on Army installations at this 
time. The Army is open to the idea of charter schools with the 
understanding that public education is a state and local 
responsibility, each state has different rules regarding charter 
schools and alternative schools, the Army has not established official 
guidance on charter schools, and the Army has no authority to start 
charter schools.

    Mr. Culberson. Thank you. And why? Why we don't have any; I 
would love to know and----
    Sergeant Major Chandler. And I will give you an answer for 
that. I am just not aware of them at this time.
    Mr. Culberson. Choices primarily, not necessarily charter. 
I mean, charter is obviously important, but really choices.
    Sergeant Major Chandler. Well, obviously home schooling is 
allowed. We do that on post. And we do have private schools 
that are available in most communities and obviously the public 
school system.
    Mr. Culberson. And the defense schools.
    Sergeant Major Chandler. And the Defense School System, 
although those are not as prevalent as some people may think. 
Many of our bases have a school that is on the base, but it is 
part of the school district for whatever county that they are a 
part of.
    Second part, though, is quality of life issues and stress. 
I will tell you that as we have spoke about just the other day, 
the impact of retirement obviously was a huge concern between 
April and September really for the Army. And it is not as 
prevalent.
    I think the number one issue right now for soldiers in the 
field, deployed around the world and at home, has to be whether 
or not there will be another continuing resolution this year. 
That may sound odd.

                     CONTINUING RESOLUTION IMPACTS

    But the impacts of last year's Continuing Resolution (CR) 
really I think rose even our young troopers' awareness of what 
and how the government functions and what the impact is. I was 
asked questions beginning in April, all the way until 
September, what do you mean the Army can't pay me?
    Well, that is not something that we actually control. We 
are a conduit for the moneys that we receive through the 
process of our Congress and the executive branch. It was a very 
eye opening experience. And I think the concerns that are 
raised in media about the impact of the election year and 
whether or not there will be appropriations and authorization 
bills signed are on people's minds.
    The last thing that I think any of us want to have is for 
some Soldier, Sailor, Airman or Marine deployed in harm's way 
being concerned about whether or not they are going to get 
paid. And that is just something that we don't need to have 
these young men and women to be stressed out about.
    Mr. Culberson. For 1 nanosecond.
    Sergeant Major Chandler. Yes, sir, absolutely. And we would 
appreciate your continued support in that.
    The second one for the Army is the draw down. You know, we 
have a very significant amount of people that we are going to 
separate out of the service over the next 6 years. And there 
are tremendous concerns about the impact of leaving the service 
in these times, with the state of our economy, and how we are 
going to transition soldiers out.
    And that is a major focus for me personally and the rest of 
the Army this year, is to really refine our Transition 
Assistance Program with the help of the Department of Veterans 
Affairs and the Department of Labor, and to put our kids in the 
best places that we can to make sure that they have a dignified 
transition out of the service and back into the rest of the 
American society.
    And then finally, military compensation overall is 
something that is still out there. But it is not the number one 
priority anymore, sir.
    Mr. Culberson. Thank you very much, sergeant major.
    Master Chief West. Mr. Chairman?
    Mr. Culberson. Yes, sir.

                        DOD AND CHARTER SCHOOLS

    Master Chief West. If I could, I didn't address the school. 
I would just like to go back. We do have charter schools in the 
Navy. We have two, one in Key West. The other one is in New 
Orleans.
    And I am happy. I know that we have work to do, but we--
happy with the choices that our students have. I think the 
addition of the SLOs, the school liaison officers that we have, 
has been a huge impact. And I think working through not only 
leadership but through the family groups that we have, you 
know, we are making progress in that arena.
    Mr. Culberson. All right, sir. Thank you. And if I really 
would be grateful if each and every one of you would ping your 
networks and ask for some feedback while we are developing our 
bill during the springtime, into the winter and springtime, to 
find out what else can we do, what else should be done to help 
make sure that all your men and women that have kids on base 
have got all the choices they need for school and for their 
kids.
    Are they happy with it? And what else could this committee 
do to help?
    And I look forward to Betty's help on that as well, 
Congresswoman McCollum's.
    Let me recognize my good friend Mr. Bishop from Georgia.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    And again, let me welcome you gentlemen.
    And certainly I want to extend a warm welcome to the 
spouses that are here. Mrs. Roy and Mrs. Chandler, we really 
appreciate what you do in support of the troops under your 
husbands' command.

                           SUICIDE PREVENTION

    I want to touch on two issues that are not necessarily 
pleasant subjects. The first is suicide prevention. And I want 
to deal with that. And the second one is sexual assault.
    First off, it has been pretty clear that active duty Army 
suicide rates have been higher than civilian rates since 2008. 
There were 20 suicides per 100,000 in the Army, compared with 
18 suicides per 100,000 in the civilian population at that 
time.
    And the Army is projecting that the final 2011 numbers will 
be more than 24 suicides per 100,000 active duty soldiers, 
which is another record high. It has been attributed to the 
stress of repeated deployments during the wars in Iraq and 
Afghanistan. But officials are saying that there are other 
factors at work.
    What steps has the Army taken to identify potential at risk 
soldiers, to improve the prevention and outreach efforts? Does 
the fiscal year 2013 budget request include adequate funding 
for suicide prevention training and the other outreach 
programs, especially for the Guard and the Reserve troops, who 
appear to be most at risk?
    And while serving on active duty, returning from 
deployments, are there more structured support networks that 
are in place, particularly again for the Guard and Reservists, 
who are frequently isolated geographically, because they come 
from rural areas and areas that may not be close to military 
bases?
    Describe what the Army particularly is doing. And I don't 
know, maybe the Marine Corps might have something. I am not 
sure whether the problem is as bad for the Air Force and the 
Navy.

                             SEXUAL ASSAULT

    And of course, the second has to do with sexual assaults, 
which Secretary Panetta said that there were 3,191 sexual 
assaults last year. But he thinks that--those are reported, but 
he thinks that it was actually closer to 19,000.
    And of course, as a military and a society, we have got to 
do more to change the stigma of sexual assault reporting, so 
that the victims aren't afraid to come forward. And so I would 
like for each of you to describe what policies and programs are 
currently in place to combat sexual assault and to provide the 
care and assistance to the victims of sexual assault.
    And particularly with the Army, is there a concern that the 
expanded role of the female service members will expose them to 
greater risk of sexual assaults? And what, if anything, is the 
Army doing about that, and whether or not the fiscal year 2013 
budget sufficiently covers your needs in that regard?
    Thank you.

                              ARMY SUICIDE

    Sergeant Major Chandler. Thank you, congressman. I 
appreciate that. And I agree with you. Although it may not be 
comfortable, it is something that we have to talk about and 
have a frank discussion.
    You know, any suicide in our Army is just something that we 
can not tolerate. And so we are doing a lot of things. We have 
to continue to be committed to helping our soldiers.
    I think the one thing that we probably will never be able 
to answer is why someone chooses to take their life. I am not 
sure we will ever be able to answer that question.
    We have done a lot of things, however, over the past year 
to try and improve awareness, and improve the ability for our 
leaders to intervene when necessary with a soldier who may be 
in crisis.
    Over the last year, we have incorporated additional 
commander and command sergeant major training as part of our 
pre-command course, so that they understand the policies, 
procedures and programs that are available to them as they go 
into their command position.
    We have also improved communications between local law 
enforcement and military police, which has been a challenge in 
the past. We have launched a program called myPRIME, which is 
an online substance and alcohol abuse awareness program, that a 
person can go in and use this tool, and look at whether or not 
they may have some issues surrounding alcohol and drug abuse, 
which we know does tend to be causal towards suicides.
    There are a lot of alcohol related issues and drug issues 
associated with some of our suicides this past year.
    Mr. Bishop. The underlying cause may be some of the 
alcoholism and the substance abuse----
    Sergeant Major Chandler. Well, congressman, I mean, there 
are many different issues. Some of them are relationship 
issues. Some of the are, in fact, related to their deployment. 
Some of them, especially in our Guard and Reserve, can be an 
issue surrounding employment with their civilian employer.
    So I would tell you that for the 280 suicides that we have 
had in our Army in calendar year 2011, there are probably 280 
different reasons why there has been that suicide.
    You know, for the Army, that number is lower than it was 
2010. Not much lower, and really it doesn't matter. In the 
active component, we did see a small increase. In the Guard and 
Reserve, we saw a slight decrease.
    I would tell you, however, that the training that we have 
incorporated over the past 2 years, and have really paid a lot 
of attention to this past year, with former Vice Chief of Staff 
of the Army Correlli's focus has started to make a difference, 
we think.
    It is way too early to say we have turned the corner on 
suicide. But we believe that the programs we have in place are 
starting to gain traction.
    You asked about whether or not we have enough funds in the 
fiscal year--for fiscal year 2013, I believe so.

                       SEXUAL ASSAULT IN THE ARMY

    The other question that you asked was specifically about 
sexual assault. This is completely contrary to who we say we 
are as Army professionals.
    The fact that we have service members, soldiers in my case, 
that are preying on other soldiers, that are committing acts of 
violence, goes completely against what we say we are as an 
Army. We have a warrior ethos that says, in part, ``I will 
never leave a fallen comrade. I will never quit.''
    And those things and the idea of what that means are 
inculcated in us from the time that we start basic training and 
throughout our military career. When this happens, it is 
unacceptable.
    And we are not where we want to be. I will be honest with 
you. We have a 5-year program. We are in our 3rd year and we 
have done a tremendous amount of work.
    As I understand it, sexual assault is probably the least 
reported crime in our country. I would assume that within the 
Army that is probably true also.
    So we have to create a climate where people feel that they 
trust the chain of command to report. And then we have to have 
swift justice, so that if the act is actually valid and true, 
that a punishment arise from it.
    And that is how we will start to change the culture. The 
NDAA from fiscal year 2012 made a requirement that we have a 
sexual assault coordinator and a victim advocate in every 
brigade in our Army, two people per brigade. Right now we are 
struggling to find the resources to fulfill that commitment.
    The secretary and the chief are committed to it. We just 
had a series of meetings over the last 2 weeks about how we are 
going to make this happen. And we are working towards that 
objective.
    The NDAA, as you know, was passed relatively lately, with a 
requirement of December of 2011 to have those programs 
initiated.
    In order to turn this around, you have got really two 
different ways you can do it. You can contract it and you can 
work towards the military and the Department of the Army 
civilian solution. By October of 2013, it is supposed to be a 
military or D.A. civilian, in my case, solution.
    So we are struggling to find the money. We have got to get 
the forces in there. We have got to get them trained and 
credentialed, and get them into the system.
    We are looking for some help with definitions on what a 
brigade actually entails. You have some brigades that are 200 
people. You have some brigades that are 5,000.
    Do we really need to have two people for that 200 person 
brigade? Do we need to have maybe a little more in the larger 
brigade? I know the secretary and the chief have taken this on 
and are really working, both the D.A. secretary and the Army 
staff, to get this thing moving.
    And from a soldier perspective and as the sergeant major of 
the Army, my focus on this is about who we say we are as 
professionals. And if we as an Army, as soldiers accept this 
behavior, it is counter to what we say we are.
    And if you are going to contribute or have that type of 
behavior, you are not worthy to wear the uniform. And that is 
the bottom line.
    Mr. Bishop. Thank you, sir.
    Sergeant Major Barrett. Thank you.

       BEHAVIORAL PROGRAMS--SEXUAL ASSAULT AND SUICIDE PREVENTION

    Sir, first thing I want to say is--I want to go right in 
order. All of our behavioral health programs are closely 
integrated at the headquarters level. And the purpose for that 
is to better synchronize all of our research, all our policy, 
all our training, all our prevention and all of our treatment.
    And so to answer the second part of your question, for our 
fiscal year 2013, yes, we do have the money that will cover all 
of our behavioral needs, in regards to sexual assault, suicide, 
combat operational stress control, family advocacy and domestic 
violence issues as well.
    All those are grouped into the behavioral health domain.
    In regards to suicide, fiscal year 2009, we had 52; fiscal 
year 2010, we had 37; and fiscal year 2011, we had 33. So we 
have shown a marked improvement.
    But just like the sergeant major of the Army said, one is 
too many. So we are not dancing in the end zone yet that we are 
making all this great progress. But have seen a great 
improvement, in large due to our training programs, Never Leave 
a Marine Behind training continuum, which is peer led.
    The non commission officers (NCOs) said they wanted it. And 
by God, they have been fixing it. So it is peer led.
    We also have, for lack of a better term, a hotline called 
Dstress. And it is a phone line that is manned by Marines and 
it is for Marines. Because Marines feel comfortable talking to 
other Marines and they will bring their problems to other 
Marines.
    And one measurement of effectiveness in our Dstress 
Program, something that we have learned, is we know to date 
that our Dstress hotline has saved the lives of Marines. We 
know that through--through our data.
    Also, we are very proud of something we started 3 years 
ago, our Combat Operational Stress Control Continuum, known as 
the OSCAR training, which is Operational Stress Control and 
Readiness. It takes on the core functionality of you train the 
leadership at the battalion level, and all the way down to the 
squad level, where we have the commanders; we have the sergeant 
major; we have the staff NCOs, who live and sleep with these 
Marines day in and day out.
    And it is not designed to treat somebody with issues. It is 
designed to identify somebody who has characteristic changes. 
And it is there. And as the continuum goes, you strengthen 
Marine in training, therefore strengthening him. He gets 
resiliency.
    And then you start to put in those prevention and 
mitigation factors. And OSCAR, where it really kicks in, the 
identification, and then it goes to the intervention. Who, how 
and when do you intervene?
    And the intervention goes into the treatment of the Marine. 
The Marine gets treated. And then we reintegrate him back into 
the fabric of his unit. And then once he is reintegrated back 
into the fabric of the unit, then he is maintained.
    So we are very proud of the steps that we have taken in 
creating strength and resiliency in our Marines through our 
program Never Leave a Marine Behind, our Dstress hotlines and 
our OSCAR training.
    And to make a point--make a point by a story, Lance 
Corporal Barson saved the life of a Marine, someone who had 
received the OSCAR training, who identified a Marine in 
distress, just happened to be walking by him in a chow hall, 
overseas in Afghanistan, decides to just sit down and he 
befriended the young man.
    Well, if we push forward a few hours, later that evening, 
the Marine that was in distress found Lance Corporal Barson and 
actually brought him the implements that he was going to use to 
kill himself that night.
    He then said, ``I do need help.'' And that young lance 
corporal took him and he got him the help he needed. And that 
Marine is alive and well today, and reintegrated back into his 
unit.
    So to emphasize the point of our OSCAR training, our Never 
Leave a Marine Behind training, there is the one shining 
example. So all the moneys that we have put into this has paid 
for itself ten fold already just because of that.

                       BEHAVIORAL HEALTH PROGRAMS

    And to echo the sergeant major of the Army also, when it 
comes to sexual assault, our programs--and we are very proud of 
Take a Stand, Step Up, but right in lines with sexual assault, 
we don't condone it. That is all I have to say about that, sir.
    Master Chief West. Yes, sir. If I may, as you know, Marine 
Corps and Navy kind of go at a lot of these issues together. 
And without going over all of that, I would like to just 
highlight a couple of things.
    One, we are focusing not only on leadership but the 
individuals themselves. We are focusing the training there. We 
are being more proactive with that, sending teams out to train 
them also at a accession commands and leadership commands, 
pushing the training to them.
    We do also a thing called bystander intervention training, 
similar to the Marine Corps, where they have their junior folks 
are overseeing some of this. But that is done well for us. And 
it is been well received on the deck plate.
    We approach this with four pillars, one being the education 
and awareness piece. The other one being the operational stress 
control, intervention and post-vention support, focusing on 
resilience, peer to peer support, leadership, enhancing family 
support and fostering a proper command climate.
    Many times the proper commander climate and the leadership 
team really makes a difference with all of these programs. If 
you make it so that an individual has no issue approaching a 
leader in that unit, you know, you will see that that unit 
typically thrives and has far less issues than a lot of our 
folks.
    One hundred sixty suicide related behaviors a month is 
typically what we have seen. With that said, that could be also 
seen as a good news story, because those are related behaviors 
and they seek help, which shows that some of our programs that 
we have put in place is working.
    We feel we are properly funded in the suicide arena. And we 
will continue to work that. Any sailor that we lose is a loss, 
in our eyes, of readiness.

             SEXUAL ASSAULT PREVENTION AND RESPONSE (SAPR)

    Sexual assault--sir, really it goes back, again, to what 
the sergeant major said. I would like to highlight two things 
that we are doing that I really think is a good move for us. We 
have something called SAPR, sexual assault prevention, SAPR-L 
and SAPR-F, L being leadership, and F being for the fleet.
    Leadership, we are going to go at this similar to what we 
went at with Don't Ask, Don't Tell training: we have got them 
training now. Put teams in place. And they are going to go out 
and look every Sailor face to face and talk to them about 
sexual assault.
    We are not only doing that, but we are putting them at our 
accession commands. And you know, that is our seed corn for the 
Navy. That is what grows up and becomes Sailors. We have had a 
lot of focus up there, and our A and C schools. That is the 
next step from our accession commands.
    So I think we are going after this this year. We go at it 
as a Department of the Navy. Secretary of the Navy has put 
things in place and aligned things to allow us to do this.
    And I think you will continue to see us attack this problem 
and, you know, make a difference there.
    SAPR L, again, that is for leadership, Don't Ask, Don't 
Tell construct. Then we will move over to the right and then we 
will hit the fleet with it later this year. This training will 
be complete this year.

                    SUICIDES AND SUPERVISOR TRAINING

    CMSAF Roy. If I could add just a couple of things from what 
my peers said, and tell you what the Air Force has done. Yes, 
to answer your question, suicide is a problem in the United 
States Air Force.
    We did take a knee. We took a stand down after the first of 
the year because of a spike in suicides.
    The United States Air Force Chief of Staff and I signed out 
a letter to all commands, basically telling them to send out a 
package of lesson plans, if you will, of here is what you will 
talk about. They had to do it within a certain time period.
    But it was up to the major commands to tell them that you 
need to take a break and talk with your people. So leadership 
involvement has got to happen. And it is happening in the 
United States Air Force today.
    To that point, we have some high risk career fields, high 
risk ranks that we have identified, that a lot of these 
suicides happen within. So we have focused our attention on 
some of those. And we have provided what we call frontline 
supervisor, first line supervisor training to those Airmen that 
are supervising.
    Mr. Bishop. What are those areas?
    CMSAF Roy. There are primarily three risk areas. There is 
security forces. For us, it is security forces, our young E-6s 
within security forces. Our maintenance, within the maintenance 
community, and then within our intelligence community. Those 
are the three primary high risk areas.
    And that is not to say that that is all, because they are 
not. This is far reaching and it affects everybody. But for 
this front line training, we have focused our attention to 
those supervisors of those particular Air Force Specialty Codes 
(AFSCs) in those ranks.
    Like somebody else mentioned, we have taken on the 
bystander approach. We have done training within the force on 
what it is to be a bystander, and taking action on what you 
see.
    So that has been helpful to us. And of course, we consider 
this a wingman culture, if you will, of taking care of each 
other. I keep talking about resiliency.
    We have borrowed from the United States Army, on the 
comprehensive Soldier fitness. We call it comprehensive Airman 
fitness. And we focus on four different pillars of an 
individual's wellness, health, if you will.
    We focus on social, physical, emotional and spiritual. We 
focus on those areas because we figure that those are the areas 
that the members would need the most help on. And it covers 
down on basically everything.
    Just like OSD has total force fitness and they have seven 
different elements to theirs, it can all be rolled up into each 
of these. They are overlapping.
    Mr. Bishop. Thank you, Mr. Chairman.
    I apologize for the length of the questions. And I 
apologize to my colleagues for the time that it took for you to 
respond. But I do think it is important.
    Mr. Culberson. No, it is really important. We deeply 
appreciate it.
    And I am happy to recognize my friend, Mr. Carter, for his 
questions.
    Mr. Carter. I thank you, Mr. Chairman.
    And first, welcome to all of you. This is actually, I would 
argue, the hearing that we receive the most information 
pertinent to this committee's mission, because this committee 
is about our warriors.
    It is not some political committee. It is about people.
    And thank you, because you all are the backbone of each of 
your respective services.
    Also, I would like to thank all of our National Guard and 
Reservists that are here. They also have certainly carried 
their lion's share in these 10 years of war.
    And so all of you can be sure, your nation is grateful for 
you.
    I am thankful that our founding fathers stood up and said 
``We pledge our lives, our fortunes and our sacred honor,'' but 
the only example we have of this today is our military service. 
They actually make that pledge and honor it.
    And if we all honored it, we would be a better country. So 
thank you for what you do.
    I want to go back to the beginning of what you described, 
because it is something that is concerning me as we face this 
potential sequestration, this draw down of the funds available, 
and therefore this draw down of surface personnel across the 
various forces.
    From having talked with General Odierno, the Army and 
Marine Corps' number one investment is people. You guys have 
the equipment that they can take to cut things, but now they 
have to cut people.
    And when you start talking about the kinds of cuts that we 
envision might occur in our forces, you have to be worried 
about a couple of things. First, the young man or woman who has 
made a career choice that, through no fault or lack of duty and 
service, they are, all of a sudden, told they are no longer 
needed, because there is no money to pay them. There is no 
money to keep them there.
    That has to be, from a recruiting standpoint, a very big 
negative as you look down the aisle for the future of the 
various services.
    And then secondly, and I think more importantly, everything 
I have learned since I have been in Congress about our military 
is that the NCO corps is a dire necessity, and quite honestly, 
a major strength as you compare our warriors to our enemies. We 
have non-commissioned officers who step up and lead.
    And in other people that we fight, that doesn't exist with 
the kind of stalwarts that we have in our military. And 
therefore, it has become a contributor to what makes us 
effective.
    Now, how do we continue to maintain the NCO corps, which 
has to rise through the ranks, if we are going to make 100,000 
soldier cuts in the Army, or 50,000 in the Marine Corps, 50,000 
in the other? This is taking a big chunk out of your future of 
the NCO corps.
    I would like to get each of you to comment on that.
    Sergeant Major Chandler. Yes, sir.

                         DRAWDOWN OF NCO CORPS

    I will start from the Army perspective. Obviously the draw 
down for us is going to be done in four ways. You know, we will 
do less recruiting. We are going to retain less people. And the 
privilege to serve will become more difficult.
    And we also have instituted some force shaping measures, 
like the other services have. And we will institute some more 
in the coming months. The number one, obviously, recruiting; we 
have done tremendously well in recruiting so far.
    We actually have more than 35,000 perspective soldiers who 
are in our delayed entry program. And we see no issues with 
continuing to recruit the best qualified people to come into 
our Army.
    The next step, though, is retention. We have had soldiers 
who may not have, in previous times, been allowed to continue 
to serve, may have had some challenges specifically in the 
discipline arena, that we are going to take another hard look 
at.
    It doesn't mean that someone can't overcome a mistake that 
they may have made. But if they are a person that continues to 
make the same mistake, you have really got to question whether 
or not it is a motivational issue--I am not willing to do what 
I need to do to be a soldier--or if it is a training issue.
    So we will be a little bit more restrictive on who gets the 
privilege to serve. And some of our soldiers we may ask to 
serve in a different job that what we are doing right now. And 
that is going to become how we work through the issues with the 
force structure and how we reshape our Army.
    Force shaping measures have been primarily focused on our 
mid-grade NCOs. We allowed a very large gap between the time we 
made sergeant, E-5, and staff sergeant, E-6, and then sergeant 
first class, E-7.
    That has created a bubble. And we have got to smooth that 
bubble out. And really, it comes down to is that individual 
doing everything that they can do in our promotion system to 
get promoted?
    In every MOS in the Army, someone gets promoted every year. 
So if you are not getting promoted, you have first got to look 
at whether or not you are doing what you need to do.
    Then the last step is for our retirement eligible folks, we 
are going to probably ask some of our retirement eligible folks 
to leave the service now, instead of at their mandatory 
retirement date. And those are folks that within their MOS, 
there may be no future upward potential, or that they 
themselves have really maximized their service to the nation.
    Our commitment is for each of those circumstances, in 
retention and force shaping and retirement, is that we have a 
orderly transition plan, starting a year before they leave the 
service, to help them with the things that they and their 
family to do to be successful.
    That is what I talked about earlier, about the partnership 
with the Department of Labor and VA. We have a tremendous 
partnership with them now. I am excited about this program. My 
number one concern in the arena is to make sure that we treat 
every one of those troopers who we have asked so much for in 
the 10 years with dignity and respect as they leave the 
service.
    Sequestration will be a huge challenge for us. And really 
all bets are off the table at that point, because the drastic 
measures that had to be implemented almost immediately are 
going to have a huge impact on not only the soldiers but our 
family members and our civilian workforce.
    And that is of huge concern.
    Mr. Culberson. Such as?

              SEQUESTRATION AND IMPACTS ON QUALITY OF LIFE

    Sergeant Major Chandler. Just, sir, the impact of the fact 
that sequestration is going to cause us to make just such 
drastic cuts so quickly. We have a very deliberate process 
right now to reduce the size of our Army within the strategy 
the Secretary of Defense has laid out for the department.
    But if we have to automatically or immediately shift gears, 
we will have tremendous impact on family programs. We will have 
to make huge cuts. We will have to make huge cuts and immediate 
cuts in people.
    That is going to be a problem for us.
    Mr. Culberson. If I could ask each one of you, as you 
answer Mr. Carter's question, is to address that. What would 
sequestration mean for your men and your women under your 
command and their quality of life?
    Sergeant Major Chandler. To put it in a nutshell, it would 
be a huge and immediate impact on an already stressed force. 
And for the Army, that is of huge concern.
    Sergeant Major Barrett. Thank you for that question, sir.
    I will go kind of in a chronological order. I want to talk 
about accessions, then retention, then NCOs, and then talk 
about the draw down, in that regard.
    First of all, it is the same as the Army. We are bringing 
in less. But the standards are higher. As of right now, current 
to date, 100 percent of every single person that has been 
brought into the Marine Corps is a high school graduate. That 
is just amazing.
    Our Armed Force Qualifications Test (AFQT) testing score is 
76th percentile. DoD base line is 60. So we are knocking it out 
of the park by way of the quality of the young men and women 
that we are bringing into the Marine Corps today.
    Another goodness with accessions today, recruiting, is that 
these young men and women in the Marine Corps are staying in 
the delayed entry program anywhere up to 9 months before they 
are actually shipping to their recruit training.
    What that is doing is the recruiter has more time to prep 
that young man or woman so that they are ready to meet the 
rigors of recruit training. By doing that, our MCRD, Marine 
Corps Recruit Depot Attrition has gone down. It has been 
reduced.
    Less attrition costs less money. So our accessions is going 
very well. We are bringing in less Marines this year to handle 
what will inevitably be our draw down.
    Going to retention, our retention has never been better. It 
is a little bit into the 4th month of the fiscal year. And we 
are about to tip 90 percent retention mission made for our 
First Term Alignment Program.
    And all the prerequisites are being exceeded in that realm 
as well, meaning the best get to stay. We get to be choosy, 
very choosy. We have this tier rating--tier one, tier two, tier 
three, tier four--to meet the quota based on each Military 
Occupational Specialty.
    Well, we are only keeping tier one and tier two. Meaning 
these are young men and women who are knocking it out of the 
park. They are first class Physical Fitness Testers PFTers. 
They are exceeding in their Marine Corps martial arts program. 
They are doing all the education they are supposed to be doing.
    They are shooting well on the rifle range. They are doing 
everything right. Those are the ones that we are keeping. So we 
are on a fast track to make our retention mission.
    So accessions is great. Retention is great.
    We are talking about the NCOs and their education. We have 
learned a lot in the last 10 years. We have the most 
experienced NCO corps that our nation, I believe, has ever seen 
in 10 years of fighting.
    In the Marine Corps, we like to refer to our NCOs as 
strategic corporals, strategic sergeants, meaning that their 
tactical decisions on the battle field have strategic 
implications, and that everything they do has to be done right.
    So the commandant has injected $125 million into our Marine 
Corps University, so that we can ensure that our young NCOs, 
our staff non-commissioned officers and our young officers are 
getting all the right education to carry us forward in future 
distributive operations and in ever increasing complex 
environment.

                         SEQUESTRATION IMPACTS

    So we are pushing down. And we are putting all the right 
things into our education as well.
    We believe in the statement, also, keeping faith works both 
ways. 75 percent of our first time alignment program gets out 
every year. The United States Marine Corps is a very young 
force. So everyone is trying to actually stay in right now.
    But keeping faith works both ways means if you are not a 
tier one or a tier two Marine and you are doing everything 
right, I am sorry, thank you for your service, but keeping 
faith meant when you came in and you raised your right hand in 
a federal building, before an American flag, in front of a 
commissioned officer, you said that you would do the following 
things. You didn't do all those things you said. So you kind of 
broke faith with us.
    So keeping faith is we are going to keep the very best. We 
are going to let them fulfill their entire contract. We are not 
going to reduce in force, by forcing people out. We are using 
every single voluntary force shaping tool that we can to 
maximize--and maximize to that extent.
    But some involuntary separation tools are likely to be used 
for those who are denied reenlistment, if you will.

                SEQUESTRATION IMPACTS ON PERSONNEL--NAVY

    Master Chief West. Yes, sir. Thank you very much. Great 
question.
    The Navy, we have been at this for quite some time, ie the 
draw down. We have I guess drew down about 55,000 sailors over 
the past 10 years, a lot of folks may not know that, while 
meeting our missions and doing what we need to do.
    Recently, due to the high retention and low attrition that 
we have, and the funnel of folks coming in, it is like the 
Marine Corps. Our recruiters have met their goals for--I don't 
even know how many months straight now. And people do want to 
stay.
    But we use Perform To Serve as our lever for controlling 
the amount of folks that we have. Perform To Serve started 
several years back, but it really takes the performance of an 
individual at first.
    Now we have done that in a very controlled manner. We got 
to a point where with retention so high and attrition low, that 
got pressurized as well.
    So now we are back up to about eight or nine out of 10 
sailors who want to stay can say. However, we were down at one 
point to four or five that we had to really put through.
    But again, we were focusing on performance with that. With 
that saying, that allows to not only balance our force, but it 
balances the ratings as well.
    Like other folks, we advanced through vacancies in our 
force. If you don't have a vacancy there, it is hard for a 
person to advance. And in fact, in many ratings, they were 
advancing. They were being stagnant.
    So we had to implement something this past year called the 
Enlisted Retention Board, ERB. You might have heard of that. It 
wasn't something that we wanted to do. It is something we had 
to do.
    That focused on 31 ratings that were severely over-manned. 
When a rating is over-manned, again, people don't move. They 
stay stagnant.
    And it doesn't allow us to assess people we need to, 
because we have people in ratings, frankly, that are kind of 
jammed up, if you may.
    But we focused on that. We just completed that, through 
your help in getting TERA, the Temporary Early Retirement 
piece, in for us. We have about 300 of those 2,947 folks that 
were asked to move along from TERA. We have about 300 of those 
folks that are eligible for TERA, which was a big help for us.
    So we had to make some tough choices out there with our ERB 
process. But it was a focused--again, we looked at two things 
with that. We looked at performance first. And then we had to 
look into quotas.
    So we had to go in and balance, again, those ratings to 
allow us to assess the people that we need. Again, something 
that we didn't want to do; something we had to do.
    But I will tell you, now that we have moved passed it, we 
have this year about 11 of those ratings are only going to be 
slightly over-manned. So the effect we were looking for 
happened.
    Well, we didn't just say hey, move along, folks. We put in 
some other things, for example, some services, you know, things 
such as exchange and commissary type services, as well medical 
benefits, to help those folks along.
    Plus, we have hired a world class placement organization, 
Challenger, Gray and Christmas, that will take these folks and 
provide them with the personal I guess mentorship and coaching 
to translate or move over to the civilian side.
    We have already reduced recruiting as far as we could. We 
are about down to 33,000 this year that we are bringing into 
the Navy. And most folks will say, well, why don't you just cut 
farther down?
    Well, you can't. You have to have that healthy balance of 
folks coming in to go through the system of the military or you 
will have leadership gaps as you move forward. So I think we 
have had a very challenging year with those things.
    But with PTS, again by doing that ERB, we are up to eight 
or nine out of 10 people that want to stay at the end of their 
contract, they are able to stay. So we are moving forward.
    I think, though, with our draw down, we are about as 
balanced as we have. We can't go down much further, based on 
the amount of deployments that we are going to see in our 
future out into the WESTPAC and into CENTCOM, and as we engage 
worldwide as a Navy.
    You mentioned sequestration. I agree with my Army 
counterpart. It is going to be a huge and immediate impact. And 
I have to tell you, I think that is going to really hurt your 
military overall--now I will speak for the Navy here--if that 
was enacted.
    CMSAF Roy. They hit a lot of points. Let me talk just a 
short note about the United States Air Force.
    In the last 9 years, we have come down well over 75,000 
Airmen. That is directly out of the force. So we are at the 
point of not necessarily drawing down. We are at the point of 
management.

                     AIRMEN EDUCATION AND TRAINING

    And I believe that is what the MCPON is getting to, is that 
we are in the art of management now.
    It is a very competitive force. We are the most 
technologically advanced force that has ever existed. It 
requires a deliberately developed Airman, one that has 
experience, one that has education and one that has training.
    So you have got to focus on those things. And we just 
changed what we call our high year tenure, where we have moved 
the ranks down, if you will, to how long they can serve. That 
has freed up some spaces, if you will, to allow others to 
continue to move, to have continual progression.
    We also have lock downs on some AFSCs, especially because--
we call CJRs, career job reservations. So they can't reenlist 
in those AFSCs. They may get asked to serve in another 
position.
    All said and done--and you asked about sequestration. I 
think probably a word that resonates with folks. I think you 
could probably focus on a hollow force. If you want a hollow 
force, go sequestration.
    If you are not going to have the training, number one, you 
are not going to have the people. But if you don't have the 
training and you don't provide the education, you have got a 
hollow force. It is not about just the hardware. It is about 
the people, as you mentioned.
    Mr. Carter. Well, and a follow up which--I have taken too 
much time with the answers. But thank you for them. Because I 
think we as an American people need to see the picture of what 
eventually is going to happen.
    But as we said, this committee is about people. If there 
are programs, resources as we face this change in the platform 
of our military that we need to be addressing, would you put 
those in some kind of a report and send them to the chairman?
    [The information follows:]

    We would of course do our best to maintain a vital, mission-
effective force if sequestration were to happen. But we all know the 
impact of sequestration on the Air Force would be significant. For 
example, across-the-board reductions would certainly result in reduced 
special and incentive pays. Critical skills currently receiving 
recruitment and retention bonuses would be severely and adversely 
impacted, degrading our ability to shape our force to the right skill 
and experience mix. Critical skills include contracting, intelligence 
analysts and loadmasters, as well as bootson-the-ground special 
operations and explosive ordnance disposal personnel. The inevitable 
loss of these Airmen would directly degrade our warfighting 
capabilities and interrupt the development of future NCO leaders with 
battlefield tested experience in these critical career fields. A fully 
qualified Airman in these skills requires substantial training costs 
and a long time to develop; their loss would have a long-term negative 
impact. The Air Force initial enlistment bonus specifically targets 
accessions in our Battlefield Airmen and Combat Support specialties 
which require a combination of physical abilities and aptitudes for 
training in highly technical skill areas. Loss of these bonuses would 
reduce our ability to compete for the best and brightest, especially 
when unemployment improves and retention returns to normal levels.
    Sequestration is not in the best interest of our national security. 
The Army's share of the cut could be almost $134 billion through 2017. 
The impact to the Army could cause up to 100,000 additional cuts to our 
end-strength on top of the 86,000 we are planning to reduce. This would 
result in severe reductions in the National Guard, our Army Reserves, 
and additional continued reductions in the active component. It will 
significantly decrease what the Army can do for the joint force. 
Sequestration would require us to fundamentally relook how we provide 
national security for our nation.
    We appreciate your support and request that Congress support the 
President's FY13 budget request. The President's Budget reflects the 
appropriate balance of resources to requirements and the finding levels 
required to sustain Navy manpower, personnel, training, education and 
Sailor and family support programs, to include all necessary transition 
costs for sailors affected by force shaping.
    The Marine Corps is revolutionizing our transition assistance 
program to better meet the needs of our Marines. We plan to map and 
integrate our transition assistance program into the lifecycle of a 
Marine from recruitment, through separation or retirement, and beyond 
as veteran Marines. Examples of this planned integration will include 
the mandatory enrollment of first-term Marines into a Personal and 
Professional Development course, which will be linked to the promotion 
to E-4 (Corporal), and will cover topics such as personal financial 
management, reenlistment and veteran benefits. Additionally, Marines 
will meet with career planners at designated times during their careers 
to monitor the progress of and establish a plan to achieve personal and 
professional goals.
    The first step in this process is the implementation of our revised 
Transition Readiness Seminar (TRS) in March 2012. The week-long TRS 
includes a mandatory standardized core curriculum along with four well-
defined military-civilian pathways: (1) College/University Education, 
(2) Career/Technical training, (3) Employment, or (4) Entrepreneurship. 
A Marine will choose the pathway that best meets his or her future 
goals and will have access to individual counseling services within 
each pathway. This tailored approach to the TRS will greatly reduce 
information overload and will target the individual circumstances and 
needs of the Marine. It will facilitate a practical learning experience 
with specific transition readiness standards that are effective and 
beneficial to Marines.
    Our enhanced Marine for Life Program, along with its nationwide 
network of Hometown Links, will support improved reach-back and 
outreach support for veteran Marines in need of localized support in 
their hometowns with information, opportunities or other specific 
needs. These assets help veterans develop and maintain local networks 
of Marine-friendly individuals, employers, and organizations.

    And one of the things I want to commend you for, is looking 
at the future of that warrior who is going out into the 
workforce at a time when we have got pretty high unemployment 
in this country. And that is part of our responsibility to do 
the best we can to help that person transition into civilian 
life.
    We owe that to them. They gave us 10 years of their lives 
at war. We owe that to them. And so give us suggestions. Send 
them to us, so we can spend this money the way we need to spend 
this money, to make for better lives for our soldiers, our 
sailors, our airmen and our Marines.
    Okay. Thank you for your service. I am honored to be in 
your presence.
    Mr. Culberson. Thank you, judge. I know we all feel the 
same. We are, indeed, honored to be in your presence.
    I recognize my good friend from California, Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman.
    Thank you all for being here. This is always a look forward 
to hearing. We really get the quality of life discussion.
    I wanted to bring one of my constituents here today to 
address our meeting. But unfortunately he is across the hall. 
His name is Secretary Leon Panetta.
    And he is trying to explain to the committee that ordered 
sequestration, which we all voted for, what it means. And I 
think we have to realize that it doesn't just apply to 
Department of Defense (DoD). It applies to every federal 
agency. And I don't see how it is not going to happen.
    So we are going to be living with it.
    Another one of my constituents--and I wanted to thank 
Sergeant Major Chandler for coming out to my district. I don't 
know if you were aware when you were out there that Al Brown, 
who lives in Seaside, the former--won the Army Spouse of the 
Year.
    Her husband, Ricky Brown, is in the U.S. Army. Al is in the 
final five for the military spouse of the year. And her son 
Ricky II is an inspiration to her. He is a 1-year-old and has 
autism.
    His mother developed a program called Kinderjam, an early 
development child program for preschoolers and toddler aged 
children. And as long as you are here, I want to extend to them 
and on behalf of this committee, congratulations to her and to 
her husband, who is an Army enlisted.
    This committee is the only committee in either the Senate 
or the House that has the spectrum of both quality of life of 
uniform military and Veterans Department, where you will all be 
when you leave and you separate. So we are the only committee 
that kind of looks at the separation.
    And you know, they are just totally two different silos. 
And to break down those silos is I think our responsibility. So 
I am very interested in this because I think you come up with 
some very interesting approaches to suicide prevention, 
particularly this peer approach that the Marine Corps has.
    But I am curious as to when do you count a suicide? Is it 
only a person in uniform? The minute that person separates, if 
it is a week after separation, is it considered a veteran then 
suicide? Or how do we count it?
    And what are we doing to prepare the veteran side of it? 
Here is a soldier that we think is having some mental health 
issues and may need PTSD, may need these other things; is there 
ability to pass that on to the Veterans Administration?
    Because we pick up an awful lot of the other side of it, 
the homelessness of veterans. And there are Iraq and Afghan 
veterans now that are homeless, families that are homeless in 
my district.
    And I think we are trying to break down these walls and 
silos. I would be very interested in how we can get, as you 
learn more about the individual issues, the quality of life of 
military and their families, and what they are going to have to 
transition out.
    Because you are going from a very secured, protected, you 
know, total lifestyle services there to one out in the civilian 
world where you have to see it. Nobody comes to you. Nobody 
offers it.
    So we ought to at least be able to prepare the record, say 
as we hand off at separation to the Veterans Administration and 
say, you better jump on this right away. Do we do that? And how 
do we do it?

                 SOLDIER TRANSITION TO VETERANS AFFAIR

    Sergeant Major Chandler. Sir, it is a great question. And I 
believe I did meet Ms. Brown last year, actually, when she 
received her award for being the Army Spouse of the Year. And 
actually I think Jane and I both did.
    And your questions for us is challenges we face with our 
Integrated Disability Evaluation System. Now we have a dual 
adjudication system right now, where the soldier who is 
transitioning out of the Army is going to be screened as part 
of his transition program for any conditions or injuries or 
illness or wounds that he may have received while he was a part 
of the Army, from my position.
    That transition is a screening that is done by the Army, 
which provides a certain degree of benefit for those things 
that happen. And the V.A. has their adjudication, which is 
really the impact of the person's ability to be a productive 
member of society.
    Mr. Farr. But in that adjudication, we have learned that 
that process has taken 2 years in some. So that is a really 
slow process to get immediate attention. That is if you are 
filing for the disability.
    This is a question of just getting some PTSD type services 
that may be in the civilian community, because you are no 
longer close to a veterans hospital or--is there any way--do 
you flag personnel who have difficulties, so that the V.A. can 
pick that up?
    Sergeant Major Chandler. Again, it goes back to what I was 
saying. If a person is diagnosed with a condition, and let us 
say it is post traumatic stress, so I am diagnosed with post 
traumatic stress.
    Mr. Farr. While in uniform?
    Sergeant Major Chandler. While in uniform. I am going to be 
evaluated. And there is going to be some action taken with that 
condition.
    And because of the different varying categories, it is hard 
for me to sit here and say with PTSD, you are going to get 
this. But you have it.
    You are also going to then be screened by the V.A. Okay, so 
there is a transition. The challenge that you are talking 
about, with soldiers that are upwards of, in the Army's case, 
more than 400 days, is the fact that you have got to get a 
narrative summary for the condition done by specific groups of 
people.
    That narrative summary has to go to the V.A. and be 
translated into what that means for a percentage of 
compensation. And it is a very lengthy process.
    We have been working, all of the services heavily, with the 
V.A. to streamline that process. IDES is the revision. We have 
got some challenges.
    Many of us will be meeting with the chief of staff of the 
V.A. in the next 2 weeks to talk about this and other issues, 
and how we can get better at speeding the process up.
    What we don't want to do, though, is get so fast at moving 
somebody out of the system that we aren't actually making sure 
we have covered every single existing condition, and to help 
that person get what they deserve for their service.

                         SUICIDE DETERMINATION

    Mr. Farr. When do you count a suicide? Is it only in 
uniform?
    Sergeant Major Chandler. A suicide, for us, is while they 
are in the Army, whether it is the Army Reserve, Army National 
Guard, or the active component. The challenge is when you are 
in with a state coroner or a county coroner, is whether or not 
they are going to rule that as a suicide.
    If it is not ruled as a suicide, it is very difficult for 
us to know the causation of death. And there are some things 
that we have learned over the last few years, that some people 
are hesitant to rule someone's death as a suicide.
    Mr. Farr. What is your experience, is there a period of 
suicide? Is it early in your enlistment? Is it mid career? Or 
is it the end, when you are facing these challenges of being 
separated?
    Sergeant Major Chandler. Sir, for the Army, it is a 17 to 
24 year old, who has deployed one time. Okay, that is the 
highest percentage of suicides for our Army. Okay.
    So it is a younger person who may not have as many factors 
of resiliency incorporated into their life. And they have 
deployed one time. Soldiers, in the Army's case, that have 
deployed multiple times have a greater degree of resiliency and 
are less likely to commit suicide, in the statistics that we 
have seen.
    We have also got a lot of folks, unfortunately, who haven't 
deployed at all that still choose to commit suicide. And those 
are the ones that are hardest for us to really focus on, 
because you just don't know.
    You can have a unit that does every single thing that they 
are supposed to do, including just recently an Army National 
Guard unit that had a soldier that was at risk. They identified 
through our ASK program--I mean our ACE, which is Assist, Care 
and Escort, took them to some behavioral health counseling in 
the local community.
    The soldier was released. And unfortunately they chose to 
take their life anyway. So you can have people do all of the 
things that you want. And at the end of the day, someone will 
still choose to take their life, which is for me very sad, 
because you always question, what is it that we didn't do?
    And I think that leader, especially the one that did all of 
the things that we have asked them to do, and this person still 
takes their life, that burden that they feel--what if I had 
just done this right, what if I had just not done this--I think 
it is pretty overwhelming at times.
    Sergeant Major Barrett. Thanks, Ray.
    One, same answer when it comes to how do we count them. It 
is in uniform, active duty and reserves, sir.

                    SUICIDE PREVENTION AND TRACKING

    Next, you referred to how do we kind of track them. Well, 
we do a cognitive assessment pre-deployment for any kind of 
deployment, to see where they stand in the baseline.
    There is a post-deployment health assessment that we 
conduct after deployment. And then there is a post-deployment 
health risk assessment that is done after deployment. And those 
things are done 90 to 180 days after a deployment.
    The leadership understands the need to maintain continual 
vigilance for any type of characteristic changes. And that is 
part of the post deployment health reassessment (PDHRA), the 
mental health professional, the corpsman, the doctor who does 
these PDHRAs, kind of walks the dog and talks you through any 
changes you might have in your day to day living, kind of raise 
your own awareness, and that for those of the people around 
you.
    So we have the cognitive assessments, the Post Deployment 
Health Assessment (PDHAs), the PDHRAs.
    Next, another thing that we are doing--and we have just 
amped up our Transition Assistance Management Program. And we 
are actually referring to it now as Transition Readiness 
Seminar, because we are taking it to a whole new level.
    As this thing starts to grow legs, there is going to be 
touch points throughout the Marine's career, from the day they 
enter the Marine Corps to the day they decide to walk out of 
it.
    And throughout the life cycle of a Marine, there will be 
touch points for counseling and things of that nature. This is 
going to add to the resiliency or strengthening of a Marine.
    When it gets to how do we continue to track them, well, in 
the core training of this Transition Readiness Seminar that we 
will receive throughout the course of their career and towards 
the very end, when they receive that capstone course, they do 
receive briefings from the V.A., from the Department of Labor, 
on how to better set themselves up for success.
    So it is tracked. And by way of the reservists, our 
reservists, we do have a contract outreach program to Marines, 
30, 60 and 90 days post-deployment. And it is part of the 
Psychological Health Outreach Program.

                      SUICIDE PREVENTION PROGRAMS

    Master Chief West. Sir, thank you.
    Sir, it is really same for the Navy, as far as how we track 
them, active and reserve in uniform. We do that as well.
    We have the PDHRAs, PDH, as the Marine Corps as well. We 
also do something called Returning Warrior Workshops for our 
Navy reservists that have deployed, not just for them. But they 
have been the majority that take advantage of it.
    We have them throughout the United States. It allows an 
individual to come in. Also it is a group. It is a setting. 
They will have it a resort somewhere, bring in the 
professionals as well, to allow some of that one on one time.
    We have a program called FOCUS, Families Overcoming Under 
Stress, that we have deployed out there. To date, about 250,000 
service members, their spouses, children and community 
providers have received the training from the FOCUS piece. It 
appears to be working very well for us as well move out there 
to do what we need to do.
    There is other things that we look at, operational stress 
control, National Intrepid Center for the Excellence. We do 
that as well. You are looking at a guy that just went through 
the Navy's TAP Course. So I received the V.A. brief and 
benefits, brief that they have.
    I think it goes back, again, to the individual. But I think 
to some degree, there is a hand off there. I am in the process 
of it. I will probably have a better answer for you here in a 
few months.
    Navy Safe Harbor is another thing that we do. And it is one 
of the those that is kind of like the Marine for Life type 
event, where we take a Sailor, if they are having an issues in 
the military, we can walk them through it.
    Now it is not medical care type. But it is all the other 
things, the support, non-medical support for that individual, 
to help them navigate through all these hard and cumbersome 
systems sometimes that may be out there.
    But I think we are making some headway, based on all the 
things that I am reading. I think we are going to sit down with 
the V.A. individuals soon. And I hope to continue to knock some 
of those walls and barriers down.
    CMSAF Roy. Sir, we track the exact same way. Those that are 
active Guard and Reserve, those are serving on duty, but we 
don't track once they separate from the military.
    I would like to take a minute just to talk about, Sergeant 
Major of the Army mentioned Disabled Evaluation System. There 
has been a look at that. It is called Records Inventory and 
Disposition Schedule (RIDS), as we always put an everything, 
remodeled.
    There are six different sites out there across the military 
that have done that. We have one of them, the United States Air 
Force, down at Shaw Air Force Base, South Carolina.
    OSD P&R has asked for us to kind of take a strategic pause 
to that, so that they could send teams out to look at it. The 
goal is to get those processed within 295 days. That is the 
goal. Much different than that you had heard about.
    Mr. Farr. Yes, one thing, would you all take a look at a 
Web site called NetworkOfCare.org? It is an attempt to put 
every service that is available by county in the United States, 
because when you think about it, you are a--I mean, DoD is an 
entire family, a city of services.
    Veterans is administered at the community level. But it is 
a federal agency that only knows its federal family. So how do 
you get them integrated into those mental health providers or 
parents with children with disabilities like the Army spouse 
with a child with autism?
    Where is that local support group? It may not be on the 
military base. So the network of care is trying to have all 
that arranged by every county in America. And Maryland has done 
a really good job. I might go to that.
    Thank you, Mr. Chairman.
    Mr. Culberson. You bet. Thank you, Mr. Farr.
    And just in passing, very quickly, something that we will 
need to address in this subcommittee, I hope we will encourage, 
through our bill, the military to adopt, frankly, the V.A.'s 
system of medical records. A person can be with the V.A. for 
much longer than you are going to probably in the military.
    And from everything I can tell--and welcome you all's input 
on this--the V.A does a pretty good job of keeping medical 
records. And there needs to be some standardization. The DoD is 
already moving in that direction.
    That would certainly help.
    And master chief, you raise an interesting point. Each one 
of us should probably look at--and I have just asked my staff 
to put me through the briefing that you are going through on 
what happens in the transfer.
    What does the V.A. tell you when you are about to become 
under the V.A.'s umbrella? I would like to know.
    Excuse us. This is unavoidably going to take a little 
longer than 5 minutes. I know each one of us are conscious of 
trying to make sure our colleagues get a chance to answer 
questions.
    So forgive me for intruding.
    Let me recognize my good friend, Mr. Yoder, from Kansas.
    Mr. Yoder. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. It is our honor 
to sit here with you today and talk about the concerns of the 
men and women in our armed services. Certainly we can't spend 
enough time just listening and trying to figure out where we 
can help.
    And so I have just been listening intently here, taking 
notes, and I really appreciate the conversation this morning.
    A couple things stood out to me, and I had a couple of 
follow up questions that I would love to just get some 
additional feedback on.

                                 MORALE

    Sergeant Major Chandler spoke about what he remarked the 
number one issue that actually affected the morale, maybe, or 
the sentiments of the men and women of the Army. And I wondered 
if this was similar in the other branches.
    I think Sergeant Major said the comments that were being 
made to him, `what do you mean the Army can't pay me?' I know 
that was a frustration to a lot of us on the Hill as we debated 
what are some very serious challenges we are facing 
financially, that somehow in that debate, that the partisanship 
or the rancor on Capital Hill would affect any of our men and 
women in their service.
    I know myself and probably many of my colleagues received 
calls from military families saying my husband or my spouse is 
overseas and I don't know if I am going to get paid--if we are 
going to have enough to be able to pay our rent.
    I mean, for gosh sakes, if we are putting someone's husband 
or wife in harm's way, risking their life for our country, and 
they are having to worry about whether their families can eat 
back home, I just thought that whole thing was unforgivable.
    And I know myself, the chairman, and many others signed on 
to legislation that would say: no matter what happens, military 
paychecks always go out. Whatever the debate is over here, 
whether there is a shutdown, that it is an automatic thing that 
goes out.
    I think that is legislation that Congress should take up. 
It is bipartisan. And I would like to put your men and women, 
their minds at ease when they are serving, that no matter what 
the battle is on the Hill, they don't need to pay attention to 
that, because they are always going to get paid and they are 
always going to be taken care of.
    So I wanted just a brief follow up to mention to that, and 
then to see if that is a concern for the other three gentlemen 
as well.

                      TRANSITION TO CIVILIAN LIFE

    And then a second question a little bit on the same lines 
is, as we have troop draw down, and as there are changes to our 
personnel and being deployed, men and women are coming back to 
the United States--some of them without job opportunities when 
they return.
    We have spoken a little about a transition from active duty 
to the V.A. and the different silos, but I thought maybe you 
could speak a little bit about the concerns your men and women 
have about that.
    Is that legitimate concern, folks are thinking, well, if 
you are going to draw us down, unemployment is already at 8 or 
9 percent; where are the job opportunities for me?

                         VOW TO HIRE HEROES ACT

    Certainly we did pass, with some bipartisanship in Congress 
this year, the Vow to Hire Heroes Act, to encourage employers 
to hire returning service men and women. And I wondered if that 
was something that was positive. How does that affects the 
choices folks are making?
    And just how everybody is getting ready to transition back 
into the private job market? And also, as some folks transition 
back into higher education to get new training, how are we 
doing in terms of making sure that men and women have all the 
educational opportunities for higher education when they return 
from service.
    CMSAF Roy. If I could add, on the continuing resolution, it 
is a concern. It was certainly a concern when it happened, and 
many months after that.
    I wouldn't draw it to my number one concern for our Airmen. 
Our Airmen are not necessarily only concerned about that. They 
are more concerned about the overall budget. But when you don't 
pay them, they get pretty angry.
    But the job opportunities, again, as the MCPON had 
mentioned, the transition assistance has been--we have been 
doing that in the United States Air Force for many years now. 
And I would like to say that our transition assistance program 
is one that sets the person up for success.
    You know, we start when they come in, basically, and trying 
to help make sure that they are highly educated; they have that 
training that is necessary to make them successful. And that 
transition assistance program is there to help them make that 
transition effective.

           CONTINUING RESOLUTION AND FORCE REDUCTION IMPACTS

    Master Chief West. Yes, sir, if I may as well.
    Last year, I opened my statement talking about the C.R. and 
how it was causing a lot of prop wash, as we would call it in 
the Navy, a lot of churn. And it did.
    So anything you can do to stop those type actions, it 
really does help us focus on what we should be doing. And that 
is warfighting. That is what our job is.
    The other piece, when you talk about draw down, we have the 
TAP, the transition. Again, I told you I had gone through that 
recently. It is a very good program. And there is a lot of good 
things that I learned.
    You know, 32 years in the Navy, you can teach an old dog 
new tricks, in other words.
    We also have been going with this draw down for many years, 
as I have pointed out, about 60,000 folks over the past 10 
years. And we have recently had to do some other things, 
Perform to Serve, but most importantly the ERB.
    And what we did with that is we have provided some enhanced 
employment, you know, placement services. We have, through your 
help, enacted TERA, which has helped with some of those folks, 
that early retirement for our folks.
    We have also provided travel to and from and in conus for 
job fairs for our folks. NAVSEA, which is one of our biggest I 
guess parts of our Navy--they do the ship--they have 
established a program called Shipmate to Workmate.
    Not only does it focus on the wounded, ill and injured, the 
wounded warriors, I have seen the folks get hired really right 
off the stage. With that also said, we have expanded. And they 
have been very aggressive for us in targeting these folks that 
are with the early retirement.
    Mandatory TAP assistance, that TAP program we talked about. 
We have enacted for those folks that ERB, to make sure they 
have to sit down and get that counseling and that guidance.
    And push them or pushing towards our Navy Reserve we think 
is also a good opportunity, because if they have the 
opportunity to serve in the Reserve, and then maybe in a few 
years--you never know--we could be in here saying to you, we 
need people; we need your help to get people in, which we have 
seen that cycle in the past.
    Then it allows them to flow a little easier from our Navy 
Reserve back into our active force.
    And then there is other things that we have. I think that 
our services are set up. I think, you know, always we adjust on 
the fly to make them as good as we can for those individuals.

                     CONTINUING RESOLUTION IMPACTS

    Sergeant Major Barrett. On the continuing resolution, yes, 
it was absolutely a concern. And when I had an opportunity to 
sit on the Consumer Financial Protection Board a couple of 
months ago. And I brought that up.
    And Marines were addressing the fact that, well, we can 
always go out in town and see the snakes. And they were 
referring to the predatory loan industry, who in some instances 
have learned how to bypass the law that was put out not too 
long ago.
    And they are still finding a way to put 400 percent down on 
top of a loan, for you to pay it back. So that was a concern. 
So we would be leading hard on our Navy/Marine Corps Relief 
Society, and our Armed Services Young Man's Christian 
Association (ASYMCA) and what not, to help Marines to get 
through something if this were to happen.
    So nothing good would come of it.
    When we talk about how do we transition people out of the 
service, one of the things that we are very proud of right now 
is we are the first service to institute the Transition 
Readiness Seminar. And again, it is from the second you walk 
into the Marine Corps to the second you decide you want to 
leave the service.
    When you get to--as you are going throughout the course of 
your career, the life cycle of a Marine, one of the things you 
are going to be required to do early in your enlistment is take 
out what is being presently developed right now, which is a 
personal and professional development Marine Corps Institute, 
if you will, an MCI, we call it.
    And what it does is it prepares you and it teaches you 
about the touch points and the career counseling that you get 
along the way. And it also breaks it down into four pathways, 
the four pathways you will take when you leave the service, 
whether you are going to go to college, whether you are going 
to get a vo-tech--you are going to learn how to be a welder--
entrepreneurial, or you want to just get out and go back to 
work.
    Well, inside our PP&O Plans, Programs & Operations and the 
life cycle of the Marine, you are going to kind of be taught 
along the way, well, which path do you want to take when it 
comes time to leave. So from the second you join to the second 
you decide to leave, you are being educated on what pathway it 
is that you want to take.
    When it comes time to leave you are better prepared. We 
found that is the best way to keep faith with our Marines who 
are deciding to leave the service.

                        TRANSITION TO THE U.A.C.

    Sergeant Major Chandler. Congressman, obviously I already 
mentioned the CR. For the Army, our program is actually very 
similar to the Marine Corps one. I would tell you that for the 
Army Career and Alumni Program, which is what we have had up 
until now, we did have some places that we probably were not as 
disciplined in as we should have been.
    So for an example, part of the process was that a person in 
the past, if they were interested in understanding V.A. 
benefits, they could attend a workshop. But it wasn't mandated.
    And that caused a problem actually for the V.A., because 
they weren't sure of how many people were actually 
transitioning out of the service and that were looking for V.A. 
benefits upon leaving the service.
    So part of the process we are going to do now is when 
soldiers start our program, very similar to what the Marine 
Corps is doing, they will actually have to attend the workshop 
and enroll in e-benefits, which is the program that the V.A. 
uses, which educates and also helps the V.A. understand what 
their requirements are going to be placed on them, by demand 
for people leaving the force.
    I would tell you, and I learned this from a very educated 
woman at one time, I don't think anybody in the service is 
looking for a handout. They are looking for a hand up.
    And I would think together as a nation, for our young men 
and women who have given so much over the past 10 years--and 
when you think about it, less than 1 percent of the American 
people are willing or able to serve in the armed services.

                     CONTINUING RESOLUTION IMPACTS

    We should be able to find ways that we can work together as 
a nation to help these young men and women as they transition 
from the service and back into our society. They have an 
intangible that I am not sure so many people recognize.
    And that is the leadership, the work ethic, the commitment 
to values that I think every single business that at least I 
have spoken with is committed to.
    We are also going to be focused on education, small 
business opportunities. We are actually going to ask folks if 
they are interested in moving into the Reserve and Army 
National Guard. And obviously those that want to stay, if they 
have a place, we will work to keep them there.
    So I am very excited about this. I think it is a way for 
our nation to recognize the tremendous sacrifice. But it is 
also a way for these young men and women to give back.
    And just as a second note, you know, the G.I. Bill benefits 
and its transportability, and the ability to use that benefit 
for your family members, I am not sure that we all recognize 
just how powerful that is. If I am a young soldier and I have 
decided I don't want to pursue a secondary or post-secondary 
degree, but I can give that to my spouse or my child, think 
about the benefit that that does for our nation.
    It is incredible. It is probably the greatest gift we have 
been given in our time in the service, anyway. I thank you for 
that.
    Mr. Yoder. Well said, sir. And thank you, gentlemen, for 
your comments.
    Mr. Chairman, thank you.
    Mr. Culberson. Thank you very much, Mr. Yoder.
    I am pleased to recognize my good friend from Minnesota, 
Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    As pointed out, we talk about quality of life as well as 
what we owe our service men and women during the transition 
back into civilian life. So there has been a lot of talk about 
hardware, pay, and retirement. Those are things that I think as 
members of Congress, we feel comfortable talking about, because 
it's one of the few things where I think we stand together, 
with party labels removed.
    The other thing that has been touched upon is sexual 
assault and suicide areas where--I can't speak any louder. I am 
sorry if you can't hear me.
    The whole issue of sexual assault, suicide, spoken at the 
Department of Defense Subcommittee, spoken of here, spoken of 
in the policy committees, both in the House and Senate. We read 
about it in the paper.
    And I know that the military is working hard on this issue.
    But one of the quality of life issues in which the chair I 
know wanted to focus part of this discussion today is our 
schools, is our children.
    All you gentlemen, maybe you are fathers. Maybe you are 
not. If you are fathers, you have had children, because of the 
amount of time that you spent in, that probably attended 
multiple schools. Heads are shaking. This isn't just about one 
school, multiple schools, multiple states.

                               EDUCATION

    Talked about the transferring of credits. And I speak with 
reluctance a little bit. But I know a little bit about it, 
having brothers, sisters born around different air bases around 
the country, and being transferred back and forth, even at 
first grade, from Texas to Ohio.
    So education is something that I experienced a little bit 
first hand. Now my father left and separated early. And so I 
had an opportunity to go to a high school in my father's 
hometown, same high school that--same year, in fact, 1972, that 
Attorney General Alhalter. We graduated together.
    And I think as two kids who probably didn't know what our 
destiny was going to be, the one thing that guaranteed that we 
had the opportunity for a successful destiny was a good quality 
education. I am going to take this hearing a little bit back to 
some of the focus that has been before.
    But as a daughter of a former--my father has passed--of a 
severely disabled veteran, all the things that have been 
mentioned up here are important. But we have oversight 
responsibility in the full quality of life.
    So I am going to go back talking about our schools, and 
asking questions. If you don't have the answers, you can get 
back to us.
    There was a report that was put that--it was in the media. 
And it talked about families who live on military installations 
send their children to 100 of 94 bases and schools operated by 
the Pentagon around the world.
    There are 159 base schools that are operated in conjunction 
with the U.S. Department of Education, doing some oversight, 
but it is primarily local school districts that you do that 
work with.
    There is a report just on those 194--excuse me, 159 base 
schools. And doing some rough math here--if I had a magnifying 
glass, I was trying to read this chart. Oh, my gosh.
    We have some schools that are in pretty big trouble. And so 
I want to ask you a little bit about that.
    We have 59 schools that are really in the not needs 
improvement, but maybe needs to be demolished category, because 
of structural deficiencies. So that probably means that school 
is not wired for technology.
    That probably means that that school, when that young 
student walks into it, isn't saying I am part of a military 
family; we are the best of excellence and we are treated with 
honor, dignity and respect, is reflected on that child at all, 
or that family, or that military parent that is sending that 
child to that school.
    So part of our oversight responsibility is to find out how 
we turn that around. So some of my questions would take longer 
than 5 minutes. And I am starting from ground zero at the end 
of the hearing, after 2 hours.
    So part of what I would like to know--and I know you talked 
about the school liaison officer. And if I understand how that 
is kind of working, that is to help kids like me who make the 
transition so I don't get my German Measles shots for the third 
time because my medical card hasn't followed me.
    But you have oversight responsibility. We have oversight 
responsibility for Impact Aid. That goes to a school district. 
And if we don't put the tools in the toolbox and the teeth 
behind the Impact Aid, for you to be able to go in and say, 
excuse me, school district, this is unacceptable, the quality 
of education, or this building, the facility our children have; 
I am going to hold you accountable and responsible for that 
Impact Aid.
    So if you could maybe address what we can do to help give 
you the tool in the toolbox for the impact aid, and what our 
failure, our collective failure, Democrat, Republican, 
independent, for making sure that Impact Aid has kept up with 
the cost of that child going to school.
    Because I am very concerned about what is going on. To the 
chairman's point, charter schools are great. I don't have a 
problem with public oversight of charter schools. But dilution 
is not the solution to this problem.
    And so if you could just give me a few minutes a piece 
about how we can work together with what we are all fighting 
for, with you putting your lives on the line, and us, you know, 
up here trying to make good decisions in the fight, to make 
sure that every child in this country--every child in this 
country has the same opportunities that Tom and I had, and that 
Tom's children deserve.

                                SCHOOLS

    Sergeant Major Chandler. Congresswoman, thanks. You know, 
that is a fantastic question. My mother was a school teacher at 
both the middle school and high school level for more than 20 
years before she retired and chose to do something else in 
life.
    And so as a son of an educator, I understand exactly, in 
many ways, what you are talking about. Because from time to 
time, we will talk about how we are doing in schools. I will 
tell you that, from an Army perspective, number one, the school 
liaison officer does more than just making sure the records are 
straight.
    They actually provide liaison with the school and the 
military community to try and resolve problems like Impact Aid. 
My awareness of the entire Impact Aid program is limited. But I 
will tell you that I know that in some circumstances, Impact 
Aid is not completely used just to make sure that the education 
provided for the military kids that are in that school, it is 
more diluted, just like you talked about.
    When I was in El Paso, Texas, that was an area of concern 
for us down there. And the installation and the state and local 
government worked very hard with the El Paso Independent School 
District to make changes.
    From an Army perspective, I know the DoD has provided 
grants for $500 million through the Office of Economic 
Adjustment, for schools that are in the conditions that you 
talked about.
    And for the Army, we have got schools at Fort Bliss in El 
Paso, Texas, joint--Fort, Fort Sill and Fort Riley that have 
been assessed and grants have been offered to those school 
districts to work on improving in either rehabbing or replacing 
schools.
    Could we use more? Absolutely. You know, I think all the 
services would say that we want every single child that is in 
our nation, and for us, for the services, to be in the best 
possible school our nation can afford.

                 MILITARY CHILDREN'S EDUCATION PROGRAMS

    We look forward to finding out what other ways we can do to 
help. And we will definitely get back, in the Army anyway, on 
other areas that we need assistance with. Absolutely.
    [The information follows:]

    Impact Aid is a Department of Education program that is an 
important source of federal income for school districts that educate 
federally connected children. Impact Aid is intended to offset the loss 
of local tax revenue and is deposited into the school district's 
general fund account, just as property taxes are. In effect, Impact Aid 
is the federal government's ``tax payment'' to local school districts 
for property taken off local tax rolls and helps ensure military 
children are provided a quality education.
    Historically, Impact Aid has been funded at less than the 
Department of Education requirement. The Army continues to work with 
the Department of Education and DoD to find solutions to this mutual 
concern and appreciate the committee's support.
    The Army supports collaboration and partnership efforts, managed 
locally by School Liaison Officers, to encourage strong working 
relationships among school systems and the installations they support. 
The Army supports partnerships with school systems and school boards to 
facilitate opportunities to educate school personnel, parents, and 
communities about the importance and benefits of Impact Aid. This 
includes informing commanders and parents about the importance of 
completing federal forms so school districts receive the Impact Aid 
allocation for each eligible student.

    Sergeant Major Barrett. Ma'am, we have no charter schools 
in the Marine Corps. We do have the School Liaison Program that 
covers down on 70 districts across all 17 major installations 
in the Marine Corps.
    But that is not the answer you are looking for. And I owe 
you a better response than that. And you shall have it, ma'am.
    [The information follows:]

    We can work together through hearings, caucus meetings and 
Congressional requests for information, which are good ways to educate 
each other on our mutual efforts to improve education. We ask that you 
include us as much as possible in your deliberations so that we can 
help you craft the most effective and targeted legislation to meet our 
mutual goals and needs.
    For our part, the Marine Corps has taken several steps to ensure 
our children receive the education they deserve. Our School Liaison 
Program operates as a military-civilian community communication and 
support program intended to support children who are within the 
geographic region of our installations. The program addresses the 
unique issues and challenges faced by the 66,000 Marine Corps school-
age dependents as they relocate six to nine times during their K-12 
academic years. At the policy level, our Headquarters Marine Corps 
Senior School Liaison participates in a K-12 Partnership with the 
Department of Education, Department of Defense Education Agency and the 
other services to provide a coordinated effort to address the needs of 
all military school-age children.
    At the installation level, our School Liaisons (SLs) act as the 
single point of contact for the commander for educational matters of 
school-age children. They provide materials, training or other support 
services to increase and enhance the Local Education Agencies' (LEAs) 
awareness of the unique educational needs of military families. Our SLs 
provide support to more than 70 school districts and over 1,750 schools 
that have a high percentage of military dependents. As a result, over 
70 partnerships have been formed with local schools that enhance 
services to military school-age children. Our SLs provide LEAs with 
information and guidance on the Impact Aid program to assist LEAs with 
their decisions regarding the use of these federal dollars.
    We strongly support the work of the Office of the Secretary of 
Defense in gaining state signatories to the Interstate Compact on 
Educational Opportunity for Military Children, which enables reciprocal 
acceptance of enrollment, eligibility, placement and graduation 
requirements. In addition, our children would benefit from authorizing 
the Common Core State Standards in English, Language Arts and Math, 
which is coordinated by the National Governors Association Center for 
Best Practices and the Council of Chief State School Officers. These 
standards will promote common curricula for students regardless of 
their location and will provide a smoother school transition for 
students.

    Ms. McCollum. Thank you.
    Mr. Culberson. Thank you for all of us.
    Master Chief West. Yes, sir.
    Ma'am, great question.
    As I pointed out earlier, we have two charter schools in 
the Navy, one in Key West, the other one in New Orleans. I have 
two sons, 24, he is a Navy diver currently. And I have a 21 
year old that is going to George Mason.
    And you know, I would also say that when you look at that, 
what makes us a good military, like someone up here pointed 
out, it is not about the hardware or the technology we have. It 
is the people we put in place.

                           IMPACT AID PROGRAM

    I think there has been a renewed focus over the past few 
years in schools, in getting out and, you know, focusing on 
things like Just Move. So I think that all those things are 
very helpful.
    Compact Aid or Impact Aid, I too have been involved in 
Hawaii, along with my counterpart to the right here, with how 
that was spent. And I think it is, like the Sergeant Major 
already pointed out, to some degree it gets diluted.
    I think this is something that you are right. This is our 
seed--you know seed corn.
    Ms. McCollum. That is okay. I am from Minnesota.
    Master Chief West. So you know what I am talking about. 
Ma'am, it is our seed corn for the nation. And I think this is 
one thing that we could really focus on to make sure we are, 
you know, staying focused in technology and all those things 
that make America the greatest country in the world.
    We have to be out there. But it starts, like you said, in 
those classrooms. Those classrooms aren't the best. And we are 
doing a disservice not just to our military. I think we are 
making huge headway with this school liaison officers and all 
the things that we are focusing on.
    But if we are not providing the best environment for our 
personnel throughout the nation to learn in, then we are 
missing something as a country.
    [The information follows:]

    Since 1950, Impact Aid has been, and continues to be, a vital 
program for local communities in which the Navy works and lives. While 
the program falls under the U.S. Department of Education (ED), the 
calculation for Impact Aid payments includes our presence in local 
communities. Districts may use the funds in whatever manner they choose 
in accordance with their local and state requirements. Impact Aid 
provides critical supplemental Federal resources to local school 
districts, thereby, contributing to quality education for ``Federally 
connected students''. Most Impact Aid funds, except for the additional 
payments for children with disabilities and construction payments, are 
considered general aid to the recipient school districts.
    The Department of the Navy (DON) is proud of a strong history of 
working very closely with our community partners. The efforts of our 
Commanders and the commitments from communities serving Navy families 
have laid the groundwork for successfully planning for and carrying out 
our mission requirements. Our goal is to support our families and local 
education agencies with the K-12 education challenges facing military-
connected children. DON recognizes that Impact Aid is an important 
source of funding for school districts; however, we do not have a role 
in the development, determination, or distribution of the U.S. 
Department of Education (ED) Impact Aid program.

    CMSAF Sergeant Roy. Ma'am, again, thank you for your 
service. And thank you for serving alongside your father.
    I am not familiar with Impact Aid as much as I should, even 
though I was involved with distributing it out in the Pacific. 
When you have got the preponderance of people that live on a 
Oahu, but yet some of this Impact Aid is going to another 
island, it doesn't make sense.
    So we owe you a better answer to that and we will get that 
to you.
    [The information follows:]

    I would recommend three things. First of all, Congress needs to 
develop statutory requirements mandating that school districts report 
on the use of federal Impact Aid programs. Secondly, allow for the 
Department of Defense Education Activity to have a part in the 
distribution of resources at military impacted schools. Finally, Impact 
Aid for Large Scale Rebasing Program has been authorized annually; 
however, appropriations have not been received since 2007.

    I myself, like you and many of the others down the table 
here, I have children as well. My children are 12 years old. 
And they have attended their third school. And it is quit 
ironic. One has been a DoD school. Another one has been on the 
installation in Hawaii, but yet a part of the local community's 
school system.
    At that particular school, you are exactly right. We had to 
come up with money to purchase the air conditioners for those 
classrooms. That is ridiculous.
    Why would we expect the parent to have to do that?
    To the point to where we are today, in this environment 
here, in the national capital region, where I wouldn't even put 
my kids in the school system.
    I put them in an individual school system, one that I pay 
for, because I am not putting them in a local school system.
    And it is a personal choice. I understand that.
    But I also understand, just like one of my son's friends 
that--he is just a few years younger than he is. And he was 
absolutely failing in school, absolutely failing in elementary 
school to the point where the family was going to move away, 
split up.
    The member was going to stay here. The family were going to 
move to northern Pennsylvania just because they were trying to 
get back to the school system in which they grew up in.
    The charter school comes in within a year, that child has 
turned around. Not just in their academics, but also in their 
behavior. That is what a good school system can do.
    And I absolutely agree with you. And I owe you a better 
answer, but I absolutely agree with what you are saying.
    Ms. McCollum. Mr. Chairman, I think we should ask our staff 
maybe to work--to put up a small document on it--doesn't have 
to be in great detail, as much as people want to get--what 
impact it is.
    It is a formula based aid which has not kept up with 
inflation at all for years and years and years. A kid assigned 
to a school district, and unless you have a school district 
that is really working with the base, that sees having the base 
with a military installation there as part of its economic 
growth and development, they can quite often absorb the money 
and put it towards whatever.
    It is a formula without any--as Mr. Farr was saying, 
without any teeth. And if we are to work with school districts 
about--talking about public charter schools, I think that gives 
us some teeth with it.

                  ACCOUNTABILITY OF IMPACT AID DOLLARS

    But I also think that we should be asking for 
accountability, transparency, and oversight on those dollars.
    Those dollars are given in lieu to the school district for 
not being able to tax the federal land.
    So, I am not saying that 100 percent of it has to go there. 
But there needs to be a formula with accountability and 
transparency that makes sure that that child, and that child's 
family, is getting what they need.
    The other thing is the transfer of credits becomes another 
issue. With leave no child behind in all 50 states being able 
to accept their own standards, some of the children who are at 
highest risk for kind of being pinged around, are children in 
the military, or even some of the folks in the private sector 
where they find themselves moving around a lot.
    Because one school can have one set of standards for math. 
A state right next to it can have something different.
    And a child can go into third grade thinking that they were 
fully prepared, top of their class at the district that they 
were at, and be in a different state and find themselves at the 
bottom of the class. Or bored out of their gourd because of 
what is going on with our schools.
    And if we want families to stay together, soldiers not be 
concerned about what is going on back home, part of that is 
your homework done. Are you succeeding? And what is going on in 
school?
    Because that is the thing that I hear my families talk 
about when I watch the video conferences.
    But thank you, Mr. Chairman. I look forward to getting the 
stats.
    I think we are going to have to just drill down on the 
schools and maybe just take an hour and do that with CRS or 
some of the----
    Mr. Culberson. Yes----
    Ms. McCollum [continuing]. Staff here. Maybe having a 
huddle before we do our next meeting on this.
    Thank you, thank you, gentlemen.
    Mr. Culberson. Absolutely.
    And Mr. Nunnelee, would you permit me just a brief moment 
to follow-up.
    I couldn't agree with you more, Ms. McCollum, on this. And 
the impact data she said is designed to compensate local 
publicly funded school district.
    But the fact that they cannot tax federally owned property, 
because obviously the federally owned property is tax exempt. 
And that places a real hardship on the school district's 
ability to raise revenue. And the formula is designed to help 
compensate them for that.
    And the example you mention, Chief Master Sergeant of the 
Air Force Roy, of the young man, you told me he was 11 and he 
was enrolled and was having the trouble----
    CMSAF Roy. Right----
    Mr. Culberson [continuing]. In the local Prince George's 
County is----
    CMSAF Roy. He was nine. He was having troubles in the local 
Prince George's County school system, which is a charter 
school.
    Mr. Culberson. In Prince George's. Are there any military 
bases in the District of Columbia at all?
    I mean that they are like for example, they are both based 
at the military base.
    Was he going to the D.C. public school?
    CMSAF Roy. We do, yes.
    Mr. Culberson. You do----
    CMSAF Roy. Down at Joint Base Anacostia-Bolling.
    Mr. Culberson. Bolling.
    CMSAF Roy. Joint Base Anacostia-Bolling.
    Mr. Culberson. Okay. One thing we might look at that is--
and all of us--I am going to tell you something.
    I am going to come your way on something that I never 
thought I would ever say publicly, but make an opportunity 
scholarship in the District of Columbia available for family 
members of the military.
    Because there has been some contention about that in 
general for kids that live in the District of Columbia. And--
got to make those into this--maybe some way through this 
subcommittee to the extent that we have got jurisdiction with 
our friends on the other subcommittees influenced with--and 
excuse me.
    To make--duty scholarships available for the kids that are 
going to Joint Base Anacostia-Bolling or any other--I mean for 
example, if they are going to the D.C. schools--because we have 
got the--Congress has jurisdiction over those funds.
    And then secondly, you all remember Nancy Johnson from 
Connecticut, who had for years worked with--and I think she did 
this with Judy Biggert and somebody else, they passed a bill a 
couple of years ago.
    I don't know if the Senate passed it or not. But the 
federal government would get in to help and pay for local 
public school construction which caused me to fall over and 
faint as a fiscal conservative, because of the amount of money 
that would be nationwide.
    But you mention a report, Betty, that said there were 159 
base schools. I would love to have that as a part of the record 
and work with you on that.
    And think about what, for example, of those schools are 
serving members of the military, ought to be a real benefit for 
a public school district to be next door to a military base. 
And one of those benefits might ought to be in addition to, 
obviously access to charter schools, opportunity to 
scholarships, that need help would impact a--but then finally, 
Betty, that why don't we--frankly that would be one area you 
would actually get a guy like me, as conservative as I am, to 
agree that we ought to get into the business of helping that 
local school that is serving the military if they need 
technology, if they need to be rebuilt.
    I can't believe I am saying that, but that actually is an 
area--I almost fell--I can't believe I am saying it, but it is 
true.
    She is right. I mean, I am with her.
    Ms. McCollum. Well, we should be doing it for our D.C. 
schools too, because----
    Mr. Culberson. I know----
    Ms. McCollum [continuing]. Part of the reason why they are 
in so much disrepair is members of Congress sent their children 
to private schools.
    Mr. Culberson. What do you do?
    Ms. McCollum. The public--well, but then they weren't 
invested in making sure that the public schools had the 
infrastructure that they needed, because their children weren't 
going there.
    And we have oversight. We have been the police. We have 
been the police. We have been the nanny. We have been 
everything the D.C.--on what to do.
    At the same time, that is not doing it ourselves, because 
we don't live here.
    So, there is work to do with D.C. And I think that that 
needs to probably pulled out separate from what we are doing 
here.
    Gentlemen, if there is a report available from the Pentagon 
on the 195 Pentagon run schools----
    Mr. Culberson [continuing]. 95.
    Ms. McCollum [continuing]. Because there are two sets of 
schools we are talking about here. And I was unable to find on 
that.
    And also, your request--I know CRS has been trying to get 
it from the Pentagon--the request for educational 
appropriations for 2013 is not available to us as members of 
Congress right now, as we are moving forward making our 
decision.
    Mr. Culberson. We are going to work arm-in-arm on this with 
Betty helping us take the lead on this.
    Thank you.
    Ms. McCollum. You have been generous. You have given me 15 
minutes to talk about this whole thing.
    Mr. Culberson. There is nothing more important, actually 
nothing more important in our lives than our children, our 
families, and so we understand that.
    Thank you, Mr. Nunnelee. Forgive me for indulging and 
taking some of our time, sir, thank you.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    One thing about being a gentleman at this end of the table, 
everything has already been said, just not everybody said it. 
[Laughter.]
    So, I will try not to be redundant. But I do want to 
follow-up on Mr. Yoder's questions and comments.
    I walked in the room, Sergeant Major, when you were making 
the observation about what do you mean the Army can't pay.
    That got my attention, I wrestled with issues like every 
member of Congress did last year. And the thing that kept me 
awake at night was that question.
    If you will allow, I may plagiarize Sergeant Major 
Barrett's motto, ``keeping faith works both ways.'' I am going 
to borrow that.
    I may give you credit the first couple of times. And then 
start to use it.
    And the context in which I am going to borrow it is that 
keeping faith does work both ways. We have men and women that 
are standing in harms way defending our freedom.
    And as a member of Congress, my obligation to them is to 
make sure that they don't have to ask themselves--and their 
families don't have to ask themselves the question that you 
asked, Sergeant Major Chandler, what do you mean, the Army 
can't pay me.

                             SEQUESTRATION

    Mr. Nunnelee. Now, a question, we have talked a lot about 
sequestration and its impact on national security.
    This is appropriately where most of our questions ought to 
be directed. But my suspicion is that if sequestration takes 
effect, one of the greatest casualties of sequestration is 
going to be quality of life issues for our men and women.
    Because if you are forced to make difficult budget 
decisions, and those decisions involve on one hand, cuts and 
issues that will involve national security, and on the other 
hand cuts and issues that involve quality of life issues for 
families, it becomes a no-brainer.
    So, I would just like to ask you to share, as much as 
possible; I don't know whether you have begun the planning for 
sequestration, but specifically what impact will that have on 
quality of life issues specifically for families that are 
serving in the military?

                        IMPACT OF SEQUESTRATION

    Sergeant Major Chandler. Congressman, it is a great 
question, the follow-up first.
    What we have got to remember is we--I was talking 
specifically about the active component. But the CR last year 
in April, caused some of our guard and reserve units not to 
drill.
    And if you think about that, specifically for a traditional 
guardsman, who many of them do rely on that drill pay to 
support their income, that was a huge impact already.
    So, when you think about sequestration, you know, a course 
of action may mean that some of our guard and reserve units are 
not going to be able to drill just in the minimum standards 
that they need to, even if they are not in--have been alerted 
for deployment.
    And when you talk about the impact of quality of life and 
family programs, I would argue that any impact in any program 
indirectly impacts national security. So, if we make a decision 
to cut a family program because of sequestration or a series of 
programs, that has an impact because it is about that soldier.
    And if that soldier's concern is on whether or not his 
family is going to get child care, whether or not his family is 
going to be able to seek domestic violence counsel, those all 
have an impact on the readiness, at least from the Army's 
perspective, on the Army.
    Now, the other--I am sure the other services would want to 
speak to that. But all of these things are connected.

            SEQUESTRATION IMPACT ON MILITARY FAMILY PROGRAMS

    There is not one thread that you can pull that solves all 
of the problems or answers the question of sequestration. They 
are all linked, because as we say in the Army, you recruit a 
soldier, but you retain the family.
    And so that faith that--or what we do in turn we receive 
this, that faith could be broken. And for our Army, anyways, 
that will have a detrimental impact for years to come.
    Once you break that faith, it is really hard to get it 
back. And I am sure--it is like a handshake means so much. You 
know, when you shake someone's hand that is a commitment.
    Saying that we are going to support soldiers and their 
families for the Army is a commitment. If we break that 
commitment, I am concerned about where we will be as an Army, 
immediately.
    Sergeant Major Barrett. Yes, and I will jump right on the 
bandwagon. And I will echo all quality of life issues, all 
those behavioral health areas, all the societal issues that 
will come to surface even more so: drugs, alcohol, domestic 
violence, criminal mischief, sexual misconduct, hazing, 
operational stress--suicide. That is all going to ramp up.
    I can't give you a percentage, but it is definitely going 
to ramp up.
    Upkeep to our infrastructure and facilities will be in 
jeopardy.
    Force modernization, so all the things that we have, 
everything from our ground combat vehicle strategy to full 
spectrum battle equipment, all the things we need to stay ahead 
of our adversaries and our enemies, to include the going to the 
field, putting bullets in our rifles, go to the rifle range, 
training and maintenance, sending people to school, that has an 
impact to quality of life.
    Because now what you are doing in the Marine Corps, you 
know, idle hands, nothing good happens.
    You need to keep them busy. You need to keep them engaged. 
Keep them in the field. Keep them training. Keep them doing 
those things.
    We don't have those monies. We are not modernizing force. 
We are not taking care of operations and maintenance. And it 
affects all those societal issues that I brought up.
    Master Chief West. Sir, you could put everything they said 
and put Navy or Sailor in front of it. It really is the same 
thing.
    But one other congressman pointed out earlier is well, this 
is not just military. This is going to be across the nation, 
which again, affects the future too, those generations that we 
are looking at.
    I have nothing further to add.
    CMSAF Sergeant Roy. Just like you, sir, down at the end of 
this table, everybody said it already.
    One other point I would bring up is, you know, everybody 
was talking about dwell, just as a point of reference.
    Certainly sequestration could certainly drive that dwell up 
affecting the quality of life of our folks as well. So, I just 
reiterate everything that my fellows have talked about as well.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Nunnelee.
    We rely a great deal on Jim Moran's expertise and 
knowledge. He serves both on this subcommittee, has for many 
years with great distinction, but also on the Defense 
Subcommittee.
    Jim, we are glad you are here. And understand you were 
across the hall with Secretary Panetta on your Appropriation 
Subcommittee for Defense. And, of course, welcome whatever he 
had to say to you about sequestration as well.
    Mr. Moran. Well, thank you, Mr. Chairman, the secretary and 
General Dempsey were very clear that we cannot tolerate 
sequestration in the amount of--$1 trillion over the next 
decade in the Defense Department period.
    He says it is impossible. We are not making plans. We can't 
do it.
    So, one approach though in that regard is what has been 
offered by Senator McCain and Chairman McKeon which is to cut 
the federal civilian workforce by 10 percent. And that would 
enable the Defense Department to delay, by 1 year, 
implementation sequestration.

                SEQUESTRATION-NAVY CIVIL SERVICE IMPACTS

    But the problem is that two-thirds of our civilian 
workforce are involved in national security. So if any of you 
have any comments about that, I don't necessarily want you to 
feel obliged to pipe in.
    But if you have something to add to our understanding, we 
would appreciate it in that regard to one of the proposals to 
delay sequestration for a year.

                        IMPACT OF SEQUESTRATION

    CMSAF Sergeant Roy. Absolutely. And as you mentioned, sir, 
the two-thirds of those folks work within national defense.
    We rely on our civilian workforce, just as much as we rely 
on that warfighter out there on the end of the spear.
    So, to say that we could reduce our civilian workforce 
would dramatically affect our ability to perform the mission.
    Mr. Moran. Interesting.
    Master Chief West. Sir, from a Navy's perspective, I echo 
that. I will tell you, we have a total force, our Navy Reserve 
and our Navy civilians.
    And I have to say that our Navy civilians contribute 
immensely to everything that we do. They are absolutely 
embedded. They are part of our team.
    And when you start cutting folks, and you start talking 
sequestration, you know, it is going to be very tough for 
everybody, and not a good thing at all. And it has the ability 
to take our military--when I talk about our military, I include 
my Navy civilians, and it is going to be bad.
    Major Barrett. Sir, I had the same thing written down. I 
was cheating off of them. I had down total force. And it 
absolutely will affect us.

                        IMPACTS OF SEQUESTRATION

    Sergeant Major Chandler. My brothers here and I echo the 
same sentiment, sir, that from an Army perspective--not to 
criticize anyone else's idea, but it sounds kind of like a 
self-licking ice-cream cone.
    You reduce the size of the civilian workforce, and you have 
to put military folks to do some of those key and essential 
functions that a civilian is now doing. But you are also going 
to reduce the size of the services in uniform at the same time 
through sequestration.
    I am not sure you can get there from here.
    And at the end of the day, there are things that we need 
our soldiers, sailors, and airmen, and Marine to do and do 
extremely well.
    So, if you take them to do something that a civilian has 
done in the past, they are not going to be doing that core 
function that each of us say that we are warfighters, and that 
is what we do.
    Mr. Moran. That is very instructive information to add to 
our consideration. We appreciate it very much. And it does seem 
as though there may be some counterproductive aspects to that 
proposal.
    Health care costs--if I could, Mr. Chairman, let me just 
give a couple of statistics and then ask for comment.
    In 2000, the Pentagon spent $17.7 billion on medical 
benefits. In 2012, that amount has grown by 150 percent to 
$44.3 billion.
    It is largely because of the expansion of benefits and the 
beneficiary population.
    We have created new programs. We have added new benefits. 
We have extended eligibility to new categories of 
beneficiaries.
    The defense health program currently includes more than 9 
million eligible beneficiaries. That is 3 million more people 
than in 2000.
    Now, many argue naturally that providing care to immediate 
family members whose eligibility has been expanded, it does 
help ensure peace of mind. And that can have a major positive 
effect on readiness.
    But my question would be do you think the increase in 
family readiness is proportionate to the increase in health 
care costs which are having a profound impact upon our 
budgetary considerations. It is a zero sum game now in terms of 
how much we can spend on the military and on health benefits.
    Or are there more cost effective methods to increase family 
readiness?
    That will be my only question, Mr. Chairman.
    Sergeant Major Chandler. Who wants to go first? You all are 
looking at me. [Laughter.]

                            FAMILY READINESS

    CMSAF Roy. I will take the first whack at it.
    Let me just say that when you look at the health of the 
force, if you will, it is not just the member. It is the family 
as well.
    You know, if you have somebody's mind that is not focused 
on the mission because of an illness or some type of--something 
going on with their family member, that is not one that you 
want to send to the battlefield.
    So, I would be an absolute supporter of why would we want 
to take away from those benefits that we give to our family 
members? I don't think that is the right venue to look at this.
    But I think there is something here that we need to look 
at. And that would be, just simply, you know, Sergeant Major of 
the Army mentioned earlier of how many folks are eligible to 
even serve in the United States military today.
    A lot of that is because of our health condition across 
America. A lot of them are just not able to serve in uniform 
because of overweight and many other health conditions.
    So, you have got to understand that that is also the fabric 
of our military as well is, you know, a lot of our families fit 
in that category.

                         NAVY FAMILY READINESS

    So, the more that we focus on total force, total family 
fitness, is one that helps us long term to cut those costs of 
health care down.
    Miss Paula and myself and the boys are the representatives 
for the United States Air Force Fit Family Program.
    We struggle at it every day. When do we walk? What do we 
do? What do we eat?
    But those are things that America needs to do if we are 
going to drive these health care costs down.
    So, I would just throw that out at you.
    Master Chief West. Well said, shipmate.
    Anyway, sir, one of the things I would like to just point 
out is this is an all-volunteer force. And I think to have a 
very good sustainable voluntary force, you have to make sure 
those folks at home are getting everything they need.
    He pointed out that we have a huge population of our nation 
that can't even serve in the military.
    Well, our recruiters can only go after 23 percent of the 
nation right now for all those things that Chief Roy mentioned.
    Other than that, I really don't have a lot more to add. I 
think he articulated that very well.
    Major Barrett. Same thing, sir, they again, I stole off of 
both of them, the volunteer force, but also just like to 
reiterate the amount of sacrifice that the families have been 
giving over these great many years.

                            FAMILY READINESS

    Sergeant Major Chandler. Sir, I do think that there may be 
some efficiencies that are gained at looking at more 
opportunities to use the facilities and the tools that each of 
the services have.
    I know there has been discussion about a unified health 
command. I think we should explore that.
    Each of the services has a different culture. But it is 
about the delivery of medicine, and care.
    And so I think we should explore that as rigorously as we 
can to see where we can gain efficiencies and whether or not a 
soldier or a family member is being treated at an Air Force or 
a Navy hospital, I think we can do a lot of work there.
    The other thing though I would echo the same sentiment. 
Only about 23 percent of the 17 to 24-year-old male population 
in the United States of America can serve and meets the 
requirements to serve in the Armed Services.
    Most of those are for medical disqualification. Many of 
them are also because of issues that they have had with some 
problem in their past that they have gotten into trouble.
    But a lot of it is medical. We have got to incorporate this 
culture of prevention and well-being back in our society which 
I think that we have lost a lot of personally.
    And prevention and well-being, I think, is going to drive 
down costs. But this has got to be part of what we say is 
important to our country and not just for our national defense, 
because it impacts everybody.
    And finally I do think there is an element of 
accountability here. We have a tremendous, tremendous benefit. 
You know, Jeanne and I's children are almost all professionals. 
Their average upfront cost of their yearly health care is more 
than $5,000 for each one of them.
    Ours is very, very, very less especially if you are a 
retiree.
    There has got to be accountability that in return for this 
gracious benefit, you have got to be more educated on ways to 
gain access, like using the Telenurse program that TRICARE had 
to drive people from going to the emergency room immediately, 
which causes cost.
    But I think we have got to do a better job there too, sir.
    Mr. Moran. Mr. Chairman, obviously I don't think any of us 
disagree that we need to be more physically fit. And take 
advantage of--services--a unified health care command, we are 
in the process of implementing. It hasn't saved any money yet. 
But it may show promise. It certainly does on paper.
    But, Mr. Chairman, the fact that health care costs have 
gone up by 150 percent in the last decade, and we have 3 
million more eligible beneficiaries, I do think is something we 
need to take a close look at, because it is not that we don't 
want to spend that money, but it does mean that we have less 
money to spend in other areas. And that is why we need to 
evaluate it.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Moran.
    It is intriguing that we started out with all our questions 
about suicide prevention and what a concern that is. And so 
much of this circles back to is--you just mentioned, sir, 
prevention, wellbeing.
    And what so much of it also of course, to the extent we are 
able to do so, to encourage every young man and woman in the 
military to develop a strong religious faith, whatever that may 
be, and encourage strong families.
    Sounds like you have got a program in the Marine Corps to 
do that.
    A lot--if they are happy at home, if they feel like they 
have got a strong spiritual life and are loved and--not only--
maybe if they don't have the family at home, certainly by the 
new family they have acquired by joining the Armed Forces, that 
means a lot.
    And your story about the Marine Corps, those two young men 
in the Marine Corps, one guy spotting another one, was able to 
help save his life. It is often all it takes, just a little bit 
of TLC makes a huge difference.
    If I could ask, just--and in a couple of areas quickly and 
turn to my friend, Mr. Bishop, is I wanted to ask when it 
comes, you know, barracks, dormitories, families ask the 
sergeant major of the Marine Corps in particular, when it comes 
to Guam, there has been some discussion about modifying the 
realignment roadmap and replacing permanent party Marines on 
Guam with a large rotational component.
    What would that, in your opinion, do to Marines and family 
members if they had continuous rotations over an extended 
period?
    What would be the impact on Marines and their families?
    Major Barrett. Well, sir, I am not sure if you have ever 
been to Guam. But it is not very big and there is not a whole 
lot to do.
    So, we would not put that many married families on to Guam 
is what I could share with you.
    Mr. Culberson. Not a happy family friendly place.
    Major Barrett. Yes, no, sir, well there is not a lot to do 
there.
    Mr. Culberson. Yes.
    Major Barrett. But I owe you a better response than that, 
sir. But I do know that we would not put that many families 
onto Guam, because of space, sir.
    Mr. Culberson. It is the effect of the continuous rotation. 
I understand there has been some discussion about replacing the 
permanent Marine contingent on Guam with a continuously 
rotating Marine contingent.
    What effect would that have on the Marines there?
    Major Barrett. Well, sir, actually that would be a positive 
effect because it is--we are getting back to our amphibious 
roots and getting back into the Pacific. So, you are getting 
Marines back on the unit deployment program.
    We are keeping them busy. Keeping them deployed.
    Because one of our biggest fears is you take this force 
that has fought for the last 10 years and everything that we 
have done and what we have become, and now to just go to idle 
hands, that is not good for any of the branches of service, so 
going back out there, sir, going to Australia, going to Guam 
and those forces back into the Pacific.
    They would be a positive--sir.
    Mr. Culberson. Very good, thank you.
    I recall last year, Sergeant Major Chandler, there was some 
discussion from the Army about moving married families to ask 
that come into this--I am going to use a formal request, but 
there had been some discussions that Mr. Bishop of building up 
facilities in Korea to allow families to come over.
    And they may not just be the Army, if it affects any other, 
probably maybe the Air Force as well, perhaps, maybe the Navy.
    Could you talk to us a little bit about that? I know the 
costs would be pretty significant.
    And from your perspective, Sergeant Major, the benefit of 
allowing, you know, if we were to invest the money to build out 
those facilities and allow families to move in out there, what 
in your opinion, and from your perspective are the benefits 
of--it would be a pretty dramatic.
    Always better to have your family there with you----
    Sergeant Major Chandler. Absolutely----

                           TOUR NORMALIZATION

    Mr. Culberson. My life revolves around my wife and 
daughter. But just talk to us about the benefit of that----
    Major Chandler. Absolutely, Chairman.
    You know, it is tour normalization. And we have basically 
put a pause on that program.
    We do have about 3,700 command-sponsored families. So, we 
have got the infrastructure and the facilities to take care of 
them.
    But if we want to expand the program, there is going to be 
a tremendous investment.
    You know, part of the things that the chief and the 
secretary have talked about is this rotational force. And so, 
it may be better, sir, for us to actually rotate forces through 
there.
    Now, we have to think about this----
    Mr. Culberson. So, the Marines are thinking about doing it 
in Guam?
    Sergeant Major Chandler. Right.
    If you take that similar approach, you may have an 
equipment set that is left in Korea, in our case. And you 
rotate units through there as part of their Army force 
generation process.
    So, they go through a training--a reset period. They go 
through a training period. And their deployment may be to 
Korea.
    The challenge for most of the Army units in Korea is a 
readiness challenge, because right now, we are on an individual 
rotation basis.
    So, if you rotate soldiers in, you have 300 or 400 people 
that are rotating in there every single month from a tanker by 
background. That is a four-man crew. You have got to work 
really closely together and be able to use the weapon systems 
and the vehicle appropriately.
    If you have got 25 percent of that crew, one in four, 
changing, you know, every 3 months, you are never going to have 
as good a crew as if you had trained together, and then 
deployed for a period of time and then return.
    Mr. Culberson. That is true.
    Sergeant Major Chandler. So, we think the rotational model 
for the Army in Korea may be a way.
    Now obviously, there are some political considerations with 
the Korean government that have to be taken into account.
    But we think that this may be a way for us to make sure 
that we retain readiness for our Army and provide a better 
trained force on the Korean Peninsula in support of our 
national objective.
    Mr. Culberson. Because of the unique security challenges in 
Korea that you have got these lunatics north of the border that 
could launch at any moment, that you really need to----
    Sergeant Major Chandler. There are some----
    Mr. Culberson. [Off mike.].
    Sergeant Major Chandler [continuing]. Dangerous people 
there, sir.
    Mr. Culberson. Yes. You need your very best there ready to 
go at all times.
    Sergeant Major Chandler. So, there may be----
    Mr. Culberson. Are there concerns of our military members 
to have their families right there, I mean, just south of the 
border, within missile range of those nuts?
    Sergeant Major Chandler. If--it is a concern.
    CMSAF Roy. Sir, I served in a couple of capacities, a lot 
of capacities in the Pacific, two tours and on the Peninsula, a 
tour in Japan, and obviously at the United States Pacific 
Command. And I will tell you, yes, we would like to normalize 
Korea.
    But realization is as the budget comes towards us, I think 
the mention of rotational forces is probably the way that we 
need to go.
    Is it a concern to have family members over the border in 
Korea? I wouldn't say necessarily over the border, as much as 
maybe even Japan.
    Japan was more concerned about North Korea than sometimes 
South Korea was.
    Mr. Culberson. Interesting.
    Sergeant Roy. So, it is one that we don't think of it in 
those dynamics. But for us, the rotational forces works better 
for us.
    Mr. Culberson. Okay.
    Mr. Bishop.
    Mr. Bishop. Thank you very much.

                               CHILD CARE

    I want to go back to another issue which is child care 
which is an issue that I wanted to touch on also.
    Obviously, the military parents need to have reliable 
access to high quality early childhood care and early childhood 
education in order to minimize the worry about the disruption 
that is caused by frequent deployments, other duties, 
requirements.
    And of course, we have talked about it over the past 3 
years quite a bit.
    And last December, the National Association of Child Care 
Resource and Referral Agency announced the military child care 
liaison initiative, which is a 2-year pilot program with DOD to 
expand availability and the quality of affordable community-
based child care for military families.
    Could each of you, starting with the Army, talk about the 
programs available to service members where child care is 
needed?
    And Sergeant Major Chandler and Sergeant Major Barrett, 
many of the Soldiers and Marines who are severely injured in 
combat, sometimes can't return to duty right away.
    Are there programs available to these service members with 
regard to child care during their recuperation period?
    And of course, Sergeant Major Barrett, last year Sergeant 
Major Kent talked about the Marine Corps developing a child 
development program and a facility master plan.
    Could you talk to me about the status of the plan and 
whether or not the lower fiscal year 2013 budget will affect 
the implementation of that plan?
    And finally, Sergeant Major Chandler, what specifically 
with Fort Myer--we had an opportunity to spend some time at 
Fort Myer a couple of months ago. And in talking with some of 
the personnel there, they indicated that the child care 
facility that services Fort Myer has a waiting list of about 
300 plus.
    And that there is a tension there, because the children of 
service members who are assigned to the Pentagon get priority 
over the service members who are actually stationed at Fort 
Myer, and as a consequence of limited capacity, there is a 300-
child waiting list.
    So, do we need to try to address that overload by 
modification of facilities and making others available?
    And if you would, please tell us status of overall child 
care programs, and then, of course, we could focus on Fort Myer 
and Pentagon--Fort Myer Soldiers.

                               CHILD CARE

    Sergeant Major Chandler. Yes, Congressman.
    First of all, I will just go backwards.
    We have the child care facility at Fort Myer does in fact 
take care of the families at Fort Myer, but also at the 
Pentagon.
    Back in 2002, there was a decision made because of security 
reasons to close the child care facility that was on the 
Pentagon ground. There was an expansion of the Fort Myer child 
care facility to do that.
    Just as of last week, the current Fort Myer infant waiting 
list, and this includes 9 months for pregnancy, is 9 to 12 
months.
    So, if you have had a child the waiting list right now is 
one to 4 months.
    Pre-toddler and toddlers are 2 to 6 months, preschool is 2 
to 6 months, and kindergarten is just over a month.
    So, we have done better at that.
    What I think we need to do for the folks that are 
specifically at Fort Myer is to make sure they understand that 
that is not just for Fort Myer. But it is also for folks at the 
Pentagon.
    So, it is a Pentagon solution for family members.
    We have for our wounded warriors in the Army, provided a 
reduced cost for child care, for wounded warriors and their 
families. If you are in the lowest total family income 
category, category one, we provide a person the 20 percent off.
    So, let us say that you are at a higher income. You are a 
dual military person.
    You are automatically, as a wounded warrior, going to go to 
the lowest total family income category. And then we are going 
to provide you an additional 20 percent off if you are already 
in that category.
    If you have more than one child, we are going to give you 
an additional 15 percent off of your child care costs.
    And so, we think we have met the need for our wounded 
warriors and families.
    Across the Army, I think we are doing very well in child 
care and child development facilities. We are going to take a 
look at maybe deferring some new child care facilities because 
in the Army, the reduction of the Eighth Brigade combat teams, 
and then from there what is the impact on MILCON?
    You know, so we are going to defer some of those.
    If there is an obvious need right now that we know we need, 
we will do it. But if you are at a post camp or station that as 
time goes on we identify as one of the places that may lose one 
of those brigades, we are going to take a look at that MILCON 
project and others to see if we are still going to need that 
need.
    Mr. Bishop. But you have Fort Myer though--.
    Sergeant Major Chandler. But Fort Myer is what I was 
talking about earlier----
    Mr. Bishop. Yes----
    Major Chandler [continuing]. The wait time. We have done 
pretty well there, I think.
    And it is one of those things we can----
    Mr. Bishop [continuing]. 9 months?
    Sergeant Major Chandler. Nine to 12 months for an infant. 
But that includes pregnancy. So, it is actually 1 to 3 months 
if you have delivered your child.
    That is not a very long waiting list. And if it is an 
emergency, we can supplement a family member's cost for care 
outside of the child development center.
    But there are some private firms that we say meet the 
quality standards for a child development center. They are much 
more expensive----
    Mr. Bishop. Do you make provisions for that?
    Sergeant Major Chandler. Yes, sir, we do.
    Major Barrett. Thank you, sir.
    The Marine Corps does meet our child care demand through a 
multifaceted approach through the construction of facilities, 
child development centers.
    The subsidy program, specifically fee assistance to 
geographically dispersed Marines, something greater than 30 
miles from a facility. And we provide the monies to help 
augment that through a subsidy program.
    In regards to our wounded, yes, when a Marine is wounded, 
he is not going immediately back and we have the children and 
the families come and stay at a Fisher House or the Walter Reed 
Military Medical Center for any length of time, one of the very 
first things that is done is a needs assessment is done on that 
family to identify any needs that that spouse and those 
children may need.
    And through the recovery care coordinators, they will help 
facilitate any of those needs. And through the family support 
coordinators, they will work with the other care coordinators 
to ensure all those needs are met.

               CHILD DEVELOPMENT AND CHILD CARE PROGRAMS

    In reference to the master plan Sergeant Major Kent 
referred to last year, the Marine Corps did complete its child 
development program and facilities master plan, which reviewed 
the child care capabilities and costs across the entire Marine 
Corps.
    And to answer the question, as far as the fiscal year 2013 
budget, sir, I will need to get back with you just exactly how 
the fiscal year 2013 budget will affect our child development 
program.
    [The information follows:]

    Child care services remain a high priority in the Marine Corps. The 
Marine Corps has completed its Child Development Program and Facility 
Master Plan, which reviewed child care capabilities and costs across 
the Marine Corps. This plan facilitated efforts to build multi-capable 
and adaptable services, reexamined structure, and ensured that we are 
delivering child care in an efficient manner.
    The Master Plan confirmed that we are on the right path in child 
care facility growth. In Fiscal Year 2011, we provided 15,927 child 
care spaces, which reflected an 18 percent increase in capacity from 
Fiscal Year 2010. The Marine Corps opened five new child development 
centers in Fiscal Year 2011 and plans to open five more in Fiscal Year 
2012. We will continue to standardize our processes in Fiscal Year 2012 
and will work to enhance child care for Marines and families serving on 
independent duty or at locations that are isolated from military bases 
and stations.
    The proposed Fiscal Year 2013 budget will not impact these plans.

    Master Chief West. Yes, sir, from a Navy's perspective, 
this year we are meeting our OSD goal for potential need for 
our child care services.
    Last year, we opened up 7,000 new spaces for our folks. And 
by doing and using a mix from our CDCs, our child development 
centers, and our youth programs, we have taken our waiting list 
from about 8 months down to 3, sir, which is a really 
manageable from our perspective.
    I think no matter what you do with child care, there will 
be always a continual need to stay focused on it, keep it on 
our radar, and make sure that we are doing everything we can.
    But at this point, I am very happy with the child care that 
our military members receive.
    From a perspective of our wounded warriors, there is a hand 
out there. We use a mix of services. We not only utilize the 
Wounded Warrior Program with our Marine Corps brothers and 
sisters, but we also utilize the Navy Marine Corps Relief 
Society.
    They provide some respite care along with our Navy Safe 
Harbor.
    So, I think we are moving in the all the right directions. 
And we made a lot of headway this past year with this program.

                         FAMILY AND CHILD CARE

    CMSAF Roy. I would just like to add just a couple of things 
unique to the Air Force.
    We have taken on this idea of a family child care where it 
is not so much the brick and mortar child care center that you 
have. But also you have families that are looking for work as 
well.
    And we have certified them to be able to watch children as 
well. That has worked tremendously for us.
    To the point that we are able to get to some of our unique 
missions of missile--say for instance, missile maintenance of 
sort, we are out on a missile silo for 2 days. Somehow you have 
got to have that overlap of childcare.
    It is not just the eight to four, eight to five kind of 
job. So, we have been able to utilize it through that.
    Also, through the National Association of Child Care 
Resource and Referral Agency, we have a contract with them to 
help with some of the other uniqueness of the Air Force.
    Certainly with the Guard and Reserve have helped with that, 
but also our missions that we have out at Creech Air Force Base 
and other locations.
    As the MCPON mentioned, one area of focus for us is that 
with the exceptional family member, and the respite care. We 
have put an awful lot of attention to the respite care for 
those families.
    Wounded Warrior, I would say, I have--Des is here with me 
today. Des is a proud parent of a 2-month-old baby boy, by the 
name of Cameron.
    And Cameron will receive that care certainly with the help 
of the regional care coordinator that Des and Lisa have been 
working----
    Mr. Bishop. Thank you, sir. I appreciate that very much.
    Mr. Culberson. Thank you, Mr. Bishop.
    Let me just--there are a couple of other areas very 
quickly. In particular dealing with barracks and dormitories, I 
wanted to ask you all about the unaccompanied housing as well 
as housing for accompanied soldiers in each one of your 
services.
    If you could talk to us about the plans that your 
department has to improve the--any plan or program you have got 
that you have asked the Congress about that you have already 
got underway to improve the quality of your barracks or 
dormitories.
    And when do you expect them to be completed?
    And what, in your opinion, do you have adequate facilities 
for accompanied soldiers?

      ELIMINATING INADEQUATE DORMITORIES AND HOUSING PRIVATIZATION

    CMSAF Roy. Dormitories--let me take the dormitories first.
    We currently have 9,800 inadequate dormitory rooms. We are 
attacking that by obviously the construction pieces.
    One of the areas that we have been doing at basic training 
is making living facilities also a training facility as well. 
We also have taken a deliberate pause on some of our military 
construction for a reason.
    We have got to see where the forces are going to be in the 
future. We certainly wouldn't want to build a brand new 
facility and not have a use for it.
    So, we have taken a deliberate pause this year to kind of 
rethink where the forces are going to be. And then we will 
resume with military construction.
    As far as the housing is concerned, we have had much 
success through our privatized housing contractors. We have 
four more groups at many bases, that still need to be competed 
yet.
    Of the four, three of them are well on their way. The 
Continental Group is lagging, but we have some headway on that 
one as well.

                     BARRACKS AND HOUSING PROGRAMS

    Master Chief West. Sir, for family housing, I will tell you 
in my 32 years, I have never seen it better through PPV or 
public-private venture. I think we have done a lot of good 
things in that perspective for our military members.
    Mr. Culberson. Spectacular in San Diego, what the Navy's 
done with that public----
    Master Chief West. It is actually incredible. And that is 
family housing I was speaking to.
    Now, if you talk barracks, the CNO has committed this year 
to improving the overall quality of all of our bachelor 
housing. And we are submitting, you know, the funds to that, to 
bring it back up to where we need it to be.
    Mr. Culberson [continuing]. San Diego was for single----
    Master Chief West. Yes, sir.
    Mr. Culberson [continuing]. I don't think that is a 
paradise.
    Master Chief West. I will get to that one.
    Mr. Culberson. Single adult.
    Master Chief West. We actually have PPV barracks where our 
single Sailors live. And that is absolutely incredible.
    Through your support, PPV, Homeport Hampton Roads, in 
Norfolk and out in San Diego, I forget the--Pacific Beacon is 
the name of that. It is absolutely phenomenal.
    And we are actually studying now to see whether we can 
expand that in certain areas.
    Mr. Culberson. I hope you can. That is great----
    Master Chief West. I hope so too. It is----
    Mr. Culberson. All of you ought to look at it----

                     MILITARY HOUSING AND BILLETING

    Master Chief West. We have gone a long way.
    The thing with that, with our barracks too, we are on track 
also. We still have about 5,000 of our sailors that live on 
board ships.
    We call that Homeport Ashore and bringing those folks on. 
And we are on track to meet that goal by 2016.
    So, I think we are doing what we need to do to get it right 
and making it better every day.
    But, sir, thank you for your comments on PPV San Diego. You 
are right. Just doesn't get any better than that.
    Mr. Culberson. Yes, it is an amazing operation.
    And private sector is happy or the tenants are happy?
    Master Chief West. I think everybody is--I am happy even 
when I walk through it, sir.
    Sergeant Major Barrett. I will echo the Navy, sir, our 
housing is magnificent. Our BEQs from 2006 to 2011 we got very 
aggressive on throwing up brand new bachelor enlisted quarters, 
stayed in a great many of them as I travel around.
    That is where I actually spend my nights. I will knock on a 
young Marine's door and say, hey, you have got an extra rack? 
And that is where I spend the night.
    Mr. Culberson. He had enough room for you.
    Sergeant Major Barrett. Sir, I have room for you as well, 
sir.
    Mr. Culberson. I need to try it sometime, I really do. I 
think it would be terrific.
    If you are going to put me through my paces at boot camp--
--
    Sergeant Major Barrett. We absolutely are, sir.
    Mr. Culberson [continuing]. Kill me.
    Sergeant Major Barrett. We are getting ready--we are going 
to throw up four more BEQs this year alone. Our BEQs are 
adequate.
    As a matter of fact, right now we account for 90 percent of 
all bed spaces for our single Marines. And as we start to draw 
down, we will be closer to housing our single Marines much 
greater than 90 percent, shy of 100 percent obviously for bed 
spaces.
    And so doing with the new BEQs and again, the generosity of 
the Congress for providing all those amazing resources, the 
scarce resources in terms of dollars, you have given us such 
great places to live.
    And we saw a fiscal efficiency in our own way in the Marine 
Corps when we stopped Marines from applying to go and live out 
on town on--for bachelor allowance for housing own right.
    We stopped doing that in June, the 29th or July 29th. And 
since we have done that, we have had a considerable fiscal 
savings.
    As a matter of fact, the Marines that previously lived out 
in town, Basic Allowance Housing own right, on their own, they 
have moved back into the barracks.
    We did not order them back into the barracks. They came 
back in because of just how nice the new BEQs are.
    So, there are fiscal savings in them coming from out in 
town, living back in the barracks.
    So in essence, when you built us our new barracks, you also 
saved us money.
    Mr. Culberson. So, the Marine Corps is on track with BEQs. 
We fully funded every one of you I believe last session. And 
you are on track with the BEQs.
    Sergeant Major Barrett. We are, sir.
    Mr. Culberson. On track with your family housing.
    Sergeant Major Barrett. We are, sir.
    Mr. Culberson. Okay, very good, sir.
    Sergeant Major.

                                BARRACKS

    Sergeant Major Chandler. Sir, we are on track too.
    We are going to take a tactful pause however in many of our 
barracks programs, specifically training barracks and in 
unaccompanied personnel housing, until we sort out the draw 
down.
    It is going to have an impact. We just don't want to spend 
money where we don't need to.
    I am sure we will have those answers here in the near term 
future.
    Accompanied personnel housing, family housing, we are 
complete with our privatization program. Many of the partners 
are beyond their initial development plans.
    So in other words, they have taken over the properties, 
revitalized or built new properties, and are now moving into 
the sustainment of those properties.
    Tremendous impact on soldiers and families, obviously, you 
want every kid that is in the service to have the best possible 
place you can give them.
    We have made a tremendous amount of work in our sustainment 
and restoration and modernization to upgrade the things we 
currently have besides just building new.
    And I think that the position we have taken now is we need 
to take a pause. Let us make sure we know where we are going to 
have our troops and the facilities associated with them. And if 
it doesn't make sense to build something new, because we are 
not going to have the population, let us apply that someplace 
else with the help of Congress.
    I think that is where we are, sir.
    Mr. Culberson. Thank you.
    Navy and Air Force on track with both the barracks, dorms, 
family housing----
    Roy. We are. When we say privatized dormitories, a little 
bit different than housing, great success with the Navy and 
what they have done with that.
    Just one caution with that is that if you privatize all 
your dormitories that means that you don't necessarily have to 
tell an Airman, in my case, that they have to live in that 
dormitory.
    We consider that continuing the blue--our Airmen. We lock 
them into the dormitory per se, not literally, but per se. And 
that is where we continue with the development of our Airmen, 
so, just a word of caution.
    Mr. Culberson. Mr. Bishop.
    CMSAF Roy. One more--go ahead, sir----
    Master Chief West. No, sir----
    CMSAF Roy. Master Chief----
    Master West. I am just gearing up, posturing. [Laughter.]
    Mr. Culberson. The Navy is always ready.
    One other question about TRICARE in the fiscal year 2013 
budget that the president submitted, he has proposed new 
enrollment fees for TRICARE, higher deductibles for TRICARE, 
standard and extra new enrollment fees, if you are 65 years or 
older, increases.
    He proposes also increasing pharmacy co-pay.
    How will those proposed increases be received if--again, it 
is a proposal. But if the president succeeded in each one of 
those, how would those increases be received by the men and 
women under your command?

                                TRICARE

    Sergeant Major Chandler. Chairman, many of those proposals 
will affect our retiree population.
    I am going to be a retiree here in the not too distant 
future.
    Mr. Culberson. This got your attention.
    Sergeant Major Chandler. Absolutely. As a matter of fact, 
we were all part of the Department of Defense, and we were 
actually brought in on this. And I am very grateful for the 
Secretary of Defense and the chairman to include the senior 
enlisted advisors in this.
    But we understand this. You know, at the end of the day, 
these costs are escalating.
    We have not really raised the rates very much over the past 
several years. And I think that we all understand that there is 
going to be increased responsibility here, and there is going 
to be an increased cost associated with that provided the 
Congress chooses to enact the budget.
    Mr. Culberson. But these are just proposals?
    Sergeant Major Chandler. Yes.
    The idea that the co-pay for pharmacies though, you know, 
it is really to drive people and change behavior.
    If you want to get way from going to, for instance, 
Walgreens to get your prescription, well what we want you to do 
is either use the military treatment facility or use mail 
order, which does have a much greater reduced cost.
    And so if we can gain those efficiencies by changing some 
behavior, because those rates are actually lower than the 
traditional pharmacy outposts, we think that is a good thing.
    Mr. Culberson. Have you all heard any feedback yet from--
probably not--may not even be aware of it. But how do you think 
most of the men and women of your command would respond to 
higher enrollment fees, higher deductibles, and increased co-
pay for pharmaceuticals?
    Sergeant Major Barrett. That is--well, if you were living 
aboard an installation, you are on active duty. So, it is not 
going to affect you that----
    And I go right back to what Sergeant Major of the Army is 
saying, it is going to affect those VSOs, those veteran service 
organizations. They are going to be the very first ones that 
are going to come after you when this starts happening----
    Mr. Culberson [continuing]. Proposing----

                        PROPOSED TRICARE CHANGES

    Sergeant Major Barrett. Yes, sir. Yes, sir, threw that out 
there for that effect.
    But there is a breaking point associated with this. You 
talk about slow growth for retirees pay. You start talking 
about increased costs for co-pay. For pharmacy, you start 
talking about raising standard and prime.
    And now, let us start messing with the commissary too.
    There is a breaking point in there somewhere. And then we 
start breaking faith with those who have served prior.
    Mr. Culberson. That is a key part of this, Master Chief, is 
the when you all signed on, the government, the United States 
of America made a promise to you and a contract.
    You might want to stick with whatever the deal was you 
entered into.
    Master Chief West. Yes, sir. And I think that is exactly 
what my two counterparts on my left said.
    But I also think, as we all do, and Sergeant Major pointed 
out earlier, there is efficiencies to be looked at, I think, 
everywhere we look. And we need to capitalize on those where we 
can.
    I think you would say all of this stuff about the budget, 
none of us really want to do it. But it is something we have to 
do to sustain the forces and really, our military, our 
government throughout in the long term.
    Mr. Culberson. Sure. And we are all keenly aware of it. We 
have got immense budget problems.
    But----
    Master Chief West. You bet.
    Mr. Culberson. For everyone who is in the military active 
duty, the government did make a promise to you and a contract.
    And would you agree that is a key part of this, is that for 
those of you who have already signed up, seems like we ought to 
honor that deal.
    If you are going to change anything, maybe for new folks 
that are joining, just so they understand at the time they sign 
up and shake hands, here is the new deal.
    CMSAF Roy. Once again, the proposal is not breaking faith. 
There is nowhere in that contract does it read what our TRICARE 
prime will be, what our TRICARE standard will be. It says it 
will be provided basically.
    And we have got to understand, since 1992, 1993, that 
TRICARE rate has not increased at all. If you compare that to 
the civilian sector which all of us have family members in the 
civilian sector, and we understand how much those----
    Mr. Culberson. Sure----
    CMSAF Roy [continuing]. Are and----
    But a lot of it is how you present it as well.
    As we have all mentioned, the VSOs--we have got to be able 
to address this with VSOs, because obviously for somebody that 
would come out of the wall, if you will, the black and say, I 
don't understand this. We have got to be able to explain it to 
them. And it is part of the explanation piece.
    We absolutely have to be clearer.
    Mr. Culberson. Sure.
    As a general rule then, you don't think the men and women 
under your command would necessarily object to any of these 
changes?
    CMSAF Roy. Again, that----
    Mr. Culberson. You all are being very----
    CMSAF Roy. The statements were made though for the bulk of 
us. We all live in an installation----
    Mr. Culberson. Yes----
    CMSAF Roy [continuing]. Or close to an installation. It is 
not going to be a huge factor.
    Certainly when we look at our Guard and Reserve, certainly 
some of them may increase rates may be because they are not 
around an installation like that.
    But I think overall, I think these are very--I hate to tone 
them down but they are slight increases.
    Yes, and it is one that we have got to accept.
    Master Chief West. No one likes change, sir.

                                TRICARE

    Sergeant Major Chandler. From those that are on active 
duty, I hear very little if anything about this. From our 
retirees it has been an issue from time-to-time when we have 
met with them. I am sure that everyone else has heard the same 
thing.
    I am not sure, you know, when it comes time for me to 
retire, I am going to have to make a personal choice on whether 
I want to stay with TRICARE or if I want to seek other health 
care insurance.
    And I think that is part of the equation.
    Mr. Culberson. Sure.
    Sergeant Major Chandler. People gravitate towards TRICARE 
because it is a outstanding benefit. And I think that if the 
costs do go up, it may cause people to reconsider other 
options.
    I don't think there is anything wrong with that.
    Mr. Culberson. They did--the president did exempt TRICARE 
from Obama Care.
    Obama Care was such a great deal. The nation wanted to be 
sure to exempt TRICARE.
    Never mind.
    I did note the DVD apparently did light people up a lot 
more though. When, you know, when the DVD was published and 
that went viral on compensation retirement, that lit people up.
    This one is not really----
    Okay.

                         SYNTHETIC DRUGS--SPICE

    I want to make sure is--and we will have other questions 
for the record, I know perhaps Mr. Bishop shares this with me.
    Just want to make sure what have we--anything else we have 
not asked you about here for the record? I mean on the record.
    We will submit other things in writing for you, other 
questions, to follow-up.
    What do--if you could, sir, if each one of you tell us 
anything we have not touched on that you would like Mr. Bishop 
and I and our colleagues to be sure we are paying attention to 
that we perhaps have not yet touched on?
    Master Chief West. Sir, if I may. I have been doing this 
for 4 years along with some of the other folks here. But this 
is probably the best session I have seen, honestly.
    So, for your leadership, thank you very much.
    Mr. Culberson. You are very kind, thank you----
    Master Chief West. Seats were----
    Mr. Culberson [continuing]. Rookie at this. So, I----
    Master Chief West. Well, seats were full. And, you know, 
there is a lot of questions today. So, that is a good thing.
    I guess this is more of a comment. We need your help on a 
few things, really one.
    The synthetic compounds are something that is called Spice. 
They are coming across.
    Now, I know probably not the venue to do it. But it does 
affect a lot of the quality of life that we have. And it has 
touched all of our services that we have today.
    As of 21--or December of this last year, 40 of the states 
is actually controlling some of the chemicals associated with 
Spice. I would ask that if you would, just take a look at that.
    This is something we have to push across, I think, all 50 
states. And we have to make sure we have a handle on it. And 
ban those substances where we can.
    Because it is going after not only our military, but it is 
going after our nation's youth. And it is similar to what you 
would say is marijuana. It is a controlled substance.
    But there is still--you can get it over the Internet. And 
you can get it across many of the states' counters as well. 
That is just something, please takes----
    Mr. Bishop. Something that they smoke?
    Master Chief West. Yes, sir. You can smoke it. There are 
other things like bath salts that, believe it or not, they are 
snorting using those.
    They are finding ways. But the Spice piece, I think almost 
all of us in here have had personnel hospitalized for that 
substance.
    And it is growing. We don't get our arms around it more so 
sooner than later, then it is going to be even a bigger 
problem.
    CMSAF Roy. I don't have anything more to add. Just again, 
like the MCPON said, I mean, this is my 3rd year at this as 
well, and this is by far the most inquisitive panel that there 
has been. And are really appreciate your continued support.
    The items that you hit on, and talked about, are things 
that we are focused on and should be focused on. And we 
appreciate your attention to them as well.
    Mr. Culberson [continuing]. You can detect every one of us 
care deeply about----
    Sergeant Major Barrett. Well, this was my first one. So, 
you have set the bar. So I expect it to be this way every year 
now. [Laughter.]
    And I do have one final thing I would love to enter. You 
know, Navy medicine has substantially increased the number of 
mental health professionals in the past 2 years to care for 
just what we have been going through for the last 10.
    Now, they have an aggressive plan to further expand their 
training pipeline even more. However, I have been briefed that 
the national pool of mental health professionals is limited and 
under stress from the increasing need.
    I appreciate Congress' energy and commitment of resources 
in this area of psychological health, professional recruitment, 
especially in this time of economic stress.

                   OTHER AREAS OF IMPORTANCE TO ARMY

    Sergeant Major Chandler. Sir, as the largest service, I 
have got two things, not one.
    First one is I was asked by Congressman Bishop about the 
issue with women in combat, and specifically for the Army women 
in the Army.
    This is really about talent management for us and finding 
the best athlete, the best qualified person to do the job.
    And we have embarked on a program and--to look at the role 
of--and where women are.
    I believe wholeheartedly that this is a good thing and the 
right thing for our Army to do. And we will look to see what 
the results are.
    What I would ask for everyone is patience. We put a lot of 
hard work into the repeal of don't ask, don't tell. And I would 
like us to have the same consideration at least from the Army 
perspective, of how we broaden the opportunities for women in 
the Army.
    And let us work through this as an Army as we move forward.
    The other one is that for us not to forget that we are 
still in war. We are still in combat.
    And there may be a rush to make additional cuts because we 
need money. But it is going to take us at least through 2014 
for the Army to start to transition completely out of 
Afghanistan.
    And we will need a period of time after that to reset the 
Army in personnel and equipment and training. We are going to 
need to sustain that so that we can continue to have the Army 
that you have today.
    And I would ask for your support in that.
    That is all, sir.
    Mr. Culberson. Well, I know you will certainly have it.
    From my personal perspective, as a Texan, I know certainly 
my friends in Georgia probably feel the same way. We, all of 
us, are proud to support you and to help you in any way that we 
can.
    But when it comes to women in combat or don't ask, don't 
tell, frankly women in submarines, which I still don't 
understand that. It just doesn't make any sense.
    Master Chief West. Successful.
    Mr. Culberson. I hope so.
    That ought to be up to you all. I mean, that sort of thing 
truly ought to--without being any political pressure--it ought 
to be based on your own good judgment and what is best for the 
services and the type of mission that you are on.
    And I just wish we would get the--I wish politicians would 
just get the heck out of it and leave you all alone.
    Sergeant Major Chandler. Chairman, I am not going to speak 
for any of the services, because we each have our own culture 
when it comes to how we do business.
    Just for us, it is about talent management, and really 
finding the best athlete.
    Mr. Culberson. Without political pressure though. I would 
just love us to get out of it.
    Sergeant Major Chandler. Well, we appreciate the oversight.
    Mr. Culberson. Yes.
    Sergeant Major Chandler. We do.
    Mr. Culberson. Yes, but when it comes to things like that 
abut how do you sharpen the tip of that spear the best, and who 
needs to be right there at the tip of the spear, that ought to 
be entirely up to you without any interference from any 
politician, anybody anywhere, any time.
    And we are immensely proud of you. We trust your good 
judgment. And it is a privilege for us to serve on this 
subcommittee to help make sure that men and women under your 
command have everything that they need for themselves and their 
families, so they never have to worry one nanosecond about the 
quality of their life.
    And it is a privilege to be here with you today, sir. And 
we thank you for our service.
    And congratulations on your retirement, Master Chief, and 
we are immensely proud of you, your wife, the sacrifice that 
your family has made.
    You, Des, thank you, God bless you and your family.
    We wish all of you the very best. We will do all we can to 
help you.
    Master Chief West. Sir, you never know. We might see each 
other--I am actually looking at Georgia or Texas to retire in.
    Mr. Culberson. We would love to have you.

    [GRAPHIC] [TIFF OMITTED] T6023A.081
    
    [GRAPHIC] [TIFF OMITTED] T6023A.082
    
    [GRAPHIC] [TIFF OMITTED] T6023A.083
    
    [GRAPHIC] [TIFF OMITTED] T6023A.084
    
    [GRAPHIC] [TIFF OMITTED] T6023A.085
    
    [GRAPHIC] [TIFF OMITTED] T6023A.086
    
    [GRAPHIC] [TIFF OMITTED] T6023A.087
    
    [GRAPHIC] [TIFF OMITTED] T6023A.088
    
    [GRAPHIC] [TIFF OMITTED] T6023A.089
    
    [GRAPHIC] [TIFF OMITTED] T6023A.090
    
    [GRAPHIC] [TIFF OMITTED] T6023A.091
    
    [GRAPHIC] [TIFF OMITTED] T6023A.092
    
    [GRAPHIC] [TIFF OMITTED] T6023A.093
    
    [GRAPHIC] [TIFF OMITTED] T6023A.094
    
    [GRAPHIC] [TIFF OMITTED] T6023A.095
    
    [GRAPHIC] [TIFF OMITTED] T6023A.096
    
    [GRAPHIC] [TIFF OMITTED] T6023A.097
    
    [GRAPHIC] [TIFF OMITTED] T6023A.098
    
    [GRAPHIC] [TIFF OMITTED] T6023A.099
    
    [GRAPHIC] [TIFF OMITTED] T6023A.100
    
    [GRAPHIC] [TIFF OMITTED] T6023A.101
    
    [GRAPHIC] [TIFF OMITTED] T6023A.102
    
    [GRAPHIC] [TIFF OMITTED] T6023A.103
    
    [GRAPHIC] [TIFF OMITTED] T6023A.104
    
    [GRAPHIC] [TIFF OMITTED] T6023A.105
    
    [GRAPHIC] [TIFF OMITTED] T6023A.106
    
    [GRAPHIC] [TIFF OMITTED] T6023A.107
    
    [GRAPHIC] [TIFF OMITTED] T6023A.108
    
    [GRAPHIC] [TIFF OMITTED] T6023A.109
    
    [GRAPHIC] [TIFF OMITTED] T6023A.110
    
    [GRAPHIC] [TIFF OMITTED] T6023A.111
    
    [GRAPHIC] [TIFF OMITTED] T6023A.112
    
    [GRAPHIC] [TIFF OMITTED] T6023A.113
    
    [GRAPHIC] [TIFF OMITTED] T6023A.114
    
    [GRAPHIC] [TIFF OMITTED] T6023A.115
    
    [GRAPHIC] [TIFF OMITTED] T6023A.116
    
    [GRAPHIC] [TIFF OMITTED] T6023A.117
    
    [GRAPHIC] [TIFF OMITTED] T6023A.118
    
    [GRAPHIC] [TIFF OMITTED] T6023A.119
    
    [GRAPHIC] [TIFF OMITTED] T6023A.120
    
    [GRAPHIC] [TIFF OMITTED] T6023A.121
    
    [GRAPHIC] [TIFF OMITTED] T6023A.122
    
    [GRAPHIC] [TIFF OMITTED] T6023A.123
    
    [GRAPHIC] [TIFF OMITTED] T6023A.124
    
    [GRAPHIC] [TIFF OMITTED] T6023A.125
    
    [GRAPHIC] [TIFF OMITTED] T6023A.126
    
    [GRAPHIC] [TIFF OMITTED] T6023A.127
    
    [GRAPHIC] [TIFF OMITTED] T6023A.128
    
    [GRAPHIC] [TIFF OMITTED] T6023A.129
    
    [GRAPHIC] [TIFF OMITTED] T6023A.130
    
    [GRAPHIC] [TIFF OMITTED] T6023A.131
    
    [GRAPHIC] [TIFF OMITTED] T6023A.132
    
    [GRAPHIC] [TIFF OMITTED] T6023A.133
    
    [GRAPHIC] [TIFF OMITTED] T6023A.134
    
    [GRAPHIC] [TIFF OMITTED] T6023A.135
    
    [GRAPHIC] [TIFF OMITTED] T6023A.136
    
    [GRAPHIC] [TIFF OMITTED] T6023A.137
    
    [GRAPHIC] [TIFF OMITTED] T6023A.138
    
    [GRAPHIC] [TIFF OMITTED] T6023A.139
    
    [GRAPHIC] [TIFF OMITTED] T6023A.140
    
    [GRAPHIC] [TIFF OMITTED] T6023A.141
    
    [GRAPHIC] [TIFF OMITTED] T6023A.142
    
    [GRAPHIC] [TIFF OMITTED] T6023A.143
    
    [GRAPHIC] [TIFF OMITTED] T6023A.144
    
    [GRAPHIC] [TIFF OMITTED] T6023A.145
    
    [GRAPHIC] [TIFF OMITTED] T6023A.146
    
    [GRAPHIC] [TIFF OMITTED] T6023A.147
    
    [GRAPHIC] [TIFF OMITTED] T6023A.148
    
    [GRAPHIC] [TIFF OMITTED] T6023A.149
    
    [GRAPHIC] [TIFF OMITTED] T6023A.150
    
    [GRAPHIC] [TIFF OMITTED] T6023A.151
    
    [GRAPHIC] [TIFF OMITTED] T6023A.152
    
    [GRAPHIC] [TIFF OMITTED] T6023A.153
    
    [GRAPHIC] [TIFF OMITTED] T6023A.154
    
    [GRAPHIC] [TIFF OMITTED] T6023A.155
    
    [GRAPHIC] [TIFF OMITTED] T6023A.156
    
    [GRAPHIC] [TIFF OMITTED] T6023A.157
    
    [GRAPHIC] [TIFF OMITTED] T6023A.158
    
    [GRAPHIC] [TIFF OMITTED] T6023A.159
    
    [GRAPHIC] [TIFF OMITTED] T6023A.160
    
    [GRAPHIC] [TIFF OMITTED] T6023A.161
    
    [GRAPHIC] [TIFF OMITTED] T6023A.162
    
    [GRAPHIC] [TIFF OMITTED] T6023A.163
    
    [GRAPHIC] [TIFF OMITTED] T6023A.164
    
    [GRAPHIC] [TIFF OMITTED] T6023A.165
    
    [GRAPHIC] [TIFF OMITTED] T6023A.166
    
    [GRAPHIC] [TIFF OMITTED] T6023A.167
    
    [GRAPHIC] [TIFF OMITTED] T6023A.168
    
    [GRAPHIC] [TIFF OMITTED] T6023A.169
    
    [GRAPHIC] [TIFF OMITTED] T6023A.170
    
    [GRAPHIC] [TIFF OMITTED] T6023A.171
    
    [GRAPHIC] [TIFF OMITTED] T6023A.172
    
    [GRAPHIC] [TIFF OMITTED] T6023A.173
    
                                          Thursday, March 29, 2012.

      PACIFIC COMMAND/KOREA--PACOM COMMANDER AND U.S. FORCES KOREA

                               WITNESSES

ADMIRAL SAMUEL J. LOCKLEAR, III, U.S. NAVY, COMMANDER, U.S. PACIFIC 
    COMMAND
GENERAL JAMES D. THURMAN, COMMANDER, UNITED NATIONS COMMAND, COMMANDER, 
    UNITED STATES-REPUBLIC OF KOREA COMBINED FORCES COMMAND, AND 
    COMMANDER, UNITED STATES FORCES KOREA

                       Chairman Opening Statement

    Mr. Culberson. Good morning, ladies and gentlemen. The 
Appropriations Subcommittee on Military Construction and 
Veterans Affairs will come to order.
    It is a privilege to welcome you all here today to our 
fiscal year 2013 force posture and military construction 
request for the U.S. Pacific Command and the U.S. Forces Korea. 
Our Nation has an increasing interest in the Pacific region. It 
has always been vitally important to United States interests 
and those of our allies, especially important now in light of 
the increasing aggressiveness of the Chinese towards our 
friends in the Pacific, our long-time allies in Korea and Japan 
to whom we are so devoted and so grateful for the friendship of 
the Japanese people and the Korean people, of our allies and 
friends in the Philippines and throughout the Pacific region, 
and the importance of keeping those sea lanes of commerce open 
for our allies, for world commerce.
    It is especially important today that we are here today to 
talk about the Asia Pacific region. The President has 
recognized the growing importance of the Pacific to the United 
States and to our allies by recommending that we, as a Nation, 
pivot our forces to focus more on the Pacific. And maintaining 
our friendship, our partnerships with Korea and Japan and all 
of our allies is especially crucial to maintaining the regional 
security in the Pacific.
    We are also, as a Nation, deeply grateful to the Japanese 
and Korean people for their investment that they and their 
taxpayers have made with their dollars, with their hearts and 
their support and friendship for our troops. It is really 
important, and we recognize it with immense gratitude.
    We have with us here today, as more members come in, we 
will be recognizing them, but I want to be sure to recognize 
our ranking member, Mr. Bishop, for any remarks he would like 
to make.

                    Ranking Member Opening Statement

    Mr. Bishop. Thank you very much for yielding, Mr. Chairman.
    Admiral, let me first say congratulations on becoming PACOM 
commander, and I wish you nothing but good luck on this tour.
    General Thurman, I am glad to have you here as well this 
morning and want to thank you for hosting our subcommittee 
staff a few weeks ago in Korea. I know your time is valuable, 
so I just want to say thank you for your kind hospitality to 
them.
    Mr. Chairman, as you know, Admiral Locklear's plate is 
pretty full. For example, the relocation of the Marines has hit 
some roadblocks in being renegotiated. In addition, we are in 
the process of repositioning our forces, General Thurman, in 
Korea.
    Probably the biggest item on your plate is rebalancing 
forces towards the Asia-Pacific region. I believe that this is 
the right move by the administration and the Department of 
Defense because roughly, $5.2 trillion in commerce flows 
through the South China Sea, and much of it belongs to the 
United States. I think that the United States must maintain its 
ability to project power in areas which our access and freedom 
to operate are challenged by potential adversaries.
    Further, I also believe that rebalancing our forces to the 
Asia-Pacific region will deter those potential adversaries and 
prevent them from achieving their objectives and probably, most 
importantly, will keep us from going to another war.
    Admiral and General, as you can see, we have some pretty 
important issues to cover. I want to thank you both for being 
here today and I look forward to your testimony.
    Mr. Culberson. Thank you very much, Mr. Bishop.
    It is a privilege to welcome you both here today, Admiral 
Locklear, making your first appearance before the subcommittee. 
We are very, very grateful to you for your 35 years of service, 
graduating from the Naval Academy in 1977 and for your work as 
the Commander of the Third Fleet and U.S. Naval Forces in 
Europe, executive assistant to the Vice Chief of Naval 
Operations, and congratulations as well for your appointment as 
Commander of Pacific Forces in March of 2012.
    I also am very grateful to you, General Thurman, for your 
service to the Nation. I am delighted to have you here today, 
sir, as the Commander of the U.S. Forces Korea, the Combined 
Forces Command there for the United Nations as well, of course, 
and also making your a first appearance before our subcommittee 
as Commander of U.S. Forces Korea and those of the United 
Nations.
    You also have had significant Army and Joint Staff 
experience, including Assistant to the Chief of Staff for Plans 
and Policy and Allied Forces for Southern Europe's Regional 
Command South in Italy. I see that you earned your commission 
through ROTC at East Central Oklahoma University and are a 
native of Marietta.
    We are deeply grateful to you both for your service. Thank 
you for being here. Of course, your written statements will be 
entered into the record and we would welcome your summarization 
of your remarks.
    We would be glad to begin with Admiral Locklear. Thank you, 
sir.

                   Statement of Admiral Locklear, III

    Admiral Locklear. Well, thank you, Mr. Chairman, 
Congressman Bishop and members of the committee. I really 
appreciate the opportunity to appear before you today to 
discuss the military construction needs and initiatives in the 
United States Pacific Command.
    I would first like to thank Congress for funding the 
military construction accounts in the past, which have improved 
U.S. Pacific Command's readiness and our quality of life for 
our service members who are deployed. I would also like to 
thank the committee for your interest in the Asia Pacific 
region. I recommend that members of this committee continue to 
visit Pacific Command (PACOM) and to meet with its leadership. 
This sends a very powerful message and it demonstrates to all 
of those around the U.S. commitment to the Asia-Pacific. I also 
hope that you include time in your schedules to visit our 
headquarters in Hawaii so that I can brief you on the region's 
security issues. You are always welcome in Hawaii and we 
appreciate you coming.
    PACOM's area of responsibility covers half the planet. The 
size of this mission area requires a strategy of forward 
deployed forces and enhanced rotational presence that are 
essential to security and deterrence throughout the region. And 
MILCON is the key to this forward presence.
    Natural disasters likes floods and tsunamis are regular 
occurrences. Forward presence allows our forces to rapidly 
provide much needed humanitarian aid and assistance throughout 
the region. Military construction also facilitates the 
strategic flexibility, our crisis response capability and 
deterrence required to fulfill commitments to our very 
important regional allies as well to underwrite the security 
for the entire Asia Pacific region.
    Specifically, MILCON provides necessary facilities for new 
weapons systems, it supports increases in force efficiency and 
effectiveness, it offers warfighters and their families quality 
of life improvements, and it renovates facilities that, 
unfortunately, get beyond their useful lives.
    Now, the growing significance of the Asia Pacific 
highlights the importance of MILCON funding and supporting 
forward presence. That presence is currently concentrated in 
Northeast Asia due to the extensive U.S. basing facilities and 
access agreements that exist in Japan and South Korea. Thus, 
the focus of our current MILCON requirements remains in this 
sub-region.
    With MILCON funds, our intent is to enhance our capacity to 
support our allies and our partners, to maintain a ready force 
that meets our Nation's commitment to the region, and also as a 
deterrent to those who would challenge our freedom of action or 
coerce our allies and partners.
    In closing, I would like to again thank the committee for 
the strong support you provide to the men and women of the 
United States military. With your advocacy, this all-volunteer 
force remains extremely well-trained, well-equipped and one of 
the most impressive forces I have seen in my 40 years in the 
military. Our retention and recruiting rates continue to be 
high, which, in no small measure, is a reflection of the 
infrastructure and the quality of life initiatives you and the 
American people continue to support.
    So on behalf of the 330,000 American men and women of U.S. 
Pacific Command, please accept our sincere appreciation for the 
work that you do for our great Nation.
    I look forward to your questions, sir.
    Mr. Culberson. Admiral Locklear, thank you very much, sir.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.174
    
    [GRAPHIC] [TIFF OMITTED] T6023A.175
    
    [GRAPHIC] [TIFF OMITTED] T6023A.176
    
    [GRAPHIC] [TIFF OMITTED] T6023A.177
    
    [GRAPHIC] [TIFF OMITTED] T6023A.178
    
    [GRAPHIC] [TIFF OMITTED] T6023A.179
    
    [GRAPHIC] [TIFF OMITTED] T6023A.180
    
    [GRAPHIC] [TIFF OMITTED] T6023A.181
    
    [GRAPHIC] [TIFF OMITTED] T6023A.182
    
    [GRAPHIC] [TIFF OMITTED] T6023A.183
    
    [GRAPHIC] [TIFF OMITTED] T6023A.184
    
    [GRAPHIC] [TIFF OMITTED] T6023A.185
    
    Mr. Culberson. We welcome your testimony as well General 
Thurman. Thank you, sir.

                      Statement of General Thurman

    General Thurman. Chairman Culberson, Congressman Bishop and 
distinguished members of the subcommittee, thank you for this 
opportunity this morning to update you on United Nations 
Command, Combined Forces Command and United States Forces 
Korea. It is a great honor to lead the Soldiers, Sailors, 
Airmen and Marines serving our country in the Republic of 
Korea, and I thank the members of this committee for their 
support for our warriors.
    The relationship with South Korea is the finest military 
partnership I have experienced in my 37-year career. U.S. 
military presence in the Republic of Korea supports United 
States national interests and a key ally in the Northeast Asia 
region.
    Since the United States and the Republic of Korea forged an 
alliance in battle over 60 years ago, the Republic of Korea has 
become a vibrant democracy, economic success and global 
security partner currently serving beside us in Afghanistan and 
off the Horn of Africa. Together, our militaries deter 
aggression and maintain stability on the Korean Peninsula. Our 
deterrent capability is based on United States and Republic of 
Korea's military readiness, and this is my primary focus. I 
have conducted a thorough review, including two combined 
exercises, and I have determined our forces remain ready to 
defend the peninsula. The ROK military is a modern, well-led, 
well-trained and professional ready force. It is also essential 
that we maintain United States force readiness at the highest 
level given our requirements to fight tonight.
    However, the nature of the security challenges that our 
alliance faces are ever-changing. When Kim Jong-un became ruler 
of North Korea following his father's death, uncertainty on the 
peninsula increased. North Korea's recent announcement and 
intent to launch a satellite with a ballistic missile has 
increased tensions on the peninsula. Additionally, North Korean 
rhetoric protesting and denouncing the Nuclear Security Summit 
and alliance exercises indicated that Kim Jong-un is pursuing 
policies and strategies similar to those of his late father and 
grandfather.
    For example, North Korea continues to adhere to its 
``military first'' policy. They maintain the fourth largest 
conventional military force in the world, the world's largest 
special operations force, and significant long-range artillery 
capabilities. Over 70 percent of this combat power is arrayed 
within 90 miles of the Demilitarized Zone.
    North Korea also continues to pursue asymmetric 
capabilities, especially in the areas of nuclear, missiles and 
cyber. As North Korea further develops these asymmetric 
capabilities, the nature of the security challenges facing our 
alliance will change.
    In order to posture U.S. forces and the alliance to meet 
any future security challenges, we have undertaken three major 
transformation initiatives: Tour normalization; the Land 
Partnership Plan; and the Yongsan Relocation Plan. It is my 
assessment at this time that expanding tour normalization 
beyond our current authorization of 4,645 family members is 
unaffordable under the current construct. However, the two 
bilateral force relocation initiatives, the Land Partnership 
Plan, which relocates 2nd Infantry Division from north of Seoul 
to a consolidated footprint at Camp Humphrey, and the Yongsan 
Relocation Plan, which moves U.S. forces out of Seoul, are on 
track.
    The expansion of Camp Humphreys to support the 
consolidation of U.S. forces in Korea is sized to accommodate 
the service members and accompanying families within the 4,645 
authorized command sponsored positions. I continue to review 
these plans to ensure they are operationally focused, placing 
the right capabilities in the right places to meet our 
operational requirements.
    There are four military construction projects in the Fiscal 
Year 2013 President's Budget Request that support our future 
force posture by modernizing and increasing our capabilities in 
the Ryeonytack area enduring hub. Osan and Kunsan Air Bases 
will both receive modernized and expanded medical facilities 
which improve the ability of these bases to meet their wartime 
requirements and provide quality modern medical care to their 
assigned military personnel. The replacement of a 29-year-old 
Osan elementary school is part of the Department of Defense 
Education Activity worldwide program to replace substandard 
schools.
    Finally, the new battalion headquarters at Camp Humphreys 
is for a unit locating from outside of Korea to provide 
capabilities required in our war plans.
    These projects are designed to support service members and 
those families authorized within the 4,645 cap that was 
specified in the National Defense Authorization Act this year 
and will ensure our service members have the infrastructure 
they need to be prepared to do their wartime mission.
    The charge to maintain the Armistice, defend the Republic 
of Korea and take care of our warriors and their families is my 
primary concern. I thank the members of this subcommittee for 
their support in providing our warriors the key infrastructure 
they need to execute their wartime mission in Korea.
    I also thank you for your support for our Soldiers, 
Sailors, Airmen and Marines and Department of Defense 
civilians, our veterans and their families. Your actions over 
the years have improved the quality of life for our Nation's 
most valuable treasure, and that is the men and women of this 
great nation.
    I am now ready to answer any questions you may have. So 
thank you very much.
    Mr. Culberson. Thank you very much, General Thurman.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T6023A.186
    
    [GRAPHIC] [TIFF OMITTED] T6023A.187
    
    [GRAPHIC] [TIFF OMITTED] T6023A.188
    
    [GRAPHIC] [TIFF OMITTED] T6023A.189
    
    [GRAPHIC] [TIFF OMITTED] T6023A.190
    
    [GRAPHIC] [TIFF OMITTED] T6023A.191
    
    [GRAPHIC] [TIFF OMITTED] T6023A.192
    
    [GRAPHIC] [TIFF OMITTED] T6023A.193
    
    [GRAPHIC] [TIFF OMITTED] T6023A.194
    
    [GRAPHIC] [TIFF OMITTED] T6023A.195
    
    [GRAPHIC] [TIFF OMITTED] T6023A.196
    
    [GRAPHIC] [TIFF OMITTED] T6023A.197
    
    [GRAPHIC] [TIFF OMITTED] T6023A.198
    
    [GRAPHIC] [TIFF OMITTED] T6023A.199
    
    [GRAPHIC] [TIFF OMITTED] T6023A.200
    
    [GRAPHIC] [TIFF OMITTED] T6023A.201
    
    [GRAPHIC] [TIFF OMITTED] T6023A.202
    
    [GRAPHIC] [TIFF OMITTED] T6023A.203
    
    [GRAPHIC] [TIFF OMITTED] T6023A.204
    
                       U.S. FORCES IN THE PACIFIC

    Mr. Culberson. Admiral Locklear. We have I know with us 
here today, I understand, press from Japan, maybe from--
primarily Japan. I am delighted they are here. So the 
committee, on behalf of the United States Congress, certainly 
the people of Texas, I know the people of Georgia and the 
United States, have a deep appreciation for the friendship of 
the people of Japan. I am very proud to have that wonderful 
nation standing alongside the people of Japan in the Pacific in 
light of the increasing aggressiveness of China.
    I want to, if I could, give you both an opportunity to talk 
about how our U.S. forces in the Pacific, working together with 
our allies in Japan and Korea, are working together to protect 
the Japanese people, the Japanese islands and the Korean 
Peninsula from the threat of ballistic missile attack from 
North Korea, beginning with the ballistic missile threat from 
the North Koreans, and also if you could talk to us about the 
threat you see from the communist Chinese and how that has 
changed in recent years.
    I really would like to make it open-ended, so you could 
talk to us about the security situation in light of the new 
regime in Korea, and then secondly, the changes we see in the 
posture of the Chinese.
    General Thurman. Thank you, Mr. Chairman. I will start and 
I will discuss our current assessment of the security situation 
on the peninsula.
    First off, as we all know, we have a new leader, Kim Jong-
un, after the death of Kim Jong-il that occurred on the 17th of 
December. I believe we are in a period of uncertainty on the 
peninsula in regard to which azimuth the regime will take. It 
is clear to me that we are following some of the same patterns 
that we have in the past of the policies that Kim Jong-il and 
Kim Il-sung had.
    I believe Kim Jong-un is being modeled after his 
grandfather as we have seen him dress like him, and it is clear 
he is very active with the military. I do think he is being 
closely shepherded by his uncle, who was Kim Jong-il's brother-
in-law, Chang song-tack.
    So what we have been seeing on the peninsula is quite a bit 
of rhetoric. This latest announcement to launch this satellite 
with a ballistic missile unequivocally violates United Nations 
Security Council Resolutions 1874 and 1718, which prohibits 
them from testing any ballistic missile technology. That has 
increased tension on the peninsula and also in the region, and 
it is my assessment that left unchecked, North Korea will 
continue to be a threat, not only to the region, but 
potentially to the continental United States.
    They have a conventional force. Seventy percent of that 
conventional force of 1.1 million resides south of Pyongyang 
and Wonsan within 90 miles of Seoul. Seoul is a city of 24 
million people. We have quite a bit of indirect fire, well over 
13,000 artillery pieces, that could range into Seoul and do 
damage.
    On the peninsula, I am confident we can defend the 
peninsula with the ROK military forces and U.S. forces. We do 
have a combined alliance, a very strong alliance and treaty, 
bilateral. As I have seen, it is the finest partnership that I 
have experienced, very competent and professional people that 
are committed to defending the peninsula.
    I do think over the next few years, we are really going to 
have to watch the overall security situation. It is very 
important that we maintain trained and ready formations on the 
peninsula, and the importance of staying forward deployed with 
U.S. forces is a stabilizing influence in the region.

                 SECURITY SITUATION IN THE PACIFIC AOR

    Mr. Culberson. Thank you, sir.
    Admiral Locklear, could you talk to us about the security 
situation on the Korean Peninsula and the Western Pacific.
    Admiral Locklear. Yes, sir.
    Mr. Culberson. I will leave it open-ended so you could just 
talk to us in general about what your concerns are and how you 
assess the current situation.
    Admiral Locklear. Yes, sir. The North Korea situation is 
certainly, I think, the most pressing security situation based 
on the recent events, and we will have to continue to be 
positioned to ensure security from those type of provocative 
events that the North Korean regime seems to be intent on 
pursuing.
    But let me talk in a little bit broader context of the 
Pacific AOR, the Asia Pacific area of responsibility. There are 
3.6 billion people. The AOR is about half the world; Thirty-six 
countries in this. They have the world's largest economies in 
those countries. Most of the world's largest militaries are in 
this region. There is a continuing need by all nations in the 
Asia-Pacific, including our own nation, to ensure the proper 
flow of energy which supports the global economy, which 
supports the flow of goods across those boundaries.
    We are fond of saying in the Navy that 90 percent of 
everything that moves in the world moves on the ocean, and that 
has been true for a long time, just because of economies of 
scale versus air travel. But what has changed over the last 
couple of decades is that, 20 years ago until today, the amount 
of goods and services that flow through these global commons 
has increased four-fold and is going up exponentially as the 
global economy begins to thrive and we start to do the things 
we need to do between the economic powers.
    So the real question is, if you look back from World War 
II, this very critical alliance we have with our Japanese 
partners and our Korean partners has underpinned an alliance, 
and several other allies here (we have five allies in this 
region), that have underpinned a security environment that has 
allowed this miracle to take place in the Asia Pacific. It has 
allowed relative peace and prosperity, it has allowed economic 
prosperity between all of our nations, and has brought 
countries that a number of decades ago would have not been able 
to compete in a world economy to produce that capability.
    So as we look forward, I think the question is how do we 
ensure that what we have enjoyed for the last 60 years in a 
security environment, is brought into the future so that our 
children and our grandchildren have the same opportunities as 
this global economy, the global system develops.
    So we have to look at; our job is to kind of see how do we 
secure this. Our focus has to continue to shift. It is not that 
we are not as concerned about the north, but we have an 
infrastructure that was built around post-World War II and that 
now has got to change, because the effects of the global 
security environment, the effects of the security environment 
in the Asia-Pacific, make us have to look at a lot of different 
areas, including the Straits of Malacca, the Indian Ocean, 
areas to the south that in recent decades past we were just not 
too concerned about. So it makes us have to address our force 
posture and how we are doing that.
    But at the center of this remains the strength of these 
alliances and the partnerships that we are building with other 
significant partners in the area, because it is in everyone's 
interest in the Asia-Pacific to be a valuable participant in 
the security environment. So we have to use, I think, U.S. and 
alliance leadership to form this together.
    So now that takes us to the question of the People's 
Republic of China and how do they figure into this. They are, 
as we know, an emerging regional power, certainly an economic 
power. They have benefited, in my view, as we all have, by the 
security environment that has been in place in Asia Pacific. 
And it seems to me that it is in all of our best interests that 
in the future they be a productive participant in that and that 
we participate alongside so that our children and grandchildren 
can share in what we have.
    So right now, I would say that the relationship, as I have 
said before between the PRC and the U.S. and probably between 
our allies, is cooperative, because we have to cooperate across 
more than just military. We cooperate very much across economic 
lines and diplomatic lines. So it is cooperative, but it is 
competitive. And there are places where we don't agree and we 
need to continue to have dialogue about where we don't agree.
    But, in the end, there are decisions also that we all have 
to make, including the People's Republic of China. Choices that 
have to be made that can lead us to a productive security 
environment, or that could create tensions and cause us to go 
down another path, which I think would be unfortunate for 
future generations.
    So, as we look at the coming months and years, we need to 
ensure that we have alliances that are strong and a security 
environment that is in place that helps all of us make the 
right choices for the future in security.
    Mr. Culberson. Thank you very much. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    U.S. Forces Korea has got a lot going on right now 
currently because I think you are in the process of realigning 
or repositioning the forces in Korea. And, of course, there are 
two plans to do this. They are called the Land Partnership Plan 
and the Yongsan Relocation Plan. Both of these plans will 
benefit the U.S. and the Republic of Korea.
    General Thurman, as you know, the Republic of Korea will 
conduct general elections this year. What potential changes in 
the alliance and impacts to our troops do you expect when the 
ruling party is predicted to lose in the election coming up. 
And, of course, as you know, both sides of the subcommittee 
staff recently visited Korea, and reported to the chairman and 
myself regarding the Land Partnership Plan and the Yongsan 
Relocation Plan. Can you explain to the subcommittee what these 
two plans will do, starting with the Land Partnership Plan.

                         LAND PARTNERSHIP PLAN

    General Thurman. Congressman Bishop, first off, the Land 
Partnership Plan was a U.S. initiative that was actually 
started in 2004. The purpose of that was to reposition U.S. 
forces north of the Han River into the area called Camp 
Humphreys. The purpose of that was to better consolidate U.S. 
forces, and reduce the number of overall bases. We had 107 
installations. We now have 74, and we will reduce down to 49.
    The purpose was to relocate forces into two enduring hubs, 
Pycongtack and Daegu. Pycongtack is around Osan Air Base also. 
The whole initiative was to consolidate our formations so we 
get better continuity of effort that allows for better 
coordination. That program was, as I said, was a U.S. 
initiative.

                        YONGSAN RELOCATION PLAN

    The second program was Yongsan Relocation, which was a 
request by the Korean government to give back some very prime 
real estate to the Korean government, completely funded by the 
Korean government, and we will move out of Yongsan.
    With both of these plans, they will be completed by 2016.
    Under the Strategic Alliance 2015 that was agreed to by the 
U.S. Government and the ROK Government, the ROK military forces 
will be given operational control during wartime of their 
forces in December of 2015. The Land Partnership Plan, as I 
said, is on track. The Yongsan Relocation Plan was a little 
behind. We got that back on track now, and as I said, that will 
be completed in 2016. So that is the first part on that.
    Your other question in regard to the political environment 
over there. I am responsible for the defense of the Republic of 
Korea agreed to by both governments, the ROK Government and the 
U.S. Government. My focus is on maintaining a strong readiness 
posture. We have a great partnership, the alliance is strong, 
and whoever comes into power over there with an election, I 
will continue to do what I am doing on a daily basis. So I 
don't see any change to that, sir.
    Mr. Bishop. Very good. So you think that the election 
changes will not adjust or impact the troops or our 
relationship with the alliance?
    General Thurman. I will continue, sir, to maintain a close 
relationship that I do every day with the ROK Government.

                          ENCROACHMENT ISSUES

    Mr. Bishop. General, I was reading the staff trip report 
and one thing that jumped out at me was that the staff had some 
concerns about Osan where there appears to be serious 
encroachment that makes the perimeter security of Osan 
extremely challenging. Is there anything that this subcommittee 
can do to enhance your force protection and give relief to the 
problem?
    General Thurman. Congressman Bishop, currently it is not 
only at Osan, but we do have encroachment issues that I am 
working with the ROK Ministry of Defense on, particularly at 
not only Osan, but also at Camp Humphreys.
    Mr. Bishop. I was going to ask you about other 
installations too.
    General Thurman. Camp Humphreys, we do have some down at 
Kunsan, and we are working with the Ministry of Defense to 
create a buffer zone, particularly down at Camp Humphreys. But 
I think right now we can work through those issues and I will 
come back and report back to you if we cannot.
    Mr. Bishop. Okay. So you don't need any immediate help from 
the subcommittee in terms of MILCON with regard to dealing with 
those issues?
    General Thurman. From MILCON or for----
    Mr. Bishop. Military construction. Is there anything that 
we can do military construction-wise to help you with those 
encroachment issues to enhance the security challenges that you 
face with the encroachment?
    General Thurman. In regard to military construction, no, 
sir, not at this time. The projects that I have for the 13 
budget are the ones we need help on, and I can restate those 
again, if you want me to.

                               LOGISTICS

    Mr. Bishop. Thank you, sir.
    Mr. Culberson. Thank you, Mr. Bishop. Mr. Austria.
    Mr. Austria. Thank you, Mr. Chairman.
    General, Admiral, thank you for being here and giving us a 
very important briefing on the Asian Pacific region. I think it 
is very important that we continue that long-time relationship 
and friendship we have had with many of our important allies in 
the Asian-Pacific region. I think you have outlined very well 
the need and the significance, how that has grown in that 
region as we move forward with the uncertainties, the new 
challenges and the importance that we have that presence there 
and that we be well equipped.
    Admiral, if I can start with you. First of all, let me 
thank you for your service to our country and being here with 
us today. Your role as the Commander of the U.S. Pacific 
Command is critical to our national security, particularly 
following the new, as I touched on, strategic guidance that 
emphasizes the increased focus on the Asian-Pacific region.
    What I would like to kind of focus on a little bit and 
briefly discuss is your ability to maintain the logistic supply 
chain via multi-modal means. A recent decision by the Air 
Force, they have proposed retiring 20 of the KC-135 aircraft. 
As I understand it, the demand for air refueling consistently 
pushes the limits of our current capabilities. In a region as 
vast as PACOM, air refueling certainly enables the Nation's 
ability to execute global reach.
    How will these reductions, whether it be the KC-135 or 
other aircraft reductions, impact your ability to provide rapid 
response, power projection across the Pacific and how concerned 
are you about the overreaching reductions to aircraft and 
personnel in regard to your ability to meet whatever future 
requirements or needs are in that region?
    Admiral Locklear. Well, thank you for the question, sir, 
and your comments. Thank you. As we talked about earlier, the 
Asia Pacific region covers half the world and most of that, a 
lot of that, has water in it. So our ability to sustain forces 
forward both in peacetime and in any conflict or contingency 
that might come up are extremely important to me and I have to 
consider that, as our allies must consider it also.
    So it is important that not only do we have the ships and 
aircraft necessary to support our logistics flow, but that we 
have the airfields and the port facilities and the access to 
those in the time that we need to be able to respond 
effectively with what we all know will be a smaller, more 
efficient force because of the budget directives and the budget 
issues that we have dealt with.
    Now, when it comes to the specific decisions that have been 
made by the Air Force, I have to go back to my friend at 
Transportation command (TRANSCOM), the TRANSCOM Commander, and 
he has a global force responsibility to see how he can manage 
that. And I have and I will continue to highlight where I think 
there are shortfalls in my ability to flow forces in both 
peacetime and contingency operations that range from 
Humanitarian Assistance/Disaster Relief (HAD) operations all 
the way up to potential conflicts that might occur in a 
particular region of Asia.
    So any reduction from the status quo obviously causes a 
Commander concern. The question is, as we look at our global 
priorities, where I think mine are pretty high now as a PACOM 
Commander, but will they be answered? And I can assure you that 
I will make sure that we have identified where those shortfalls 
are.

                              ABRAMS TANK

    Mr. Austria. I appreciate that answer. Let me, if I can 
switch, General, if I can ask you a question similar to it but 
focusing in on the M1A2, Abrams battle tanks. I think you 
mentioned that briefly in your testimony. You highlighted the 
significance of how it has upgraded the combat capability used 
by the Second Infantry Division.
    Can you briefly describe the added capability your soldiers 
have gained from this new equipment? As much as I know, it 
comes out of my home State in Lima, we are trying to get a 
status of that as to the impact that is having.
    General Thurman. Congressman, thank you. First off, the 
M1A2 System Enhancement package (SEP) tank is the best tank I 
believe in the world, and the Army has done a very good job of 
giving us brand new equipment. We have upgraded the First 
Brigade of the 2nd Infantry Division not only with the M1A2 
SEP, but also with the new Bradley Fighting Vehicle. So we have 
completely modernized the 2nd Infantry Division. So we have 
very good equipment, the best this Nation has.
    A little bit about the M1A2, a very good system, on-the-
move capability, excellent flare tech capability and the 
ability to engage multiple targets. It is a piece of equipment 
that I believe is much needed on the peninsula and will 
outmatch anything the North Koreans have.

                             SEQUESTRATION

    Mr. Austria. One last question, Mr. Chairman, if I may, 
just kind of following up on both those questions. You know, 
the well-being of our troops is our top priority, and with the 
budget constraints that are before us, and in particular, 
sequestration lingering in the background, can you update us as 
to, number one, the impact that sequestration would have on of 
your operation in PACOM, but also as far as how our Soldiers, 
Sailors, Airmen, Marines are doing morale-wise, knowing this is 
all lingering out there. I am sure they are all reading things, 
hearing things, as Congress struggles with this as we move 
forward.
    Admiral Locklear. Yes, sir. Well, the issue of 
sequestration, I think, was summed up by the Secretary of 
Defense (SECDEF) pretty well. It would be devastating to us; 
devastating, and it would have to force us to have to rethink 
our theater strategies because of, first of all, the magnitude 
of it, and second of all, the way it would be implemented in 
the reductions.
    My guess is, if there wasn't some relief in the way it was 
going to be implemented, and I am not an expert on this, but my 
guess is it would seriously curtail near-term operations that 
would very much influence our ability to maintain with our 
allies the security posture in there. So it would be 
devastating.
    I think the question of how our troops feel about it, I 
think they are aware of it, but we keep them pretty busy on the 
point of the spear, particularly in PACOM. They are worried 
about provocative actions in North Korea today, they are 
worried about ensuring security in the sea lanes, and they are 
worried about maintaining those close relationships they have 
with our wonderful allies in Japan, Korea and other places. So 
I don't think it is weighing heavily on their minds, and I 
think that they anticipate that folks like me and like in this 
room will work this out and protect their interests.
    General Thurman. Congressman, first off, I would just echo 
the comments Admiral Locklear made. It would be devastating in 
regard to our ability to maintain readiness in my estimation. 
And I think we have to be very careful right now. The world is 
watching us as well as our allies. So I would just tell you 
that anything that perhaps could degrade readiness is something 
that we need to be very mindful of.
    In regard to our Soldiers, Sailors, Airmen and Marines, the 
folks on the peninsula are very focused because we've got a 
real world mission to perform and, frankly, we should not have 
them worried about this. They need to know that they are going 
to be taken care of, and that is what I have tried to do to 
reassure them. They need to be focused on the day-to-day 
mission that we have to do, which is very important.
    Mr. Austria. Thank you both. Thank you for your testimony.
    Mr. Chairman, thank you.
    Mr. Culberson. General Thurman, Admiral Locklear, you are 
exactly right. Please reassure everybody under your command 
that they will absolutely be taken care of. No matter what 
happens, the Congress is always going to make sure that our men 
and women in uniform don't have any worries, they get all the 
help that they need.
    I am privileged to recognize my good friend, Ms. McCollum.
    Ms. McCollum. Thank you. Yoi ichinichi o to our friends 
from Japan, and good afternoon to you. I would like to just 
take a second, I think, and reflect how many of us in Congress 
feel as Japan goes through its first anniversary from the 
terrible earthquake and tsunami. It was our honor and our 
military's honor to assist our friends in Japan in delivering 
goods and working in partnership during the very dark days that 
Japan faced after the earthquake and tsunami, and we wish Japan 
all the very best as it continues to heal and rebuild itself.
    And one last apology: The cherry blossoms. People are 
coming from Japan to celebrate the 100th anniversary gift, the 
beautiful gift, the cherry blossoms from the people of Japan, 
but the cherry trees couldn't wait and they have already 
bloomed early. So thank you so much for that gift.
    Just before I ask my questions, I want to redirect 
something possibly on sequestration. You know, not everybody 
here is a big fan of sequestration, but that was the budget 
agreement reached by the Senate, the House and the President of 
the United States. So when you are talking to Congress about 
not liking sequestration, it is, from what I have heard from 
Secretary Panetta, the President of the United States and the 
Joint Chiefs, that they feel that the service men and women 
will have what they need to perform their duties and their 
missions. Is that not correct?

                             SEQUESTRATION

    General Thurman. Congresswoman, I have what I need right 
now in this year's budget.
    Ms. McCollum. Thank you. Admiral.
    Admiral Locklear. I would agree.

                              GUAM BUILDUP

    Ms. McCollum. Thank you. I would like to talk about the 
Guam buildup for a few minutes. Especially that is probably the 
overlying reason why we have--never had this much press in the 
room, Mr. Chairman.
    So, Admiral, I want to thank you for testifying today and I 
would like to thank you both for the service for your country, 
for our country. I am the daughter of a disabled veteran, Army 
Air Corps, so I know that a lot goes back home with your family 
also serving alongside and with you.
    Now, the U.S. Pacific Command budget request makes it clear 
that U.S. military readiness and Japan will play a vital role 
in our long-term military strategy, and I couldn't agree more 
with that. But in your testimony, you alluded to the importance 
of transforming Guam into an Air Force strike force hub and a 
refueling asset in the Asia Pacific.
    With the time and resources that have been invested in the 
military Guam buildup, it is clear that it will play a major 
role, that that is where we are looking to have a forward 
expansion from. But the cost of this extended transition that 
has been going on for quite a while now under two Presidents, 
it just isn't President Obama, the political environment in 
Japan, which has been through many political changes, and the 
lack of a master plan from the Department of Defense continue 
to play a role in delaying the Guam buildup.
    So from your testimony last year, last year's defense 
reauthorization restricted Guam from building up funding until 
we had a more detailed plan from DoD. So could you maybe let us 
know, because we have been visited by very important 
dignitaries from Japan about their wanting to know what our 
plans are and how that is going to fit into them moving forward 
with doing some of the economic development that they would do.
    If you could maybe talk about where you are with the Guam 
buildup, and what this Congress needs to do to give you the 
green light to work with the Department of Defense to go ahead 
and make this project a reality rather than phases; phases that 
aren't even completed.
    Admiral Locklear. Yes, Congresswoman, thank you for that. 
Before I start, can I just also echo my compliments to the 
people of Japan on their resiliency one year after this tragedy 
that occurred to their country. It is really quite amazing to 
see how they are responding. I think we can all take a great 
bit of inspiration from the way they have dealt with this, and 
we are real proud of them.
    I will start in my first three weeks in this job to take a 
look at this issue. I start from looking at the Defense Posture 
Realignment Initiative which has the Guam buildup initiative in 
it, and over time, our critical alliance, alliances in this 
area, we have to be able to respond to changes on both sides of 
the alliance so that we strengthen the alliance and we make 
good decisions. So I think that is where we were in 2006 when 
this started.
    We thought, in 2006, that there was a plan between the two 
governments that was a solid plan, that was affordable with 
great cost sharing by our allies. The way that plan was 
constructed, it had certain caveats in there that you are aware 
of, that before you could move forward with any movement to 
Guam, certain things had to happen in relationship to what 
happened on the island of Okinawa.
    The people of Okinawa, first of all, should be praised for 
what they do and what they contribute everyday to the success 
of this alliance and the defense of this region. And we 
understand, because we have issues in our own country about how 
our military presence impacts on neighborhoods and people. So 
we have to understand that that had to be brought into the 
equation. But at the same time, we have to agree between 
alliances how to ensure that we have the warfighting and the 
deterrent capability in the right place at the right time. So 
the 2006 agreement was fundamentally, I thought, a good 
agreement and we moved forward with it.
    But over time, things change and have to be reassessed, and 
because of some of the timing of events, it caused what was, in 
reality, a process where we couldn't make decisions, we 
couldn't move forward with the critical elements.
    Now, DPRI has about 19 initiatives in it, and many of those 
get fulfilled, but this central one, which is a big one, a big 
one that gets a lot of attention, seemed to be slowed down. So 
a few months ago, I think you have been briefed that there was 
a dialogue reopened with the government of Japan between our 
Defense Department to look at how could we kind of get this 
thing going, I mean, how could we eliminate whatever was 
stopping it from moving forward and causing these costs to be 
excessive and making this thing not look like it was on the 
right path.
    My sense is that is being done. I am not in the direct 
negotiations, but I think that we are not far from having at 
least what would look like government-to-government, how do we 
shape this so that we get past the things that prevent it from 
being successful, that would then allow us to move on to doing 
the things in Guam which we need to do to get our Marine forces 
moving to Guam and to get the upgrades in the MILCON and all 
those things in place, and that it is affordable over a time 
period that is acceptable in the security environment we are 
in.
    So I think you are going to see a plan soon, I would hope. 
That is my expectation, that we will see a plan that is 
proposed by the defense areas of each of the governments that 
would look at this and make sure that we meet all those 
criteria.
    But, in the end, as I look at the global or the strategy 
for PACOM in a larger context, Guam is a very critical piece of 
any strategy we have going forward in the future. It is a 
territory. It is very important that we get this right and that 
we make the right investments in Guam for a sustainable future 
that gets us not only the next 10 years, but 100 years into the 
future.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Culberson. Ms. McCollum, I want to especially thank you 
for recognizing the anniversary of the earthquake. It is very 
appropriate, and our thoughts and prayers have been with the 
Japanese people. We do admire them immensely for the way they 
responded to it. And for recognizing 100th anniversary of the 
gift of the magnificent cherry trees here. We treasure our 
friendship with Japan and Korea, and I really appreciate you 
bringing that to everybody's attention today, Ms. McCollum. 
Thank you.
    Let me recognize my good friend, Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman.
    Admiral, I guess one challenge I am having as a freshman is 
getting up to speed on real complex issues. I have read your 
testimony. I have listened to what you say. Let me kind of 
describe to you what I understand and just tell me if I am 
missing anything.
    It is a very vital region of the world. It has some of our 
closest allies. It is also a region that has got some of the 
most volatile parts of the world, countries with very strong 
militaries, countries that are very vital trading partners with 
the United States.
    I take it from your testimony that you are based out of 
Hawaii; we have a presence in California and Alaska. I have 
heard you talk about base presence in Korea, in Japan and in 
Guam. Are there any other base presences that I don't know 
about or that I haven't asked about?

  MILITARY CONSTRUCTION NEEDS AT INSTALLATIONS SUPPORTING PACIFIC AOR

    Admiral Locklear. That is a fine, fine question. I think, 
as I look at it, there are many ways that the U.S., and to some 
degree, our allies produce presence. One is that we have 
forward bases that may have a U.S. or a joint flag flying on 
it, and the MILCON Committee is very familiar with those 
because we keep putting money into them. And then we have 
places that I wouldn't call bases, but they are places where we 
go and that we use the good will of our partners and our allies 
to be able to access their facilities in a way that is mutually 
beneficial to the partnership or to the alliance.
    So we have a number of those places throughout the region. 
And as our partnerships grow and we invest in the partnerships 
of those countries, our access to those types of things should 
grow as well. So those I wouldn't really put in the category of 
bases. But primarily, the places where we invested over time, 
where you have U.S. folks that are there, as you articulated, 
is in the Japan and Korea area, but we do have access to a lot 
of other places.
    You have heard conversations recently about our desire with 
the people of Australia to start using some Air Force and 
Marine Corps counterpart or interaction with some facilities 
they have there. Those activities may, at some point in time, 
require some U.S. MILCON to kind of make sure that the forces 
we have can be supported in those maybe more remote locations, 
and it will also require support from the host nation who is 
there, and that is all recognized. But I don't see a future 
where we are going to have any more U.S. bases forward than the 
ones you already see on the plate.
    Finally, we have a force that, if you think about the 
importance in the Pacific Command of having forward deployed 
forces, the debate is, well, let's just bring everybody home 
and not have anything anywhere, it is too expensive, let's 
spend the MILCON in the States. If you were to--in my view, if 
you were to try to maintain the security environment where our 
national interests are so important in this region from a 
rotational force at home, coming completely from the United 
States, would be a force of such a size and such an 
unaffordable size that--I mean, I think in general terms, we 
get a pretty good deal by having these forces forward with the 
great support of key allies where we will support an economy of 
force that can get the job done in both building partnership, 
deterrence, and eventually warfighting capacity.
    Mr. Nunnelee. Thank you. I am studying hard and trying to 
learn. Also there has been a lot of discussion this morning 
about sequestration. Admiral, you and General Thurman both used 
the term ``devastating.'' I understand that term. Are you doing 
anything today to plan for sequestration, to plan for that 
devastation, and, if not, at what point do you start planning 
for it?
    Mr. Culberson. I think it kicks in January 2nd, 
automatically unless we do something.
    Admiral Locklear. Well, for much of my naval career I was 
on the resourcing side, and now in this job I am on the 
consumer side, which has a responsibility of its own, and 
certainly I wouldn't try to tell you that the thought of 
sequestration isn't on our minds if it comes into being. But on 
the consumer side, we are not right now in a planning process 
for the implementation of sequestration. We are not. And I 
don't plan to be in the near future.
    General Thurman. Congressman, what I would tell you, I am 
very cognizant of requirements, and anything that we generate 
has to have a full cost-benefit analysis. And we have done that 
in our requirements generation to make sure we are not coming 
up with something that is not, at least in Korea, focused on 
the operational mission over there. And that is what I have 
done. But beyond that, that is the thing that I have talked to 
the command about.

                             SEQUESTRATION

    Mr. Nunnelee. I still don't have a feel for what you are 
doing to plan for sequestration. I accept your word 
``devastating.'' Is there a point between now and January the 
2nd, when it kicks in, that the appropriations process needs to 
act to avoid that devastation, or will you wait until January 
2nd to implement it?
    Admiral Locklear. I can only give you a hypothetical 
answer, Congressman. Certainly, if we move closer to the day of 
implementation of sequestration and there hasn't been an action 
to either stop it or to change the nature of it, I would 
assume, at some point in time, there would have to be some 
planning going on for that. But at this point in time, there is 
not any planning.
    General Thurman. Congressman, I would just tell you that I 
have an obligation every month to do a readiness report. If I 
see anything that is hurting our readiness and our ability to 
do the mission, I will report that.
    Mr. Nunnelee. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much. It is our job to make 
sure there are no bubbles in that pipeline. We are grateful for 
you guys staying focused on the tip of the spear, and we will 
do our very best to make sure there are no bubbles in the 
pipeline. We have two votes going on. There is about 11 minutes 
left in the first vote. We will work right up until the tail-
end of this vote, recess very briefly, go up and vote, and then 
catch the beginning of the second vote, if we could, folks, and 
then come right back.
    I recognize my friend from California, Mr. Farr.
    Mr. Farr. Thank you much, Mr. Chairman. I am sorry I was 
late. I am cochair of a Base Military Communities Caucus and 
Secretary Panetta was there answering a lot of the questions 
that you are asking here.
    Thank you, Admiral, for coming in and both of you for your 
service. I represent the Naval Postgraduate School (NPS) and I 
just want to ask, there is a program that was started there 
after the terrorist bombing of the USS Cole which was to 
initiate regional security education and cultural awareness 
training for deploying Navy carrier and expeditionary strike 
groups. This program is called Regional Security Education 
Program (RSTEP) and it was created to ensure commanders and 
personnel assigned to deploying naval forces, the deploying 
naval forces are aware of the historical context and strategic 
importance of and current issues in the regions to which they 
will operate; essentially, stepping off the ship and knowing 
something about what you are stepping into rather than just a 
wild night on the city.
    I wondered if, in your opinion, has the NPS Regional 
Security Education Program been a benefit to the forces 
deploying in the Pacific Command?
    Admiral Locklear. When I had command of the Nimitz Carrier 
Strike Group, I benefited by the RSEP program, prior to my 
deployment to the Western Pacific and then to the Arabian Gulf. 
So the answer to that is it has been a benefit.

                            UNDERSEA WARFARE

    Mr. Farr. And the other question I have is that there is an 
undersea warfare, submarine warfare, anti-submarine warfare, 
mine warfare, sub-sea warfare, our priorities for our submarine 
force, and, again, the Naval Postgraduate School's naval 
officers can earn a degree that includes this subspecialty code 
in the warfare area.
    The question here is while the current quotas for officers 
being awarded the undersea warfare subspecialty code are being 
filled, do you believe this quota should be increased in light 
of the heightened importance of undersea warfare in the Pacific 
areas? We're hoping that the quota could be increased from 14 
to 21 per year, a 50 percent increase.
    Admiral Locklear. Well, certainly, Congressman, from my 
theater, I have a vested interest in assuring that the anti-
submarine warfare training is the very best that we can 
produce. My sense is that the Naval Postgraduate School 
provides unique capabilities in our ability to focus young 
warriors in this particular area. So I highly value what they 
teach.
    I can't give you a quantitative answer on whether going 
from 14 to 21 would satisfy a need, but I can tell you that it 
is important and we need to continue to support the curriculum 
and make sure it is producing the type of thinking that we need 
to address the threats we will see in undersea warfare in the 
21st century.
    Mr. Farr. Do you think that in this whole area, that school 
certainly has the capacity to do a lot of very smart research. 
I am just wondering if there is interest in increasing the 
support for thesis work and other related research undertaken 
by the faculty and students at the school.
    Admiral Locklear. Well, I will have to defer the details of 
how they manage inside the school to the Chief of Naval 
Operations because he uses that tool to ensure that he supports 
the combatant commanders well. So, again, I would say that 
there is capacity, there is capability, great capability at 
this institution, it is highly valued. It is particularly 
valued to me in the areas where we might not have that same 
focus coming from our other civilian graduate education places 
where a postgraduate school can focus on things that other 
universities may not have the need nor the desire to do.

                                LANGUAGE

    Mr. Farr. I knew that when Admiral Mullen was before this 
committee, he was very interested in the Foreign Area Officer 
(FAO) program and actually directed that it become more trained 
like the Army has done. We have created an advanced training 
course for FAOs from all services because of the language 
capability of the Defense Language Institute (DLI) and the 
faculty at the Naval Postgraduate School to really provide--and 
I spoke to these officers last week. I was fascinated by them, 
their linguistic capability. They are essentially as skilled or 
more skilled than our ambassadors, I think. And with the idea 
that we are going to have to do more regional training, it 
seems to me that this whole area of post-conflict--I mean, it 
is a combination of what do we do to do post-conflict 
stabilization.
    We are going to have to really understand the culture, the 
language, the community better. We are now positioning 
ourselves with a new strategy of taking our allied forces and 
equipping them and training them to be essentially as capable 
as we are in helping maintain the peace.
    It just seems to me that the growth area is going to be in 
this sort of, for lack of a better term, in the Military 
Occupational Specialty (MOS) of a FAO, and yet we don't really 
have developed a lot of the jobs that are needed to be 
developed. Because what happens is. I just had this experience 
with friends who have come out of Afghanistan and Iraq and 
really got interested in the culture. They want to really get 
into a program to really do stabilization, whether they do it 
with our government or an non-governmental organization (NGO). 
But they would stay in the Navy or the Army if there was a 
position for that.
    So I would hope that you might be able to use your--as we 
move in this direction and begin developing careers for people 
with these skill-sets, because you are going to need more and 
more of them, and I am not sure that just the FAO position or 
MOS is enough to satisfy the challenges you have.
    I am really interested in the services sending more 
officers to get this training and making sure that all FAOs, I 
forget all the different titles they are giving in different 
services, but they get this advanced regional expertise with 
the DLI and the Naval Postgraduate School.
    It is just a comment. I don't know whether you want to 
respond to that, but it seems to me the direction we are going 
is going to require us to think a little bit deeper about how 
important it is to retain these skill-sets in the services and 
not lose them because we don't have a place for them, we don't 
have a mission for them, because we haven't created that yet, 
so they have to go off and do something else that doesn't use 
the skill training.
    Mr. Culberson. Excuse me, Mr. Farr and Admiral and General. 
We have about 4 minutes left in the vote. If you want to 
respond briefly to Mr. Farr's question, we will need to recess 
and come back to Mr. Carter when we reconvene. Do you have a 
brief comment?
    Admiral Locklear. I do. Just the Foreign Area Officer 
Program that you talked about Admiral Mullen, I am very 
supportive of. I think it plays heavily into the day-to-day 
operations of how we shape the security environment in a 
growingly complex Asia-Pacific area, and as we do the 
rebalance, I think a critical part of that rebalance is taking 
a look at how we manage the people who are Asia Pacific 
experts. It is important that they remain--that they come from 
an area where they understand how the military services work. 
So we have to work on those skills. They have to know how ships 
and airplanes and soldiers fight. Otherwise, they are not 
effective as FAOs. But then we need to get them into FAOs and 
we need to ensure we have career paths that make sense to them 
that they compete for, but that values that skill-set. Thank 
you, sir.
    Mr. Culberson. We are down to less than 3 minutes. We are 
going to have to recess. We will come back and start Mr. 
Carter. The committee will stand in recess. Thank you.
    [Recess.]
    Mr. Culberson. We are going to come back to order. I will 
recognize my good friend from Texas, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Admiral Locklear, 
welcome. General Thurman, my good friend, welcome. We are proud 
to be here with you folks.

   MILITARY CONSTRUCTION REQUIREMENTS ON THE KOREAN PACIFIC PENINSULA

    You know the President has put a spotlight on PAC Command. 
I will let you know that the White House's emphasis is now on 
the Pacific. I thought about General Thurman, he and I are 
pretty good friends, and I thought about you when I first heard 
the State of the Union. You seem to always get in the middle of 
the spotlight, don't you?
    General Thurman, you have got a command that is very 
important over there, and yet you have a lot of emotion going 
on with your preparation of readiness. You are having to move 
people around the country. How does that affect your challenges 
of the readiness situation on the Korean Peninsula, and more 
importantly, as you move elements to Yongsan, from Yongsan to 
Camp Humphreys, are there going to be MILCON requirements that 
we need to know about so we can be prepared to make sure you 
have the resources you need?
    General Thurman. Thanks, Congressman Carter. First off, 
what we have done in regard to the movement is we have 
programmed that out pretty well, so we mitigate the risk, 
because we can never take our focus off our primary 
responsibility to be prepared to activate the defense over 
there if that is required. So I feel pretty good about how we 
have mitigated that with the Army forces.
    We have already moved some forces down to Camp Humphreys, 
but we will balance that risk. That is an ongoing thing that we 
look at predominantly with Army forces. The Air Forces are okay 
and our Marine forces come out of Okinawa if we have an 
emergency, and then we get the U.S. 7th Fleet out of Japan if 
there is an emergency there.
    In regard to the MILCON projects, first off, I want to 
thank you for the projects that we got in the Fiscal Year 2012 
budget. Those were very much needed. And just to cite those, at 
Camp Carroll these were necessary for a barracks and vehicle 
maintenance shop, and then at Camp Henry another barracks 
complex and a DFAC, dining facility. Then at Osan, a 156-room 
dormitory down there. So we are very thankful for that. You 
talk about morale, that helps Soldiers, Sailors Airmen and 
Marines when they see something like that.
    For '13, the key things that were submitted are four 
projects. There is going to be a chemical battalion that is 
going to be repositioned from the United States, and that is a 
capability we need on the peninsula over there to meet our 
warfighting requirements. That is a project that is in this 
Future Years Defense Plan (FYDP). Then also the other important 
project was the extension for the 51st Fighter Wing at Osan, 
which was in addition to the hospital. We need that for 
operational requirements as well as taking care of the families 
down at Osan. Then the other requirement was for a medical 
clinic and a dental clinic at Kunsan, where our other fighter 
squadrons are. So those are needed very much to meet the 
operational requirements.
    The Department of Defense Education Activity is replacing 
schools globally. They have an initiative on that. There is a 
29-year-old elementary school at Osan that pretty much needs 
replacement, and that is what is in this request. So we would 
ask for help on that.
    The other thing that we need to be mindful of as we move 
down to Camp Humphreys, I have placed a lot of emphasis on our 
communications, command and control and eliminating single 
points of failure, which is very much needed to meet our 
warfighting requirements. So there will be a bill that will be 
coming forward that we are working with the Army as the 
executive agent. That will be funded primarily between ROK and 
U.S., but we will need some help on that. So the total U.S. 
bill on that right now is going to come in at about $362 
million because there are some unique communications 
requirements that we need to meet our warfighting requirements 
over there, and we would ask for support on that.
    Mr. Carter. The personnel turbulence, is that affecting 
your mission? I understand short tours are a significant factor 
for soldiers, and that sometimes means they are not in theater 
very long. The constant churn of soldiers, does that put a 
strain on readiness?

                             ARMY READINESS

    General Thurman. Congressman, yes, sir, it does, primarily 
with Army forces. First off, we have 1-year tours, for the most 
part, for the ones that are not command-sponsored, and then 
some soldiers elect through what we call the AIP program, 
Assignment Incentive Pay to stay an additional year in Korea. 
Some soldiers sign up for that.
    But we have predominantly a young force. Many of the young 
soldiers that come over there, it is their first tour as they 
come into the Army. So we generally lose about 600 to 700 
soldiers a month either coming in or going out.
    I have gone back to the Army. I have asked General Odierno 
when he just recently visited, as well as the G-3 of the Army, 
to look at how we can build readiness a little better so we can 
eliminate the constant churn. Because as you can imagine, that 
is the turnover inside those formations, and we are constantly 
having to requalify combat crews on tanks and Bradley Fighting 
Vehicles, Howitzer crews and that sort of business.
    So I have asked the Army to go back and look at what is the 
best model to build the best readiness at best value, because 
as I said earlier in here, it is important to look at the cost-
benefit trade-offs. But that whole personnel turbulence is 
probably one of my biggest challenges in a given month.
    Mr. Carter. My time is probably up, but I wanted to mention 
that when we were with Secretary Panetta, he was being 
questioned, and I wish my friend from Mississippi was here to 
hear this, being questioned about sequestration, the Secretary 
is a former Congressman. He knows a whole lot about this 
institution. And he just said the concept of sequester was 
unacceptable and he has confidence that our Congress would get 
to work so that we don't have to have a sequester. And that 
would better explain the position that the Navy and the Army 
are in when the question was asked.
    Our job is to fix it so this doesn't happen, and the 
Secretary's comments, are reasonable. I agree with him 100 
percent, it is unacceptable, and it is the job of this 
Congress, if we have to work on Christmas Day, to get this 
fixed.
    Thank you for your service, both of you. I appreciate you 
very much.
    Mr. Culberson. Thank you, Judge Carter. We will, I know all 
of us, work arm-in-arm to make sure the sequester doesn't kick 
in. It would be devastating to our military.
    I did want to ask both of you if you could an open-ended 
question to give you a chance to talk to us about your military 
construction needs for this year. Is there anything that you 
would like the committee to pay particular attention to, 
anything extra, or in addition to what has been submitted to 
the committee that you would like us to be sure that we take 
care of for you?

                              MILCON FUNDS

    Admiral Locklear. There is one thing I would just like to 
highlight based on the DPRI initiatives. As you know, the 
fiscal year 2012 National Defense authorization Act (NDAA) put 
some restrictions on any funds being applied towards MILCON 
projects or projects that do DPR until certain criteria were 
met. One of those was a Secretary of Defense assessment of the 
East Asia force laydown; the Commandant of the Marine Corps 
preferred force laydown perspectives. So there is a hold on 
those funds right now.
    There is one project that technically falls under the DPRI 
but it is a continuation of an authorization that was for 
fiscal year 2010. It is in Guam. It is in the Marine Corps' 
request for $26 million. It supports the second increment of a 
ramp expansion that eventually goes towards the aviation wing 
transfer to Guam. It would be good if we could, as we work 
through this in the coming months, if we could assure that 
project doesn't stop. We need that ramp extension no matter 
what happens in DPRI, and it needs to continue, and I think 
stopping it would be not a good thing from a fiscal 
perspective.
    Mr. Culberson. General Thurman, anything in particular you 
want us to pay attention to this year, sir? Is there anything 
you would like to add to the list?
    General Thurman. Congressman, or Chairman, other than what 
I just put out for this year, those are the key requirements. I 
would just say as we go forward in the future, if we realign 
any capabilities in there for some reason, then there could 
potentially be a requirement. I don't have that right now. But 
I think what is important over there we make adjustments is for 
it to be operationally focused. That is what I would tell you 
today as I look at any requirements that come up on the 
peninsula.
    Mr. Culberson. I want to ask also about Guam, the current 
civilian infrastructure. We had both of our staffs go out and 
visit Guam recently and got a lot of good information back.
    Admiral Locklear, I want to ask you in particular about the 
civilian infrastructure on Guam. It is our impression that that 
civilian infrastructure cannot sustain the impact of the Marine 
Corps relocation as previously envisioned, let alone the 
separate Navy and Air Force buildups, and making this work is 
going to require an enormous effort by the entire government.
    In light, Admiral, of the changes to the number of Marines 
and their families potentially to be relocated to the island, 
are you satisfied with the progress you are seeing on the 
civilian side, sir?
    Admiral Locklear. Mr. Chairman, could you clarify for me 
``civilian''? You mean government civilians, or are you talking 
about the local population and the industrial base in Guam to 
be able to support the buildup?

                                  GUAM

    Mr. Culberson. The infrastructure there on the island, yes, 
sir.
    Admiral Locklear. I understand that there have been some 
concerns. I understand from my dialogue with the representative 
from Guam that based on the thinking of the numbers of Marines 
and equipment that may come there, that they are working 
through the concerns of the past. Certainly it is something we 
have to take into calculation as we look at what the total 
costs will be as we come to the end of this thing. But my sense 
is that some of their concerns may be allayed as we move 
forward depending on the timeline we are on and the size of the 
force that is ultimately decided to be moved there. But it is 
something I will certainly pay close attention to.
    Mr. Culberson. But you are comfortable with the progress 
and where we are and meeting the timelines that are out there?
    Admiral Locklear. I would say that I have got to see the 
timelines that we--as the discussions occur between the 
Department of Defense and the defense folks in Japan of how 
this force flows based on the decisions that are made about 
what happens in Okinawa before I could give you an assessment 
of that. But I would be happy to come back to you and give you 
that assessment once I understand that timeline.
    Mr. Culberson. Thank you, sir. I will have a number of 
questions I will submit to you in writing.
    I am happy to recognize my friend, Mr. Bishop.
    Mr. Bishop. I don't have any questions, Mr. Chairman. I 
think my questions have been covered by other members, by the 
chairman. I just thank the two gentlemen for their assistance.
    Mr. Culberson. Thank you. I have got a hard stop coming up 
for me at 12:30.
    Mr. Carter, any further questions?
    Mr. Carter. No. I have asked my questions. Thank you, 
gentlemen. I want to thank both of you for your service to our 
country. God bless you.
    Mr. Culberson. Mr. Farr.
    Mr. Farr. Mr. Chairman, thank you very much for this 
hearing. I wish we could really do this in kind of a seminar 
format, because I think we in Congress need to begin 
understanding what the awesome responsibilities are of PACOM. I 
live in California. We call it the Pacific Rim. It is how big 
that incredible Pacific Ocean is.
    But you look at here, and Judge Carter and I have flown 
around the world over it, and been in several of these 
countries together, 36 countries under this command, 52 percent 
of the Earth's surface, 50 percent of the world population, 
3,000 different languages spoken in 16 different time zones. 
Our knowledge of that part of the world is so limited because 
our heritage, most of it comes from Europe and the Atlantic, 
and our focus is always there and our huge bases are there. And 
I hope that as we move into the future, that we can spend a 
little more time.

                    INTERNATIONAL MILITARY EDUCATION

    I just want to ask you this question about the value of 
international military education. I had, I don't know, maybe 50 
officers here yesterday sitting with me who were at the Naval 
Postgraduate School studying. They are going to get a master's 
degree. They are going to spend two years, the longest time any 
foreign military will spend in the United States, living in a 
small community in America. And it seems to me we need to spend 
a lot--if we are going to indeed engage in sort of a U.N. 
peacekeeping stability ops, all those things, we are going to 
have to invest in educating their military commands as much as 
our own.
    And how much--I mean, this is interesting, because our 
committee, appropriations, not this committee, funds that, not 
under the defense contract, but the military education comes 
under State Department. And I just wondered what your reaction 
or feeling about it is. I was excited to see all these young 
officers, a lot of them from Singapore, Taiwan, and it just 
occurred to me that we got so much work to do, and it is all 
under your command. You are the one that can pull it all 
together. And we need some more feedback as to where we ought 
to be downsizing, squeezing and trimming. We still have to make 
some smart investments, and certainly military education is, I 
think, a very smart investment, particularly when it is co-
national or bi-national or multi-national.
    Admiral Locklear. I couldn't agree with you more, sir, and 
particularly as it relates to how we interact the State 
Department and the embassies out there. I will guarantee that 
if I go to all 36 American embassies in these countries, that 
one of the things they will say is keep the International 
Military Education & Training (IMET), the education and 
training funds that are provided to allow those up and coming 
leaders in their country to be socialized into the way that we 
do business, for us to understand how they do business, is 
really a tremendous investment, a return on a very small, 
relatively small amount of money invested. But, like everything 
else, it has a tendency to be kind of at the end of the food 
chain, and I think we need to make sure it is in the funding 
chain, it is in the right perspective.
    There are a number of programs that way, that we get 
tremendous return on our investment, and it really does portend 
what the future looks like in this theater of how the future 
leaders in these countries understand how we understand them 
and how they understand us, and what we share and what we 
disagree on.
    Mr. Farr. Well, I appreciate that, because I think so often 
we hear from the Pentagon across the street, which seems to 
become Washington priorities, when we get the feedback from the 
combatant commanders in theater, that look, these little IMET 
and these other international investments are extremely 
important to stability. We need to hear that and make sure that 
is part of our strategy, rather than just an option to cut, 
squeeze and trim. I appreciate your comment. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Farr.
    Admiral Locklear, General Thurman, thank you so very much 
for your service. Again, we deeply appreciate your commitment, 
your lifetime of service to the Nation, and please communicate 
to all the men and women under your command that Congress is 
going to work arm-in-arm to make sure they don't have any 
worries about the supply chain coming in behind them and 
encourage them to stay focused on their mission.
    Thank you very much for your service. The hearing is 
adjourned.

[GRAPHIC] [TIFF OMITTED] T6023A.205

[GRAPHIC] [TIFF OMITTED] T6023A.206

[GRAPHIC] [TIFF OMITTED] T6023A.207

[GRAPHIC] [TIFF OMITTED] T6023A.208

[GRAPHIC] [TIFF OMITTED] T6023A.209

[GRAPHIC] [TIFF OMITTED] T6023A.210

[GRAPHIC] [TIFF OMITTED] T6023A.211

[GRAPHIC] [TIFF OMITTED] T6023A.212

[GRAPHIC] [TIFF OMITTED] T6023A.213

[GRAPHIC] [TIFF OMITTED] T6023A.214

[GRAPHIC] [TIFF OMITTED] T6023A.215

[GRAPHIC] [TIFF OMITTED] T6023A.216

[GRAPHIC] [TIFF OMITTED] T6023A.217

[GRAPHIC] [TIFF OMITTED] T6023A.218

[GRAPHIC] [TIFF OMITTED] T6023A.219

[GRAPHIC] [TIFF OMITTED] T6023A.220

[GRAPHIC] [TIFF OMITTED] T6023A.221

[GRAPHIC] [TIFF OMITTED] T6023A.222

[GRAPHIC] [TIFF OMITTED] T6023A.223

[GRAPHIC] [TIFF OMITTED] T6023A.224

[GRAPHIC] [TIFF OMITTED] T6023A.225

[GRAPHIC] [TIFF OMITTED] T6023A.226

[GRAPHIC] [TIFF OMITTED] T6023A.227

[GRAPHIC] [TIFF OMITTED] T6023A.228

[GRAPHIC] [TIFF OMITTED] T6023A.229

[GRAPHIC] [TIFF OMITTED] T6023A.230

[GRAPHIC] [TIFF OMITTED] T6023A.231

[GRAPHIC] [TIFF OMITTED] T6023A.232

[GRAPHIC] [TIFF OMITTED] T6023A.233

[GRAPHIC] [TIFF OMITTED] T6023A.234

[GRAPHIC] [TIFF OMITTED] T6023A.235

[GRAPHIC] [TIFF OMITTED] T6023A.236

[GRAPHIC] [TIFF OMITTED] T6023A.237

[GRAPHIC] [TIFF OMITTED] T6023A.238

[GRAPHIC] [TIFF OMITTED] T6023A.239

[GRAPHIC] [TIFF OMITTED] T6023A.240

[GRAPHIC] [TIFF OMITTED] T6023A.241

[GRAPHIC] [TIFF OMITTED] T6023A.242

[GRAPHIC] [TIFF OMITTED] T6023A.243

[GRAPHIC] [TIFF OMITTED] T6023A.244

[GRAPHIC] [TIFF OMITTED] T6023A.245

[GRAPHIC] [TIFF OMITTED] T6023A.246

[GRAPHIC] [TIFF OMITTED] T6023A.247

[GRAPHIC] [TIFF OMITTED] T6023A.248

[GRAPHIC] [TIFF OMITTED] T6023A.249

[GRAPHIC] [TIFF OMITTED] T6023A.250

[GRAPHIC] [TIFF OMITTED] T6023A.251

[GRAPHIC] [TIFF OMITTED] T6023A.252

[GRAPHIC] [TIFF OMITTED] T6023A.253

[GRAPHIC] [TIFF OMITTED] T6023A.254

[GRAPHIC] [TIFF OMITTED] T6023A.255

[GRAPHIC] [TIFF OMITTED] T6023A.256

[GRAPHIC] [TIFF OMITTED] T6023A.257

[GRAPHIC] [TIFF OMITTED] T6023A.258

[GRAPHIC] [TIFF OMITTED] T6023A.259

[GRAPHIC] [TIFF OMITTED] T6023A.260

[GRAPHIC] [TIFF OMITTED] T6023A.261

[GRAPHIC] [TIFF OMITTED] T6023A.262

[GRAPHIC] [TIFF OMITTED] T6023A.263

[GRAPHIC] [TIFF OMITTED] T6023A.264

[GRAPHIC] [TIFF OMITTED] T6023A.265

[GRAPHIC] [TIFF OMITTED] T6023A.266

[GRAPHIC] [TIFF OMITTED] T6023A.267

[GRAPHIC] [TIFF OMITTED] T6023A.268

[GRAPHIC] [TIFF OMITTED] T6023A.269

[GRAPHIC] [TIFF OMITTED] T6023A.270

[GRAPHIC] [TIFF OMITTED] T6023A.271

[GRAPHIC] [TIFF OMITTED] T6023A.272

[GRAPHIC] [TIFF OMITTED] T6023A.273

[GRAPHIC] [TIFF OMITTED] T6023A.274

[GRAPHIC] [TIFF OMITTED] T6023A.275

[GRAPHIC] [TIFF OMITTED] T6023A.276

[GRAPHIC] [TIFF OMITTED] T6023A.277

[GRAPHIC] [TIFF OMITTED] T6023A.278

[GRAPHIC] [TIFF OMITTED] T6023A.279

[GRAPHIC] [TIFF OMITTED] T6023A.280

[GRAPHIC] [TIFF OMITTED] T6023A.281

[GRAPHIC] [TIFF OMITTED] T6023A.282

[GRAPHIC] [TIFF OMITTED] T6023A.283

[GRAPHIC] [TIFF OMITTED] T6023A.284

[GRAPHIC] [TIFF OMITTED] T6023A.285

[GRAPHIC] [TIFF OMITTED] T6023A.286

[GRAPHIC] [TIFF OMITTED] T6023A.287

[GRAPHIC] [TIFF OMITTED] T6023A.288

[GRAPHIC] [TIFF OMITTED] T6023A.289

[GRAPHIC] [TIFF OMITTED] T6023A.290

[GRAPHIC] [TIFF OMITTED] T6023A.291

[GRAPHIC] [TIFF OMITTED] T6023A.292

[GRAPHIC] [TIFF OMITTED] T6023A.293

[GRAPHIC] [TIFF OMITTED] T6023A.294

[GRAPHIC] [TIFF OMITTED] T6023A.295

[GRAPHIC] [TIFF OMITTED] T6023A.296

[GRAPHIC] [TIFF OMITTED] T6023A.297

[GRAPHIC] [TIFF OMITTED] T6023A.298

[GRAPHIC] [TIFF OMITTED] T6023A.299

[GRAPHIC] [TIFF OMITTED] T6023A.300

[GRAPHIC] [TIFF OMITTED] T6023A.301

[GRAPHIC] [TIFF OMITTED] T6023A.302

[GRAPHIC] [TIFF OMITTED] T6023A.303

[GRAPHIC] [TIFF OMITTED] T6023A.304

[GRAPHIC] [TIFF OMITTED] T6023A.305

[GRAPHIC] [TIFF OMITTED] T6023A.306

[GRAPHIC] [TIFF OMITTED] T6023A.307

[GRAPHIC] [TIFF OMITTED] T6023A.308

[GRAPHIC] [TIFF OMITTED] T6023A.309

[GRAPHIC] [TIFF OMITTED] T6023A.310

[GRAPHIC] [TIFF OMITTED] T6023A.311

[GRAPHIC] [TIFF OMITTED] T6023A.312

[GRAPHIC] [TIFF OMITTED] T6023A.313

[GRAPHIC] [TIFF OMITTED] T6023A.314

[GRAPHIC] [TIFF OMITTED] T6023A.315

[GRAPHIC] [TIFF OMITTED] T6023A.316

[GRAPHIC] [TIFF OMITTED] T6023A.317

[GRAPHIC] [TIFF OMITTED] T6023A.318

[GRAPHIC] [TIFF OMITTED] T6023A.319

[GRAPHIC] [TIFF OMITTED] T6023A.320

[GRAPHIC] [TIFF OMITTED] T6023A.321

[GRAPHIC] [TIFF OMITTED] T6023A.322

[GRAPHIC] [TIFF OMITTED] T6023A.323

[GRAPHIC] [TIFF OMITTED] T6023A.324

[GRAPHIC] [TIFF OMITTED] T6023A.325

[GRAPHIC] [TIFF OMITTED] T6023A.326

[GRAPHIC] [TIFF OMITTED] T6023A.327

[GRAPHIC] [TIFF OMITTED] T6023A.328

[GRAPHIC] [TIFF OMITTED] T6023A.329

[GRAPHIC] [TIFF OMITTED] T6023A.330

[GRAPHIC] [TIFF OMITTED] T6023A.331

[GRAPHIC] [TIFF OMITTED] T6023A.332

[GRAPHIC] [TIFF OMITTED] T6023A.333

[GRAPHIC] [TIFF OMITTED] T6023A.334

[GRAPHIC] [TIFF OMITTED] T6023A.335

[GRAPHIC] [TIFF OMITTED] T6023A.336

[GRAPHIC] [TIFF OMITTED] T6023A.337

[GRAPHIC] [TIFF OMITTED] T6023A.338

[GRAPHIC] [TIFF OMITTED] T6023A.339

[GRAPHIC] [TIFF OMITTED] T6023A.340

[GRAPHIC] [TIFF OMITTED] T6023A.341

[GRAPHIC] [TIFF OMITTED] T6023A.342

[GRAPHIC] [TIFF OMITTED] T6023A.343

[GRAPHIC] [TIFF OMITTED] T6023A.344

[GRAPHIC] [TIFF OMITTED] T6023A.345

[GRAPHIC] [TIFF OMITTED] T6023A.346

[GRAPHIC] [TIFF OMITTED] T6023A.347

[GRAPHIC] [TIFF OMITTED] T6023A.348

[GRAPHIC] [TIFF OMITTED] T6023A.349

[GRAPHIC] [TIFF OMITTED] T6023A.350

[GRAPHIC] [TIFF OMITTED] T6023A.351

[GRAPHIC] [TIFF OMITTED] T6023A.352

[GRAPHIC] [TIFF OMITTED] T6023A.353

[GRAPHIC] [TIFF OMITTED] T6023A.354

[GRAPHIC] [TIFF OMITTED] T6023A.355

[GRAPHIC] [TIFF OMITTED] T6023A.356

[GRAPHIC] [TIFF OMITTED] T6023A.357

[GRAPHIC] [TIFF OMITTED] T6023A.358

[GRAPHIC] [TIFF OMITTED] T6023A.359

[GRAPHIC] [TIFF OMITTED] T6023A.360

[GRAPHIC] [TIFF OMITTED] T6023A.361

[GRAPHIC] [TIFF OMITTED] T6023A.362

[GRAPHIC] [TIFF OMITTED] T6023A.363

[GRAPHIC] [TIFF OMITTED] T6023A.364

[GRAPHIC] [TIFF OMITTED] T6023A.365

[GRAPHIC] [TIFF OMITTED] T6023A.366

[GRAPHIC] [TIFF OMITTED] T6023A.367

[GRAPHIC] [TIFF OMITTED] T6023A.368

[GRAPHIC] [TIFF OMITTED] T6023A.369

[GRAPHIC] [TIFF OMITTED] T6023A.370

[GRAPHIC] [TIFF OMITTED] T6023A.371

[GRAPHIC] [TIFF OMITTED] T6023A.372

[GRAPHIC] [TIFF OMITTED] T6023A.373

[GRAPHIC] [TIFF OMITTED] T6023A.374

[GRAPHIC] [TIFF OMITTED] T6023A.375

[GRAPHIC] [TIFF OMITTED] T6023A.376

[GRAPHIC] [TIFF OMITTED] T6023A.377

[GRAPHIC] [TIFF OMITTED] T6023A.378

[GRAPHIC] [TIFF OMITTED] T6023A.379

[GRAPHIC] [TIFF OMITTED] T6023A.380

[GRAPHIC] [TIFF OMITTED] T6023A.381

[GRAPHIC] [TIFF OMITTED] T6023A.382

[GRAPHIC] [TIFF OMITTED] T6023A.383

[GRAPHIC] [TIFF OMITTED] T6023A.384

[GRAPHIC] [TIFF OMITTED] T6023A.385

[GRAPHIC] [TIFF OMITTED] T6023A.386

[GRAPHIC] [TIFF OMITTED] T6023A.387

[GRAPHIC] [TIFF OMITTED] T6023A.388

[GRAPHIC] [TIFF OMITTED] T6023A.389

[GRAPHIC] [TIFF OMITTED] T6023A.390

[GRAPHIC] [TIFF OMITTED] T6023A.391

[GRAPHIC] [TIFF OMITTED] T6023A.392

[GRAPHIC] [TIFF OMITTED] T6023A.393

[GRAPHIC] [TIFF OMITTED] T6023A.394

[GRAPHIC] [TIFF OMITTED] T6023A.395

[GRAPHIC] [TIFF OMITTED] T6023A.396

[GRAPHIC] [TIFF OMITTED] T6023A.397

[GRAPHIC] [TIFF OMITTED] T6023A.398

[GRAPHIC] [TIFF OMITTED] T6023A.399

[GRAPHIC] [TIFF OMITTED] T6023A.400

[GRAPHIC] [TIFF OMITTED] T6023A.401

[GRAPHIC] [TIFF OMITTED] T6023A.402

[GRAPHIC] [TIFF OMITTED] T6023A.403

[GRAPHIC] [TIFF OMITTED] T6023A.404

[GRAPHIC] [TIFF OMITTED] T6023A.405

[GRAPHIC] [TIFF OMITTED] T6023A.406

[GRAPHIC] [TIFF OMITTED] T6023A.407

[GRAPHIC] [TIFF OMITTED] T6023A.408

[GRAPHIC] [TIFF OMITTED] T6023A.409

[GRAPHIC] [TIFF OMITTED] T6023A.410

[GRAPHIC] [TIFF OMITTED] T6023A.411

[GRAPHIC] [TIFF OMITTED] T6023A.412

[GRAPHIC] [TIFF OMITTED] T6023A.413

[GRAPHIC] [TIFF OMITTED] T6023A.414

[GRAPHIC] [TIFF OMITTED] T6023A.415

[GRAPHIC] [TIFF OMITTED] T6023A.416

[GRAPHIC] [TIFF OMITTED] T6023A.417

[GRAPHIC] [TIFF OMITTED] T6023A.418

[GRAPHIC] [TIFF OMITTED] T6023A.419

[GRAPHIC] [TIFF OMITTED] T6023A.420

[GRAPHIC] [TIFF OMITTED] T6023A.421

[GRAPHIC] [TIFF OMITTED] T6023A.422

[GRAPHIC] [TIFF OMITTED] T6023A.423

[GRAPHIC] [TIFF OMITTED] T6023A.424

[GRAPHIC] [TIFF OMITTED] T6023A.425

[GRAPHIC] [TIFF OMITTED] T6023A.426

[GRAPHIC] [TIFF OMITTED] T6023A.427

[GRAPHIC] [TIFF OMITTED] T6023A.428

[GRAPHIC] [TIFF OMITTED] T6023A.429

[GRAPHIC] [TIFF OMITTED] T6023A.430

[GRAPHIC] [TIFF OMITTED] T6023A.431

[GRAPHIC] [TIFF OMITTED] T6023A.432

[GRAPHIC] [TIFF OMITTED] T6023A.433

[GRAPHIC] [TIFF OMITTED] T6023A.434

[GRAPHIC] [TIFF OMITTED] T6023A.435

[GRAPHIC] [TIFF OMITTED] T6023A.436

[GRAPHIC] [TIFF OMITTED] T6023A.437

[GRAPHIC] [TIFF OMITTED] T6023A.438

[GRAPHIC] [TIFF OMITTED] T6023A.439

[GRAPHIC] [TIFF OMITTED] T6023A.440

[GRAPHIC] [TIFF OMITTED] T6023A.441

[GRAPHIC] [TIFF OMITTED] T6023A.442

[GRAPHIC] [TIFF OMITTED] T6023A.443

[GRAPHIC] [TIFF OMITTED] T6023A.444

[GRAPHIC] [TIFF OMITTED] T6023A.445

[GRAPHIC] [TIFF OMITTED] T6023A.446

[GRAPHIC] [TIFF OMITTED] T6023A.447

[GRAPHIC] [TIFF OMITTED] T6023A.448

[GRAPHIC] [TIFF OMITTED] T6023A.449

[GRAPHIC] [TIFF OMITTED] T6023A.450

[GRAPHIC] [TIFF OMITTED] T6023A.451

[GRAPHIC] [TIFF OMITTED] T6023A.452

[GRAPHIC] [TIFF OMITTED] T6023A.453

[GRAPHIC] [TIFF OMITTED] T6023A.454

[GRAPHIC] [TIFF OMITTED] T6023A.455

[GRAPHIC] [TIFF OMITTED] T6023A.456

[GRAPHIC] [TIFF OMITTED] T6023A.457

[GRAPHIC] [TIFF OMITTED] T6023A.458

[GRAPHIC] [TIFF OMITTED] T6023A.459

[GRAPHIC] [TIFF OMITTED] T6023A.460

[GRAPHIC] [TIFF OMITTED] T6023A.461

[GRAPHIC] [TIFF OMITTED] T6023A.462

[GRAPHIC] [TIFF OMITTED] T6023A.463

[GRAPHIC] [TIFF OMITTED] T6023A.464

[GRAPHIC] [TIFF OMITTED] T6023A.465

[GRAPHIC] [TIFF OMITTED] T6023A.466

[GRAPHIC] [TIFF OMITTED] T6023A.467

[GRAPHIC] [TIFF OMITTED] T6023A.468

[GRAPHIC] [TIFF OMITTED] T6023A.469

[GRAPHIC] [TIFF OMITTED] T6023A.470

[GRAPHIC] [TIFF OMITTED] T6023A.471

[GRAPHIC] [TIFF OMITTED] T6023A.472

[GRAPHIC] [TIFF OMITTED] T6023A.473

[GRAPHIC] [TIFF OMITTED] T6023A.474

[GRAPHIC] [TIFF OMITTED] T6023A.475

[GRAPHIC] [TIFF OMITTED] T6023A.476

[GRAPHIC] [TIFF OMITTED] T6023A.477

[GRAPHIC] [TIFF OMITTED] T6023A.478

[GRAPHIC] [TIFF OMITTED] T6023A.479

[GRAPHIC] [TIFF OMITTED] T6023A.480

[GRAPHIC] [TIFF OMITTED] T6023A.481

[GRAPHIC] [TIFF OMITTED] T6023A.482

[GRAPHIC] [TIFF OMITTED] T6023A.483

[GRAPHIC] [TIFF OMITTED] T6023A.484

[GRAPHIC] [TIFF OMITTED] T6023A.485

[GRAPHIC] [TIFF OMITTED] T6023A.486

[GRAPHIC] [TIFF OMITTED] T6023A.487

[GRAPHIC] [TIFF OMITTED] T6023A.488

[GRAPHIC] [TIFF OMITTED] T6023A.489

[GRAPHIC] [TIFF OMITTED] T6023A.490

[GRAPHIC] [TIFF OMITTED] T6023A.491

[GRAPHIC] [TIFF OMITTED] T6023A.492

[GRAPHIC] [TIFF OMITTED] T6023A.493

[GRAPHIC] [TIFF OMITTED] T6023A.494

[GRAPHIC] [TIFF OMITTED] T6023A.495

[GRAPHIC] [TIFF OMITTED] T6023A.496

[GRAPHIC] [TIFF OMITTED] T6023A.497

[GRAPHIC] [TIFF OMITTED] T6023A.498

[GRAPHIC] [TIFF OMITTED] T6023A.499

[GRAPHIC] [TIFF OMITTED] T6023A.500

[GRAPHIC] [TIFF OMITTED] T6023A.501

[GRAPHIC] [TIFF OMITTED] T6023A.502

[GRAPHIC] [TIFF OMITTED] T6023A.503

[GRAPHIC] [TIFF OMITTED] T6023A.504

[GRAPHIC] [TIFF OMITTED] T6023A.505

[GRAPHIC] [TIFF OMITTED] T6023A.506

[GRAPHIC] [TIFF OMITTED] T6023A.507

[GRAPHIC] [TIFF OMITTED] T6023A.508

[GRAPHIC] [TIFF OMITTED] T6023A.509

[GRAPHIC] [TIFF OMITTED] T6023A.510

[GRAPHIC] [TIFF OMITTED] T6023A.511

[GRAPHIC] [TIFF OMITTED] T6023A.512

[GRAPHIC] [TIFF OMITTED] T6023A.513

[GRAPHIC] [TIFF OMITTED] T6023A.514

[GRAPHIC] [TIFF OMITTED] T6023A.515

[GRAPHIC] [TIFF OMITTED] T6023A.516

[GRAPHIC] [TIFF OMITTED] T6023A.517

[GRAPHIC] [TIFF OMITTED] T6023A.518

[GRAPHIC] [TIFF OMITTED] T6023A.519

[GRAPHIC] [TIFF OMITTED] T6023A.520

[GRAPHIC] [TIFF OMITTED] T6023A.521

[GRAPHIC] [TIFF OMITTED] T6023A.522

[GRAPHIC] [TIFF OMITTED] T6023A.523

[GRAPHIC] [TIFF OMITTED] T6023A.524

[GRAPHIC] [TIFF OMITTED] T6023A.525

[GRAPHIC] [TIFF OMITTED] T6023A.526

[GRAPHIC] [TIFF OMITTED] T6023A.527

[GRAPHIC] [TIFF OMITTED] T6023A.528

[GRAPHIC] [TIFF OMITTED] T6023A.529

[GRAPHIC] [TIFF OMITTED] T6023A.530

[GRAPHIC] [TIFF OMITTED] T6023A.531

[GRAPHIC] [TIFF OMITTED] T6023A.532

[GRAPHIC] [TIFF OMITTED] T6023A.533

[GRAPHIC] [TIFF OMITTED] T6023A.534

[GRAPHIC] [TIFF OMITTED] T6023A.535

[GRAPHIC] [TIFF OMITTED] T6023A.536

[GRAPHIC] [TIFF OMITTED] T6023A.537

[GRAPHIC] [TIFF OMITTED] T6023A.538

[GRAPHIC] [TIFF OMITTED] T6023A.539

[GRAPHIC] [TIFF OMITTED] T6023A.540

[GRAPHIC] [TIFF OMITTED] T6023A.541

[GRAPHIC] [TIFF OMITTED] T6023A.542

[GRAPHIC] [TIFF OMITTED] T6023A.543

[GRAPHIC] [TIFF OMITTED] T6023A.544

[GRAPHIC] [TIFF OMITTED] T6023A.545

[GRAPHIC] [TIFF OMITTED] T6023A.546

[GRAPHIC] [TIFF OMITTED] T6023A.547

[GRAPHIC] [TIFF OMITTED] T6023A.548

[GRAPHIC] [TIFF OMITTED] T6023A.549

[GRAPHIC] [TIFF OMITTED] T6023A.550

[GRAPHIC] [TIFF OMITTED] T6023A.551

[GRAPHIC] [TIFF OMITTED] T6023A.552

[GRAPHIC] [TIFF OMITTED] T6023A.553

[GRAPHIC] [TIFF OMITTED] T6023A.554

[GRAPHIC] [TIFF OMITTED] T6023A.555

[GRAPHIC] [TIFF OMITTED] T6023A.556

[GRAPHIC] [TIFF OMITTED] T6023A.557

[GRAPHIC] [TIFF OMITTED] T6023A.558

[GRAPHIC] [TIFF OMITTED] T6023A.559

[GRAPHIC] [TIFF OMITTED] T6023A.560

[GRAPHIC] [TIFF OMITTED] T6023A.561

[GRAPHIC] [TIFF OMITTED] T6023A.562

[GRAPHIC] [TIFF OMITTED] T6023A.563

[GRAPHIC] [TIFF OMITTED] T6023A.564

[GRAPHIC] [TIFF OMITTED] T6023A.565

[GRAPHIC] [TIFF OMITTED] T6023A.566

[GRAPHIC] [TIFF OMITTED] T6023A.567

[GRAPHIC] [TIFF OMITTED] T6023A.568

[GRAPHIC] [TIFF OMITTED] T6023A.569

[GRAPHIC] [TIFF OMITTED] T6023A.570

[GRAPHIC] [TIFF OMITTED] T6023A.571

[GRAPHIC] [TIFF OMITTED] T6023A.572

[GRAPHIC] [TIFF OMITTED] T6023A.573

[GRAPHIC] [TIFF OMITTED] T6023A.574

[GRAPHIC] [TIFF OMITTED] T6023A.575

[GRAPHIC] [TIFF OMITTED] T6023A.576

[GRAPHIC] [TIFF OMITTED] T6023A.577

[GRAPHIC] [TIFF OMITTED] T6023A.578

[GRAPHIC] [TIFF OMITTED] T6023A.579

[GRAPHIC] [TIFF OMITTED] T6023A.580

[GRAPHIC] [TIFF OMITTED] T6023A.581

[GRAPHIC] [TIFF OMITTED] T6023A.582

[GRAPHIC] [TIFF OMITTED] T6023A.583

[GRAPHIC] [TIFF OMITTED] T6023A.584

[GRAPHIC] [TIFF OMITTED] T6023A.585

[GRAPHIC] [TIFF OMITTED] T6023A.586

[GRAPHIC] [TIFF OMITTED] T6023A.587

[GRAPHIC] [TIFF OMITTED] T6023A.588

[GRAPHIC] [TIFF OMITTED] T6023A.589

[GRAPHIC] [TIFF OMITTED] T6023A.590

[GRAPHIC] [TIFF OMITTED] T6023A.591

[GRAPHIC] [TIFF OMITTED] T6023A.592

[GRAPHIC] [TIFF OMITTED] T6023A.593

[GRAPHIC] [TIFF OMITTED] T6023A.594

[GRAPHIC] [TIFF OMITTED] T6023A.595

[GRAPHIC] [TIFF OMITTED] T6023A.596

[GRAPHIC] [TIFF OMITTED] T6023A.597

[GRAPHIC] [TIFF OMITTED] T6023A.598

[GRAPHIC] [TIFF OMITTED] T6023A.599

[GRAPHIC] [TIFF OMITTED] T6023A.600

[GRAPHIC] [TIFF OMITTED] T6023A.601

[GRAPHIC] [TIFF OMITTED] T6023A.602

[GRAPHIC] [TIFF OMITTED] T6023A.603

[GRAPHIC] [TIFF OMITTED] T6023A.604

[GRAPHIC] [TIFF OMITTED] T6023A.605

[GRAPHIC] [TIFF OMITTED] T6023A.606

[GRAPHIC] [TIFF OMITTED] T6023A.607

[GRAPHIC] [TIFF OMITTED] T6023A.608

[GRAPHIC] [TIFF OMITTED] T6023A.609

[GRAPHIC] [TIFF OMITTED] T6023A.610

[GRAPHIC] [TIFF OMITTED] T6023A.611

[GRAPHIC] [TIFF OMITTED] T6023A.612

[GRAPHIC] [TIFF OMITTED] T6023A.613

[GRAPHIC] [TIFF OMITTED] T6023A.614

[GRAPHIC] [TIFF OMITTED] T6023A.615

[GRAPHIC] [TIFF OMITTED] T6023A.616

[GRAPHIC] [TIFF OMITTED] T6023A.617

[GRAPHIC] [TIFF OMITTED] T6023A.618

[GRAPHIC] [TIFF OMITTED] T6023A.619

[GRAPHIC] [TIFF OMITTED] T6023A.620

[GRAPHIC] [TIFF OMITTED] T6023A.621

[GRAPHIC] [TIFF OMITTED] T6023A.622

[GRAPHIC] [TIFF OMITTED] T6023A.623

[GRAPHIC] [TIFF OMITTED] T6023A.624

[GRAPHIC] [TIFF OMITTED] T6023A.625

[GRAPHIC] [TIFF OMITTED] T6023A.626

[GRAPHIC] [TIFF OMITTED] T6023A.627

[GRAPHIC] [TIFF OMITTED] T6023A.628

[GRAPHIC] [TIFF OMITTED] T6023A.629

[GRAPHIC] [TIFF OMITTED] T6023A.630

[GRAPHIC] [TIFF OMITTED] T6023A.631

[GRAPHIC] [TIFF OMITTED] T6023A.632

[GRAPHIC] [TIFF OMITTED] T6023A.633

[GRAPHIC] [TIFF OMITTED] T6023A.634

[GRAPHIC] [TIFF OMITTED] T6023A.635

[GRAPHIC] [TIFF OMITTED] T6023A.636

[GRAPHIC] [TIFF OMITTED] T6023A.637

[GRAPHIC] [TIFF OMITTED] T6023A.638

[GRAPHIC] [TIFF OMITTED] T6023A.639

[GRAPHIC] [TIFF OMITTED] T6023A.640

[GRAPHIC] [TIFF OMITTED] T6023A.641

[GRAPHIC] [TIFF OMITTED] T6023A.642

[GRAPHIC] [TIFF OMITTED] T6023A.643

[GRAPHIC] [TIFF OMITTED] T6023A.644

[GRAPHIC] [TIFF OMITTED] T6023A.645

[GRAPHIC] [TIFF OMITTED] T6023A.646

[GRAPHIC] [TIFF OMITTED] T6023A.647

[GRAPHIC] [TIFF OMITTED] T6023A.648

[GRAPHIC] [TIFF OMITTED] T6023A.649

[GRAPHIC] [TIFF OMITTED] T6023A.650

[GRAPHIC] [TIFF OMITTED] T6023A.651

[GRAPHIC] [TIFF OMITTED] T6023A.652

[GRAPHIC] [TIFF OMITTED] T6023A.653

[GRAPHIC] [TIFF OMITTED] T6023A.654

[GRAPHIC] [TIFF OMITTED] T6023A.655

[GRAPHIC] [TIFF OMITTED] T6023A.656

[GRAPHIC] [TIFF OMITTED] T6023A.657

[GRAPHIC] [TIFF OMITTED] T6023A.658

[GRAPHIC] [TIFF OMITTED] T6023A.659

[GRAPHIC] [TIFF OMITTED] T6023A.660

[GRAPHIC] [TIFF OMITTED] T6023A.661

[GRAPHIC] [TIFF OMITTED] T6023A.662

[GRAPHIC] [TIFF OMITTED] T6023A.663


</pre></body></html>
